<html>
<title> - EXCHANGE PROGRAMS AND THE NATIONAL INTEREST</title>
<body><pre>[Senate Hearing 106-878]
[From the U.S. Government Printing Office]





                                                        S. Hrg. 106-878

                         EXCHANGE PROGRAMS AND
                         THE NATIONAL INTEREST

=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON INTERNATIONAL OPERATIONS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 14, 2000

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                    U.S. GOVERNMENT PRINTING OFFICE
69-748 CC                   WASHINGTON : 2001


                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
CHUCK HAGEL, Nebraska                PAUL S. SARBANES, Maryland
GORDON H. SMITH, Oregon              CHRISTOPHER J. DODD, Connecticut
ROD GRAMS, Minnesota                 JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                RUSSELL D. FEINGOLD, Wisconsin
CRAIG THOMAS, Wyoming                PAUL D. WELLSTONE, Minnesota
JOHN ASHCROFT, Missouri              BARBARA BOXER, California
BILL FRIST, Tennessee                ROBERT G. TORRICELLI, New Jersey
LINCOLN D. CHAFEE, Rhode Island
                   Stephen E. Biegun, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                 ------                                

                SUBCOMMITTEE ON INTERNATIONAL OPERATIONS

                     ROD GRAMS, Minnesota, Chairman
JESSE HELMS, North Carolina          BARBARA BOXER, California
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
BILL FRIST, Tennessee                RUSSELL D. FEINGOLD, Wisconsin

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Bader, Hon. William B., Assistant Secretary, Bureau for 
  Educational and Cultural Affairs, Department of State, 
  Washington, DC.................................................     2
    Prepared statement...........................................     5
    Responses to additional questions submitted for the record...     8

Byrne, Carol Engebretson, Executive Director, Minnesota 
  International Center, Minneapolis, MN..........................    33
    Prepared statement...........................................    36

Denton, James S., Executive Director, Freedom House, Washington, 
  DC.............................................................    19
    Prepared statement...........................................    24

Johnson, Marlene M., Executive Director and Chief Executive 
  Officer, NAFSA: Association of International Educators, and 
  Chairman of the Board of Directors, Alliance for International 
  Educational and Cultural Exchange, Washington, DC..............    27
    Prepared statement and additional material submitted for the 
      record.....................................................    45

Mueller, Sherry L., Executive Director, National Council for 
  International Visitors, Washington, DC.........................    31

                                 (iii)

  

 
              EXCHANGE PROGRAMS AND THE NATIONAL INTEREST

                              ----------                              


                     WEDNESDAY, SEPTEMBER 14, 2000

                               U.S. Senate,
          Subcommittee on International Operations,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:07 a.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Rod Grams 
presiding.
    Present: Senators Grams and Sarbanes.
    Senator Grams. Good morning. I would like to bring this 
hearing to order. Thank you all very much for being here this 
morning. I am looking forward to the testimony of our witnesses 
and also, of course, to your answers.
    Good morning, Assistant Secretary Bader. I want to thank 
you all, and all of our witnesses, as I mentioned, on the 
second panel for attending this hearing on Exchange Programs 
and the National Interest. I hope that you are going to forgive 
me if I extend a special welcome to my fellow Minnesotans this 
morning, that is Carol Byrne and Marlene Johnson, who will be 
testifying before this committee as well this morning. So 
welcome.
    It is an appropriate time to evaluate how exchanges are 
working, now that a year has passed since the U.S. Information 
Agency [USIA] was consolidated into the State Department. 
Moreover, a full decade after the end of the cold war, I think 
it is an appropriate time to assess how closely exchanges are 
tied to U.S. national interest and foreign policy goals.
    I supported the reorganization of our foreign policy 
bureaucracy in order to provide a more coherent framework to 
advance the national interest and to ensure respect for 
American leadership abroad. National prestige is reinforced and 
enhanced when we operate with a coherent, concise, and 
understandable foreign policy, and I am convinced that by being 
under State Department control ultimately the role of exchanges 
has the potential to be enhanced by having exchanges regarded 
as part of a comprehensive package of tools to respond to 
foreign policy challenges.
    Now, that being said, concerns remain. Exchanges tend to be 
undervalued by the executive branch. I had to fight to modify 
President Clinton's reorganization plan so the exchange 
functions were not combined with information activities into a 
single bureau, and it is unclear whether there is adequate 
support for exchanges within the State Department to ensure the 
exchange budgets will not be reduced when pitted against other 
priorities.
    We know that international exchange and training programs 
serve to complement and strengthen traditional diplomacy. These 
programs are inexpensive, cost effective, and a way to assist 
in building democratic institutions and promoting American 
values throughout the world.
    So if everyone agrees that these benefits exist, why then 
is support for exchanges in question? Well, I will be blunt: 
because in the world of politics there is always pressure to 
sacrifice programs, like exchanges, which yield long-term 
benefits for activities that will reap only short-term gains.
    Let me also say this: Exchanges I believe do make a 
difference. I'm convinced that a major reason why Minnesota is 
so outward looking and so engaged in the international arena is 
because of the active participation in national exchanges of so 
many of our universities and private voluntary organizations. 
The best way to combat harmful isolationist sentiments is to 
directly involve thousands of American citizens each year in 
exchange programs at the grassroots level, and the best way to 
promote democracy and freedom abroad is to use our Nation's 
greatest asset, and that is our people, to advance our goals.
    I want to underscore that point. Exchanges are not just for 
increasing understanding. They are first and foremost for 
promoting America's national interest. Now, if we are going to 
do that effectively, I think we need to take a critical look at 
the programs currently being funded and look for creative ways 
to improve their performance.
    I have enjoyed working with Sherry Mueller of the National 
Council for International Visitors [NCIV] and Carol Byrne of 
the Minnesota International Center to find a way that the 
Sister Cities Program could be enhanced through a partnership 
with the National Visitors Program. I will introduce a proposal 
to fund the Grassroots Exchange and Training Program in the 
next State Department authorization bill.
    So once again, I just wanted to take time this morning to 
thank you for agreeing to testify today. I look forward to 
exploring ways to strengthen and enhance our international 
exchange programs.
    So again, welcome to all our guests. Dr. Bader, I would 
like to give you the floor for your opening statement.

STATEMENT OF HON. WILLIAM B. BADER, ASSISTANT SECRETARY, BUREAU 
  FOR EDUCATIONAL AND CULTURAL AFFAIRS, DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Dr. Bader. Thank you, Mr. Chairman and members of the 
subcommittee, and thank you very much, Mr. Chairman, for that 
very powerful and important statement. The role of this 
committee, and you, in ensuring that the consolidation worked 
as far as the exchange program, was essential. I am very 
pleased to accept the committee's invitation to participate in 
today's hearing on the oversight of the educational and 
cultural exchange programs.
    Just on a personal note, I must say I am very pleased and 
delighted to be back here at the Senate Foreign Relations 
Committee, a place I spent many years, and feel very good about 
that and that time. I am also extremely pleased that today's 
hearing has such wonderful and distinguished representatives of 
the private voluntary organizations. They are in my view, and I 
know it is widely shared, the very heart of what we are in 
exchange programs, and certainly they are the voice.
    Slightly less than 2 years ago, Mr. Chairman, it was my 
great honor to appear before the Senate Foreign Relations 
Committee as the President's nominee to serve as Associate 
Director of the Bureau of Educational and Cultural Affairs. On 
that occasion I expressed my deep belief in the importance of 
exchanges based on prior experience in the government and the 
private sector, and indeed based on my own experience as a 
Fulbrighter.
    The past 22 months as head of the Bureau of Educational and 
Cultural Affairs have confirmed this belief and has deepened my 
appreciation of the effectiveness of the exchange programs 
managed by the Department. The Bureau's mission as stipulated 
by Fulbright-Hays is quite clear: to increase mutual 
understanding between the people of the United States and the 
people of other countries. In April of this year the President 
reinforced that mission with a Presidential Memorandum on 
International Education Policy.
    Each year some 6,000 Fulbrighters study, teach, and 
research a variety of academic subjects, enriching themselves 
and their countries. At the same time, thousands of up and 
coming professionals come to the United States under the 
International Visitors Program and engage American counterparts 
on many of the same subjects, but usually with a focus that is 
more practical than academic.
    Completing this picture are the scores of citizen exchange 
grants linking global organizations across the United States 
with overseas counterparts.
    What makes these programs work is the richness, the 
variety, and the just old-fashioned plain big-heartedness of 
grassroots America. I am delighted that the representatives of 
some of those organizations are appearing before the 
subcommittee today.
    Scores of American voluntary organizations and thousands of 
volunteers make sure these foreign visitors meet their 
counterparts, whether their field is genetically-engineered 
organisms or local government. Future leaders encounter 
American openness at a stage in their lives when they have the 
energy, the freedom, and the time to learn about us firsthand. 
Later, the tyranny of bureaucratic in-boxes and, for some, the 
protective cocoon of senior leadership make it more difficult 
to have this type of contact. Results are striking.
    Many of the visitors to this country are foreign students. 
And 450 U.S. educational advising centers, working in 
partnership with American universities, help bring a half a 
million students to the United States each year. Partnerships 
between American and foreign universities develop the quality 
of teaching in the United States and overseas, and bring, may I 
say, an estimated $9 billion into American communities 
annually. I cannot say enough good things about the American 
volunteers and nongovernmental organizations that make these 
exchanges work.
    The benefits of all these exchanges to the American 
government and American society are in my view enormous. Alumni 
return to their countries as engines of positive change. 
Moreover, we establish contact early on with individuals who 
will one day shape the future of their countries.
    One of the oft-cited but still compelling indicators that 
the right people are participating in these programs is the 
track record on heads of state, a quite extraordinary figure. 
Forty-six current and 148 former heads of government or chiefs 
of state have been on these programs. These results are often 
the consequences of decisions made decades earlier. For 
example, the first civilian to become Minister of Defense in 
Indonesia was a Fulbrighter at Berkeley in 1969--that probably 
prepared him to be a Minister of Defense. He was also later a 
Fulbright scholar at Georgetown in 1985. We must plan now to 
have benefits later.
    Right now the alumni are doing important work. Mr. 
Chairman, I would like to submit for the record a recent Wall 
Street Journal article \1\ on Mr. Zlatko Lagumdzija, who leads 
Bosnia's Social Democratic Party, the one major party trying to 
cut across ethnic lines. He was a Fulbrighter in 1988 and 1989. 
Interesting enough, his interlocutor, the High Representative 
in Bosnia, an Austrian, Wolfgang Petritsch, was also a 
Fulbrighter 15 years earlier. This is an example of the delayed 
impact, but an important impact.
---------------------------------------------------------------------------
    \1\ See page 7.
---------------------------------------------------------------------------
    If I may, I would make one additional observation on the 
Balkans, Mr. Chairman. Let me note for the record that on some 
occasions the impact is more immediate. For example, we brought 
representatives of the Croatian opposition parties to the 
United States over the strenuous opposition of the Tudjman 
regime. Within a year, they were running the country. Examples 
like this are dramatic.
    In addition to the case studies and feedback on the actions 
of specific individuals, there are other indicators that the 
Bureau programs are advancing the national interest. In a 
recent survey on public diplomacy, ambassadors urged us to 
augment the existing programs and rated exchanges very highly. 
The two largest Bureau programs, Fulbright and the 
International Visitors Programs, received near-perfect scores. 
Independent external evaluations are also very encouraging.
    Despite the good news on the impact of our programs, I do 
not want to suggest the sky is cloudless. Rapid change in the 
outside world complicates the adjustment process. The former 
Soviet Union is now 12 separate countries. Latvia, Estonia, and 
Lithuania are independent. The old Yugoslavia has separated or 
disintegrated into five separate states. In these countries, 
security issues and transition from communism to democracy 
affect vital American interests. There is no shortage of tasks 
that we could undertake.
    Mr. Chairman, in the Newly Independent States [NIS], it is 
only additional funding provided under the Freedom Support Act 
for exchange activities that permits us to conduct robust 
public diplomacy in that part of the world. There are over 
50,000 alumni already of these exchanges within the NIS, 
potentially an enormous resource. It is no exaggeration to say 
that in large measure the future of their countries is riding 
on their shoulders. Needless to say, the nature of their future 
has profound implications for us.
    We are proud of these programs, Mr. Chairman. It is 
important to note that the Bureau's appropriated funds, that is 
our base funds, cover only 21 percent of the total Bureau 
programs in the NIS. The balance is covered by Freedom Support 
funds. Without this funding, we would have to let priorities go 
unmet and cut back dramatically on Bureau programs in other 
regions to continue to meet the need in the NIS.
    Mr. Chairman, we need to prepare for the future. Closed 
societies will open. We do not know yet the precise where and 
when, but we know it will happen. Public diplomacy is an 
exceptionally flexible instrument. It is deeply subversive to 
authoritarian systems. It has proven its effectiveness in 
societies in transitions and is well suited to new issues.
    We do believe, Mr. Chairman, we have brought into the State 
Department assets that greatly fortify traditional diplomatic 
readiness. Through our programs, we will help make available to 
the rest of the world the richness of American life. In Wall 
Street parlance, we are long-term investors with a special 
interest in emerging markets.
    We look forward to working with you, Mr. Chairman, and 
other members of the committee as we plan for the future, and I 
would be most happy to take any questions you may have. Thank 
you very much, Mr. Chairman.
    [The prepared statement of Dr. Bader follows:]

              Prepared Statement of Hon. William B. Bader

    Mr. Chairman, Members of the Subcommittee:
    I am pleased to accept the Committee's invitation to participate in 
today's hearing on oversight of educational and cultural exchanges.
    Slightly less than two years ago it was my great honor to appear 
before the Senate Foreign Relations Committee as the President's 
nominee to serve as Associate Director of the Bureau of Educational and 
Cultural Affairs, at the time located in USIA. On that occasion I 
expressed my deep belief in the importance of exchanges, based on prior 
experience in government and in the private sector--and indeed based on 
my own experience as a Fulbrighter. The past twenty-two months as the 
head of the Bureau of Educational and Cultural Affairs, now back in the 
State Department, have confirmed my belief and have deepened my 
appreciation for the effectiveness of the exchange programs managed by 
the Department.
    The Bureau's mission, as stipulated in the Fulbright-Hays Act, 
remains ``. . . to increase mutual understanding between the people of 
the United States and the people of other countries . . .'' In April of 
this year the President reinforced this mission with a presidential 
memorandum on international education policy. The main components of 
our effort are familiar to all--Academic Exchanges (primarily 
Fulbright), the International Visitor (IV) program, and Citizen 
Exchanges. I was familiar with the Fulbright program but knew much less 
about International Visitors and Citizen Exchanges when I started this 
job. Since then I have seen first-hand how these programs not only 
complement and reinforce one another, but also add to the effectiveness 
of U.S. foreign policy. The President's FY 2001 budget will enhance 
this effectiveness.
    Each year some six thousand Fulbrighters study, teach, and research 
a variety of academic subjects, enriching themselves and their 
countries. At the same time thousands of up-and-coming professionals 
come to the United States under the International Visitor program and 
engage American counterparts on many of those same subjects but usually 
with a focus that is more practical than academic. Completing this 
picture are the scores of Citizen Exchange grants linking local 
organizations across the United States with overseas counterparts on 
issues of importance to the United States.
    What makes these programs work is the richness, variety, and just 
plain bigheartedness of grass-roots America. I am delighted that 
representatives of some of those organizations are appearing before the 
subcommittee today. Nonprofit organizations in states across the 
country, including Minnesota, have received millions of dollars to run 
high-school exchange programs, business training, and International 
Visitor programs as partners of the Bureau. They and other 
organizations work with the State Department and the Department of 
Education to implement the presidential memorandum on international 
education I cited earlier. In addition approximately fifteen hundred 
American organizations administer J-visa exchange programs in 
connection with international exchange programs that they manage. 
Authorizing organizations to administer J-visa exchange programs is a 
function the Bureau embraced last year as a result of the USIA-State 
Department consolidation.
    Scores of American voluntary organizations and thousands of 
volunteers make sure that foreign visitors meet their counterparts--
whether their field is genetically engineered organisms or local 
government--and learn to see the United States in a nuanced way. Future 
leaders encounter American openness at a stage in their lives when they 
have the energy, the freedom, and the time to learn about us first 
hand. Later the tyranny of the in-box and, for some, the protective 
cocoon of senior leadership make it more difficult to have this type of 
contact. The results are striking. From that point onward both visitor 
and host will think differently about things international. They will 
test stereotypes and hearsay against the reality of their own direct, 
personal experience. This is no small matter. In today's world, 
decision-making is increasingly decentralized, and decisions made in 
one country resonate elsewhere. It is in the American national interest 
that such decisions be made on the basis of accurate perceptions.
    Many of the visitors to this country are foreign students. Four 
hundred and fifty advising centers, working in partnership with 
American universities, help bring a half million students to the United 
States each year. These future leaders learn about our country at a 
formative period in their lives, and American students benefit from 
their presence. Partnerships between American and foreign universities 
develop the quality of teaching in the United States and overseas and 
bring nine billion dollars into American communities annually. I cannot 
say enough good things about the American volunteers and non-
governmental organizations that make these exchanges work. It is not 
coincidental that time and again visitors are so impressed by the 
activism, volunteerism, and can-do attitude of ordinary citizens. It 
is, I think, one of the most important aspects of our society, one many 
of us take for granted. Our ``diplomacy of inclusion'' also makes an 
impression, I believe. In Bureau exchanges we actively encourage the 
involvement of traditionally under-represented groups, including women, 
ethnic minorities, and those with disabilities.
    The benefits of all these exchanges to the American government and 
American society are, in my view, enormous. Alumni return to their 
countries as engines of positive change. Moreover we establish contact 
early on with individuals who will one day shape their countries' 
future. One of the often cited but still compelling indicators that the 
right people are participating in our programs is the track record on 
heads of state--46 current and 148 former heads of government or chiefs 
of state. These results are often the consequence of decisions made 
decades earlier. For example the first civilian to become minister of 
defense in Indonesia was a Fulbrighter at Berkeley in 1969 and a 
Fulbright scholar at Georgetown in 1985. We must plan now to benefit 
later.
    Our alumni not only occupy important positions, but we know that at 
times a well designed program in the United States can have a profound 
impact on events, as in the case of F.W. deKlerk, who credits his IV 
experience with changing his mind on race relations in South Africa. 
And right now our alumni are doing important work. Mr. Chairman, I 
would like to submit for the record a recent Wall Street Journal 
article on Mr. Zlatko Lagumdzija who leads Bosnia's Social Democratic 
Party--the one major party trying to cut across ethnic lines. He was a 
Fulbrighter in 1988-89. Interestingly his interlocutor as High 
Representative in Bosnia, Wolfgang Petritsch, was also a Fulbrighter, 
15 years earlier. This is an example of delayed impact.
    If I may make one additional observation on the Balkans, Mr. 
Chairman let me note that on occasion the impact will be more 
immediate. For example we brought representatives of the Croatian 
opposition parties to the U.S. over the strenuous objections of the 
Tudjman regime. Within in a year they were running the country.
    Examples like these are dramatic. More typical are the thousands of 
other alumni who are making important contributions in less visible 
ways. They defend human rights, practice sound journalism, counter 
AIDS, combat trafficking in persons, lobby for good governance, promote 
the rule of law, and advance reconciliation. In short, they are 
building civil societies from the bottom up. In addition the broader 
constituencies reached by Bureau programs increasingly influence and 
constrain governments. NATO enlargement and food standards are two 
recent examples. By engaging those who frame the intellectual agenda--
from curriculum designers to television anchors--we promote 
comprehension of the U.S. and provide a broader context for 
understanding our policies.
    In addition to case studies and feedback on the actions of specific 
individuals there are other indicators that Bureau programs are 
advancing the national interest. In the recent survey on public 
diplomacy ambassadors urged us to augment existing programs and rated 
exchanges very highly. The two largest Bureau programs--Fulbright and 
IV--received near perfect scores.
    Independent, external evaluations are also encouraging. For 
instance, a recent survey of the Humphrey program for mid-career 
professionals substantiated the quality of the exchange, its impact on 
the careers of participants, and their high regard for the U.S. More 
surprisingly perhaps, it also revealed that ninety-five percent of 
alumni continue to collaborate with American colleagues. This is 
precisely the sort of international networking and multiplier effect 
our programs seek to foster. We are placing greater emphasis on 
professional evaluation of our programs, Mr. Chairman, and we would be 
happy to share the results with you and your committee.
    Despite the good news on the impact of our programs, I do not want 
to suggest that the sky is cloudless. Rapid change in the outside world 
complicates the adjustment process. The former Soviet Union is now 
twelve separate countries. Latvia, Estonia, and Lithuania are 
independent. The old Yugoslavia has shattered into five separate 
states. In these countries security issues and the transition from 
communism to democracy affect vital American interests. There is no 
shortage of tasks that we could undertake.
    Mr. Chairman, in the NIS it is only additional funding provided 
under the Freedom Support Act (transfers from USAID) for exchange 
activities that permits us to conduct the robust public diplomacy 
required in that part of the world. Young faculty work with U.S. 
mentors to develop new courses on governance, journalism, and other 
critical subjects. Entrepreneurs see first-hand how American small 
businesses create wealth and promote choice. The best and brightest 
high-school students participate in the Future Leaders Exchange Program 
(FLEX), targeted at the next generation in the NIS. The cream of the 
successor generation attend American high schools and experience 
democracy first-hand in our families, our classrooms, and our 
communities. There are 50,000 alumni of these programs in the NIS--
potentially an enormous resource. It is no exaggeration to say that in 
large measure the future of their countries is riding on their 
shoulders. Needless to say, the nature of their future has profound 
implications for us.
    We are proud of these programs, Mr. Chairman. It is important to 
note that Bureau appropriated funds (base funds) cover only 21 percent 
of total Bureau programs in the NIS. The balance is covered by FSA 
funds. Without FSA funding, we would have to let priorities go unmet or 
cut back dramatically on Bureau programs in other regions, to continue 
to meet the need in the NIS.
    Mr. Chairman, we need to prepare for the future. Closed societies 
will open. We don't know the precise ``where and when'' but we know it 
will happen. Public diplomacy is an exceptionally flexible instrument. 
It is deeply subversive to authoritarian systems. It has proven its 
effectiveness in societies in transition, and it is well suited to new 
issues that stimulate broad public engagement.
    We believe, Mr. Chairman, we have brought into the Department of 
State assets that greatly fortify traditional diplomatic readiness. 
Through our programs we help make available to the rest of the world 
the richness of American life and experience, furthering mutual 
understanding in the process. In Wall Street parlance we are long-term 
investors with a special interest in emerging markets.
    We look forward to working with you, Mr. Chairman, and the other 
members of the committee as we plan for the future. I would be happy to 
address any questions you may have. Thank you.

                                 ______
                                 

        [From the Wall Street Journal, Wednesday, June 28, 2000]

                 The West Might Have Its Man in Bosnia

    COMPUTER-SCIENCE PROFESSOR LEADS ONLY MAJOR PARTY THAT BRIDGES 
                               ETHNICITY

                         (By Matthew Kaminski)

    Sarajevo, Bosnia-Herzegovina.--Wanted: moderate leader for 
splintered state. Ideal candidate would pursue market reforms, crack 
down on corruption and reconcile warring ethnic groups.
    It is a hard bill to fill in the Balkans. Now, as Kosovo rumbles, 
the Western allies think they might have their man in Bosnia, after 
nearly five frustrating years of trying to hold that country together.
    Zlatko Lagumdzija, a 44-year-old computer-science professor, 
wouldn't say so. He led the country's only major party that bridges 
ethnicity to a surprisingly strong showing in recent Bosnia-wide 
municipal elections: His Social Democrats, or SDP, look to build on 
that peformance in November's national poll.
    The SDP is cutting into support for nationalist parties that 
obstruct efforts backed by the U.S. and European Union to forge a 
single state out of three ethnic ghettos in Bosnia. Muslims, Croats and 
Serbs were the antagonists in the 1992-95 war; Muslims and Croats 
joined forces in 1994 and uneasily share a federation in the western 
half of Bosnia. The Serb republic makes up the other half.
    The international community is looking for an exit strategy for its 
20,000 peacekeeping troops and thousands of bureaucrats. Is the SDP it? 
If his electoral success continues, senior Western officials say, Mr. 
Lagumdzija is the face of a pluralistic, united Bosnia. This kind of 
country, they believe, wouldn't sink back into war.
    ``He could be a politician in a Western European country; that in 
itself spells the difference,'' says Wolfgang Petritsch, the high 
representative, a sort of Western overseer in Bosnia.
    Recent history doesn't bode well. Many of the wartime leaders 
stayed on when fighting stopped, legitimized by frequent elections. The 
$5 billion in foreign aid was channeled into an economy beholden to the 
state. The SDP can't match the three nationalist parties' powers of 
patronage.
    ``What I'm out to do is break the system,'' says Mr. Lagumdzija, 
who started out in the now defunct Communist Party. But now he plays 
the outsider. During the April campaign for city councils, he touched a 
popular nerve with attacks on the ruling parties', alleged corruption 
and for dragging Bosnia into war.
    The SDP carried the Muslim-Croat Federation, attracting 29% of the 
popular-vote, compared with 20% for the ruling Party Democratic Action 
(SDA), according to an analysis of 145 municipalities by the Center for 
European Policy Studies. Support came mainly from Muslims in bigger 
cities. The SDP received only a smattering of ballots in Republika 
Srpska, the Serbian half of the country, and from Croats, a fifth of 
the population, most of whom live in western Bosnia. Nationalist 
parties continued their domination in both areas.
    But the SDP's performance shook up the political scene in the 
Muslim-dominated Federation, where the party won 19 mayorships. Earlier 
this month, the SDA's aging leader, Alija Izetbegovic, announced his 
resignation from Bosnia's three-person presidency.
    As the largest ethnic group, Bosnian Muslims must show the way 
forward, says Mr. Lagumdzija, and Bosnia's other nationalities will 
follow.
    As in Serbia, where the opposition also controls many cities, real 
power rests higher up. The well-funded SDA holds the purse strings 
through its hold on regional administrations--up for grabs in 
November's elections.

                                 ______
                                 

  Responses of Hon. William B. Bader to Additional Questions for the 
                   Record from Senator Barbara Boxer

    Question. I understand that there are high-quality, well-
established programs like Amity Institute, which the Bureau of 
Educational and Cultural Affairs has up till now been unable or 
unwilling to find a place for in the current J-1 visa regulations. This 
situation has threatened the unnecessary demise of some of these 
programs. How does the Bureau plan to deal with programs like Amity 
Institute to ensure that you do not terminate valid, necessary programs 
simply because of regulatory technicalities?

    Answer. The Bureau is committed to giving full consideration to any 
program which enhances mutual understanding as envisioned under the 
Fulbright-Hays Act. Toward this end, the Bureau will continue to work 
with Amity Institute in order to ensure that its foreign language 
volunteer program can continue to operate; while this could not clearly 
be done under existing regulations, it will be possible through 
amendments.

    Question. How does the Bureau of Educational and Cultural Affairs 
plan to address the specific problem that Amity faces in regard to its 
foreign language teacher program? Will this program continue unhindered 
next year?

    Answer. Amity is interested in conducting a foreign language 
program using volunteers to assist qualified teachers in primary and 
secondary classrooms in the United States. There are no regulations to 
provide for this activity. The Department is therefore preparing 
regulations for a new category. In the meantime, the Amity Pilot 
program will continue without interruption until formal regulations are 
in place.

    Question. I understand that Amity's program will require that a new 
classification be created under the J-1 Visa Program. When will this 
new classification be made?

    Answer. The activity being conducted by the Amity Institute's 
foreign language volunteers does not fall squarely within any of the 
existing Exchange Visitor Program categories. The Bureau is developing 
a category to accommodate this activity and is in the process of 
drafting the necessary regulations to put it in place. It is estimated 
that this process, which involves a public notice and comment period, 
will take a few months. We will move it along as expeditiously as 
possible in consultation with Amity.

    Question. Have overseas staffing levels for public diplomacy 
positions--the former USIS positions--remained consistent? Is the State 
Department committed to maintaining these levels, especially for 
cultural affairs officers who handle exchanges?

    Answer. Overseas staffing levels for public diplomacy program 
positions have remained consistent during this first year of 
integration, and no reduction of public diplomacy positions is proposed 
in FY 2001. The Secretary is committed to preserving and strengthening 
the public diplomacy program. We plan to maintain the level of public 
diplomacy staff and resources, including cultural affairs officers who 
handle exchanges.

    Senator Grams. Thank you very much, Assistant Secretary 
Bader. I appreciate that, and your request to have that article 
included in the record will be as you request.
    Assistant Secretary Bader, I am going to begin with a 
question on the budget for international exchanges. As you 
know, during the 1990's the educational and cultural exchange 
programs accounts appropriations reached a high of $366.8 
million back in fiscal year 1994. Why has the administration 
only requested $225 million for the next fiscal year?
    Dr. Bader. Let me begin, Mr. Chairman, by saying you are 
right on point with respect to the funding for these programs. 
The amount we have today for exchanges is one-third less than 
we had in constant dollars in 1993. So we really do have a 
shortfall. It is particularly important to understand how to 
fill the shortfall because of what I have just mentioned, this 
emergence of new states that we have to serve, a quarter more 
new states. In the world that we are in right now, we have to 
have the kinds of programs and the funds for programs to meet 
critical situations, surge activities, and the like.
    The President's request of $225 million, which has not yet 
passed the full Senate, meets the President's net request, 
though the distribution of funds differs a bit from the 
request. I would just note here that the bill merges the North-
South Center appropriation with educational and cultural 
exchange programs without cross-walking the funds, thus 
effectively reducing the President's request by $1.7 million, 
which is something we should perhaps all look at.
    To answer your question, I think we are now obviously in a 
time of reduced resources. We are always looking for more. We 
were very pleased with the President's request. We were indeed 
very pleased with the fact that the Senate appropriation moved 
forward with the $225 million. The House level at $214 million 
provides a 5 percent increase.
    I would say that right now, if we could reach as close as 
possible to that $225 million for 2001, we will be able to meet 
those kinds of requirements and programs we wish to have. We do 
in fact, Mr. Chairman, have what you might call a very 
aggressive plan for exchanges. We hope that the Congress will 
support it.
    Senator Grams. I look forward to working with you on the 
next appropriations process dealing with this budget. So thank 
you.
    On reorganization, now that exchanges have been 
administered by State for about a year, could you describe for 
me this morning how operating the exchanges within the 
Department of State has benefited either the exchange program 
or, as I talked about in my opening statement, U.S. foreign 
policy?
    Dr. Bader. I feel very strongly, Mr. Chairman, that moving 
these assets and programs into the State Department is a major 
step forward. We have been very well and warmly received in the 
Department. I should say, very much thanks to this committee, 
we have returned to the State Department with the integrity of 
exchanges and our separate appropriation intact. This is in 
fact terribly important.
    What are the advantages of being there? I think they are 
significant. It gives us an opportunity to coordinate early and 
often with the other bureaus of the Department. I feel very 
strongly that we now are in a position to be in at the planning 
stages with respect to supporting U.S. foreign policy 
objectives, to be able to do those consistent with our 
legislative mandate, and to preserve the integrity of the 
program.
    What else can I say about the Bureau's consolidation and 
how it has gone thus far? Well, we continue to be dependent on 
our cultural officers and our public affairs officers in the 
field and local staffs. They are really the golden thread out 
to the field. We would not be able to function and to find 
future leaders if we did not in fact have those officers.
    One of my greatest concerns in the consolidation process is 
whether we will in fact be able to have the attention of those 
officers in the field. We are making great strides to convince, 
if you will, the old State Department, that those officers have 
to be on point. This is something we have to be very attentive 
to. Without those officers in the field being attentive and 
being evaluated on the success of these exchange programs, the 
consolidation in fact will have a real deficit. That is 
something we have to be very careful about.
    I see, Mr. Chairman, that the other bureaus of State 
Department are now beginning to acknowledge the importance and 
vital role of public diplomacy. I think this has been one of 
the successes, one of the many successes, of Under Secretary 
Lieberman.
    As with any merger, there are a number of bumps in the 
road. One of them in particular is administrative operations, 
which has been a very difficult area in this year of 
transition. We have to at least come to understand the 
administrative practices of the Department so that they will 
understand ours. The USIA ethos and operating style was quite 
remarkable to me in terms of being able to turn programs, 
dollars, and people around very quickly. This is not easy to do 
in the State Department. But we are all learning.
    So what we are trying to do is to take what I consider 
quite marvelous best practices in USIA and combine those with 
best practices of the State Department to best serve the 
programs. There remain some issues of process and functions. 
However, I think the integration and the consolidation, 
certainly for the purposes of the exchange programs, have been 
a net plus. There is much to be worked on, but much has been 
done.
    Senator Grams. Moving in the right direction.
    Also on the budget issue, reorganization of the foreign 
policy agencies was supposed to result in some budget savings. 
Has there been a reduction in administrative costs and overhead 
in your Bureau since reorganization?
    Dr. Bader. The administrative cuts in my Bureau were made 
before we went to the State Department, so we are still 
carrying them in certain areas, such as in the Exchange Visitor 
J-visa program and others where we are really short staffed. 
Have there been savings? I would say there have been 
efficiencies. We have not seen savings thus far with respect to 
our administrative budget.
    By the way, Mr. Chairman, one of the things that struck me 
when I took over the Bureau is the fact that we were managing 
programs with inter-agency transfers but were not in fact 
receiving full cost recovery for that administrative effort. We 
are now doing so and this should reduce our administrative 
costs.
    So no, you really will not see with the exchange programs, 
a dramatic decrease in administrative expenses. But we are 
running a tight ship and with this cost recovery for 
interagency administrative services we provide, the overall 
line for administrative expenses will actually decline in time.
    Senator Grams. Thank you.
    The committee has also been informed about problems in 
grants management, that the system at State is markedly worse 
than the consolidated system at USIA. So I guess I would ask 
you, what measures is the State Department making to improve 
grants management?
    Dr. Bader. Our grants management system, has in its outline 
and in its methodology, has not in fact changed as we have gone 
into the State Department. There has been a problem in the 
State Department of actually moving money. We have had 
situations where our grantees simply have not received their 
checks on time. But, the grants management problem is a problem 
of disbursement as far as I am concerned and, thanks to some 
very good people, I think we are beginning to make a real dent 
in that. But again, there is more to be done. It is a problem 
of adjustment of two systems, one that was extremely flexible, 
the other that had a different pace and pattern.
    Senator Grams. In May the State Department published a 
field survey of public diplomacy where U.S. Ambassadors were 
asked to rate the usefulness of the exchange programs. I would 
like you to outline the five programs in your Bureau which were 
rated at least useful?
    Dr. Bader. Least did you say, Mr. Chairman, least useful?
    Senator Grams. Were rated as least useful.
    Dr. Bader. Just a moment, Mr. Chairman. Let me get that 
survey.
    [Pause.]
    What you are referring to, Mr. Chairman, is in May of 2000 
the State Department published a field survey of public 
diplomacy programs, and some ECA programs were given high marks 
by ambassadors while others were low ranked. If that is what 
you are getting at, let me go directly to it.
    Senator Grams. Also, what I am referring to is this table 
that was part of the report from the Bureau of Educational and 
Cultural Affairs, May 2000, as you mentioned.
    Dr. Bader. Right.
    Senator Grams. I will enter this into the record as well to 
go along with your answer. But go ahead.
    [The material referred to follows:]

                               Table 1--Field Survey of Public Diplomacy Programs
                             (Bureau of Educational and Cultural Affairs--May 2000)
----------------------------------------------------------------------------------------------------------------
                                                                                           No. of       No. of
                                                                 No. of      Average    mentions in  mentions in
                                                                 Users        Rating       5 MOST      5 LEAST
                                                                                           Useful       Useful
----------------------------------------------------------------------------------------------------------------
Fulbright U.S. Scholars.....................................          116          4.7           37            2
Fulbright Visiting Scholars.................................          104          4.6           28
Fulbright Students..........................................          105          4.6           37            3
Fulbright Teacher Exchange..................................           42          4.2            0            3
Humphrey Fellowship Program.................................           83          4.5            9            2
College/University Affiliations.............................           76          4.0            1            6
Overseas Research Centers...................................           17          4.2            0            3
Educational Advising Services...............................          114          4.3            4            8
Study of the U.S............................................          102          4.3            6            2
English Language Officers...................................           63          4.3            3            5
English Language Grantees...................................           56          4.0            3            5
English Language Specialists................................           47          4.0            0            2
English Teaching Forum......................................           96          3.9            0           12
English Teaching Materials..................................           76          4.0            0            6
Direct English Teaching Program.............................           11          4.5            3            5
Individual International Visitors...........................          114          4.8           64            1
Group International Visitors................................          116          4.8           64            3
Voluntary Visitors..........................................          109          4.4           14            1
P.L. 402 (Technical) Training...............................            3          3.3            0            8
American Cultural Specialists...............................           78          4.0            2            6
Jazz Ambassadors............................................           58          4.3            4            7
Cultural Programs Grants....................................           73          3.8            1            5
Film Service................................................           54          3.5            0           16
Performing Arts Calendar....................................           39          2.9            0           26
Citizen Exchanges Grants....................................           80          4.1            4            4
Amer. Center for Int'l. Labor Solidarity....................            2          4.0            0            8
Amer. Council of Young Pol. Leaders.........................           49          3.7            1            7
Sister Cities International.................................           59          3.1            0           22
Pepper Scholarships.........................................            0           --            0            4
Sports Exchanges............................................           10          2.7            0           14
Institute for Representative Govt...........................           10          3.4            0            3
Cultural Property Heritage Protection.......................           29          3.7            1            7
----------------------------------------------------------------------------------------------------------------



     Table 2--Usefulness Ratings of Worldwide Products and Programs
                    (In Order From Highest to Lowest)
------------------------------------------------------------------------
                                                   No. of      Average
                                                   Users        Rating
------------------------------------------------------------------------
Individual International Visitors.............          114          4.8
Group International Visitors..................          116          4.8
Fulbright U.S. Scholars.......................          116          4.7
Washington File--Overall......................          122          4.6
WF--Official Texts/Transcripts................          121          4.6
U.S. Speakers and Specialists.................          118          4.6
Information Resource Center Support...........          113          4.6
Online Databases..............................          112          4.6
Fulbright Students............................          105          4.6
Fulbright Visiting Scholars...................          104          4.6
Humphrey Fellowship Program...................           83          4.5
Direct English Teaching Program...............           11          4.5
Voluntary Visitors............................          109          4.4
Washington File--Foreign Language.............           50          4.4
Educational Advising Services.................          114          4.3
Study of the U.S..............................          102          4.3
English Language Officer Programs.............           63          4.3
Print Publications--Foreign Language..........           63          4.3
Jazz Ambassadors..............................           58          4.3
Electronic Journals--Foreign Language.........           51          4.3
WF--U.S. Press Items for Internal Use.........          117          4.2
Web sites.....................................          115          4.2
Fulbright Teacher Exchange....................           42          4.2
Overseas Research Centers.....................           17          4.2
Citizen Exchanges Grants......................           80          4.1
Information USA...............................          110          4.0
Reference Services from Washington............          106          4.0
Foreign Press Centers.........................           82          4.0
American Cultural Specialists.................           78          4.0
College/University Affiliations...............           76          4.0
English Teaching Materials....................           76          4.0
English Language Grantees.....................           56          4.0
Digital Video Conferences.....................           52          4.0
English Language Specialists..................           47          4.0
Amer. Center for Intl. Labor Solidarity.......            2          4.0
WF--Chronologies/Fact Sheets..................          111          3.9
English Teaching Forum........................           96          3.9
Book Publication and Translation..............           68          3.9
Print Publicatlons--English...................          115          3.8
Bibliographic Services from Washington........           89          3.8
Cultural Programs Grants......................           73          3.8
Foreign Broadcast Facilitative Assistance.....           53          3.8
Foreign Broadcast Special Coverage............           45          3.8
Electronic Journals--English..................          111          3.7
WF--Op-eds by USG Officials...................          109          3.7
Support for Mission Home Pages................           90          3.7
Amer. Council of Young Pol. Leaders...........           49          3.7
Cultural Property/Heritage Protection.........           29          3.7
WF--Staff-Written Backgrounders...............          107          3.6
WORLDNET Interactive Dialogues................           93          3.5
Tele Conferences..............................           70          3.5
Film Service..................................           54          3.5
WF--Staff-Written for Placement...............           90          3.4
Listservs.....................................           65          3.4
Copyright Clearances..........................           62          3.4
Technology Partnerships.......................           14          3.4
Institute for Representative Government.......           10          3.4
P.L. 402 (Technical) Training.................            3          3.3
Sister Cities International...................           59          3.1
Photo and Graphic Images......................           27          3.1
Performing Arts Calendar......................           39          2.9
Sports Exchanges..............................           10          2.7
------------------------------------------------------------------------


    Dr. Bader. Allow me to talk just briefly about the good 
news. The two programs accounting for 75 percent of the budget, 
the Fulbright and the International Visitor programs, received 
exceptionally high ratings, and that is very gratifying.
    You have rightly pointed to the other side of the coin. I 
will assure you that I am not interested, underline, not 
interested, in retaining a marginal program, and a low rating 
is surely a signal that we need to re-examine the value of that 
program. In some cases it very well may be that a program has 
outlived its usefulness and we have to take a look at this.
    In other cases, however, it may be that a program is 
designed to run without drawing upon the increasingly precious 
time of the U.S. Embassy staff. I do not want to push this too 
far, Mr. Chairman, but the impact of these programs may more 
easily escape the attention of mission staff because the 
programs are actually doing precisely what they were intended 
to do. In other words, they are not rated very highly by the 
embassy because they are not on the embassy horizon.
    Mr. Chairman, if I may be so bold as to say that some of 
the low-ranked programs are congressional earmarks and this 
obviously creates problems all around.
    Senator Grams. That is getting pretty bold. No, go ahead.
    Dr. Bader. You have my word and my Bureau's word we are 
going to look skeptically and, indeed, agnostically at these 
low-ranked programs and you will have and the committee will 
have a report on this, and I will undertake that.
    Senator Grams. To justify their existence or maybe reform 
what they are asked to do?
    Dr. Bader. Yes, exactly.
    Senator Grams. One of the findings of the report is that 
there is no mandate for the elimination of any worldwide 
product. I do not see how the survey data backs that up. Would 
you describe how that conclusion was reached?
    Dr. Bader. Actually, I have no idea, because it is not a 
well-founded conclusion. These programs are every year, and 
virtually every day, in the process of consideration about 
their effectiveness. So, putting aside the question for the 
moment of earmarks, we have a full and unfettered right to vary 
these programs, improve these programs, or eliminate these 
programs.
    Senator Grams. We have been joined by Senator Paul 
Sarbanes, and I have got just a few questions here. Were you 
prepared?
    Senator Sarbanes. Why don't you go on.
    Senator Grams. OK. I will only take a couple more minutes.
    Dr. Bader, in response to congressional hearings and 
debates on international exchanges in fiscal year 1996, the 
administration sought an inter-agency working group to be 
established to avoid duplication of exchanges by many agencies 
that were involved with them.
    Now, on July 15, 1997, President Clinton issued Executive 
Order 13055, creating the Inter-Agency Working Group [IAWG], on 
U.S. Government-Sponsored International Exchanges and Training. 
With the Inter-Agency Working Group in operation for about 3 
years now, what improvements in cooperation among agencies 
involved in exchanges have occurred?
    Dr. Bader. Mr. Chairman, this activity is something about 
which I am extremely pleased in the way that it has developed. 
As you noted, this was the result of an Executive directive. If 
I am not off the mark, it also has a congressional mandate as 
well. So I think it is very strongly based. Its intention was 
very clearly to give agencies opportunity to come together. 
Actually, there are 20 U.S. agencies that are represented on 
the Inter-Agency Working Group along with the National Security 
Council and the Office of Management and Budget.
    There is a small staff. I think it has done extremely good 
work in two areas. One has been in the category of improving 
cooperation and giving an opportunity to all these agencies to 
report in a common matrix, what they are doing. The second is 
to give illumination to the fact of whether there may be 
duplication or the like.
    You might have noted, this committee might have noted, that 
the IAWG received the Hammer Award for its good work.
    There are a number of things that this committee needs to 
do further. We now do individual country studies and surveys. 
We send inter-agency teams out to the field to various 
countries to see how these programs are coming together.
    I have to say as I look at all of this that this Inter-
Agency Working Group was long overdue. We are now working to 
see how we can further eliminate duplication and increase cost 
effectiveness. I think it is a real success story. It is also 
now moving to a point where one place has the data on all 
exchange programs and training programs. The IAWG staff is able 
to bring that data forward to the State Department and to other 
organizations'. Its data base shows what is actually going on 
in exchanges in countries and therefore we are able to put 
together coordinated responses to needs in the field.
    It is done well. Like anything else, we can work harder at 
it.
    Senator Grams. In another area, the au pair program, I 
understand that one of the au pair sponsoring organizations has 
submitted a request for designation of a new program, Educare 
in America, which would be an enhancement of the standard au 
pair programs and would also help provide companionship and 
assistance to American families with children who are at school 
full-time.
    So my question, Dr. Bader, is what is the Department's 
position on this proposed program and when, if any, action can 
be expected on the request for this designation?
    Dr. Bader. Mr. Chairman, you are speaking here of the 
American Institute for Foreign Studies [AIFS] and the Educare 
program?
    Senator Grams. Yes.
    Dr. Bader. Right. Mr. Chairman, I have spoken with Bob 
Brennan of AIFS. In fact, he is here today. Let me be very 
direct about it. The Bureau intends to work with Bob and AIFS 
to address the specific issues that are involved in this 
operation, where participants will pursue their academic 
courses and receive an amount of compensation appropriate for a 
program of this sort. This is the important part. The concept 
has the support of the Bureau. We intend to work collegially 
with all the designated organizations and to move on this 
somewhat hybrid au pair program. It will be done.
    Mr. Chairman, I think this may be the opportunity to say 
that there has been criticism about the slowness of our office 
for designation of programs for J-visas. Part of the problem is 
the challenge of sheer volume. We are talking right now of J-
visas at a level of 280,000 a year. We are talking about 
dealing with some 1,500 organizations, and we are talking about 
doing it all with a staff of perhaps 12. The volume of exchange 
visitor visas is rising. It has more than doubled over the last 
10 years.
    Right now--and we are moving on this in response to 
interest on the part of the Secretary of State--we are putting 
together a working internal group at the State Department, 
which will give a report to the Secretary of State in 60 days, 
not that long from now, on the management issues that are 
involved in this.
    We intend to make the process better and we intend to get 
to a point where we will make determinations sooner and more 
efficiently. We have had problems with timing. We have had 
problems with communication. I intend to improve things. 
Finally, with respect to this particular program, it shall be 
done.
    Senator Grams. Thank you very much.
    I would like to yield now to Senator Sarbanes.
    Senator Sarbanes. Thank you very much, Mr. Chairman. 
Unfortunately, I am going to have to depart because we have a 
joint session to hear from the Prime Minister of India, another 
form of international exchange.
    First of all, I want to underscore how important I think 
these exchange programs are, and I want to commend the chairman 
for holding this hearing in order to review the situation and 
to underscore some strong congressional support for these 
programs. We are working hard to try to get you an adequate 
appropriation and it seems to be moving better in the Senate 
than in the House, and I hope we will be able to carry that 
through to a successful conclusion.
    I want to underscore, I think, the terrific job that Bill 
Bader is doing. I think he has brought a great deal of cohesion 
and organization into the program since he has moved in as the 
Assistant Secretary of State for Educational and Cultural 
Affairs. It is a very complex responsibility. Of course, he has 
to interact with a whole range of groups in the private sector, 
who are themselves important parts of making the program work 
and often bring to it a tremendous contribution in terms of 
volunteer time, energy and support.
    But it does create a complicated mosaic for the Secretary 
to have to deal with, and I appreciate his efforts to 
rationalize the system, as I would put it, and also to seek 
once again to build support for it across the country. I think 
it is true we sort of fell off of these exchange programs. In 
fact, it was not too long ago we were fighting just to keep 
them alive, including the Fulbright program, which is of course 
perhaps the most visible of all of them, although there are a 
whole range of them. It was not all that long ago that we were 
in a fight here in the Congress in order to save the Fulbright 
program and these other exchange programs.
    I do think the pendulum is swinging back, and people are 
coming perhaps to appreciate the importance of these programs. 
Lots of people are doing it. Does the Library of Congress 
program with the Russians come under your bailiwick, or is that 
operating all by itself somewhere?
    Dr. Bader. It does not operate all by itself out there. It 
is a program that in the first year of practice is moving 
Russians in rather large numbers into the United States, 
primarily from governments in the Duma and the oblasts.
    Senator Sarbanes. They get a tremendous citizen response 
across the country.
    Dr. Bader. Absolutely.
    Senator Sarbanes. It is incredible how people are 
responding. They are taking them in, showing them around. I 
have groups in my State that are heavily invested in this 
program and people come and stay with them for a week. People 
take a week off to shepherd them around and so forth and so on.
    Dr. Bader. This was very much Senator Stevens' idea and he 
pushed it and had the capacity, as they say, to ensure that 
there were funds for it.
    Senator Sarbanes. That happens when you are the chairman of 
the Appropriations Committee.
    Dr. Bader. To answer your question, Senator Sarbanes, that 
program is run out of the Library of Congress. Jim Billington 
has given it great leadership. This second year of operation, 
the funds have come from the Freedom Support Act and Ambassador 
Taylor. We are very pleased with this program. We support it in 
every way we can. But it is being managed by the Library of 
Congress, I think very well indeed.
    Senator Sarbanes. Well, thank you again for what you are 
doing.
    Mr. Chairman, thank you. And I apologize to the next panel 
that I am not going to be able to stay and hear their 
testimony. But we will certainly take the time to read it.
    Senator Grams. Thank you very much, Senator Sarbanes.
    Just a couple of quick questions to wrap up, Dr. Bader. On 
the Fulbright, as we mentioned, are you aware that there are 
countries which will not let the State Department Inspector 
General audit Fulbright commissions, even though the U.S. 
Government provides the funds? Do you find this acceptable? If 
not, what are you going to do to get access?
    Dr. Bader. Senator, I will say that I am not aware of that. 
Do any of my colleagues back here----
    Senator Grams. The Inspector General noted Germany and 
Japan specifically, so I was just wondering.
    Dr. Bader. Senator, I think I will take that question and 
give you a response for the record.
    [The following response was subsequently received:]

    Regarding the question of whether or not the State Department IG 
has been denied access to audit Fulbright Commissions, we know of no 
such instance. In all cases that we are aware of, Fulbright Commissions 
cooperate with visiting State Department Inspectors. In some of the 51 
binational agreements that are the bases for the operations of 
Fulbright Commissions, there are stipulations that U.S. inspectors may 
do audits or program evaluations at the invitation of the Commissions' 
governing boards. This is generally forthcoming with minimal 
discussion, but the autonomous nature of each of the Boards requires 
some respect by the visiting inspectors of that status.

    Senator Grams. Very good. I appreciate it.
    One other thing. I think it is important to see democracy 
promotion as a goal of exchanges serving tangible national 
interests. This is not altruism. More nations becoming market 
democracies will make for a more benign world for the United 
States to deal with, fewer dictatorships likely to threaten 
their neighbors and us with military means, and more reliable 
trading partners.
    So how much of the budget for exchanges is directly 
connected to making more nations democratic over time?
    Dr. Bader. I would have to get a figure on that. I will see 
to it that the committee has the specifics on this. But I would 
say it is very clear that we have a large number of programs 
that do that. It is part of State Department's task, which we 
are involved in. We have programs to support democracy in many 
countries. Right now there are several of them, for example, in 
the Balkans. It is a very clear mission and objective for this 
Bureau to strengthen democracies.
    I have always felt that the path in transition countries to 
market economies has to be complemented with an improvement in 
democratic institutions, and that is the way we approach it. 
But I will give you, for the record, some specifics on this 
matter.
    [The following response was subsequently received:]

                   National Interests/Programs Matrix

    The following table lists the program activities conducted by the 
Bureau of Educational and Cultural Affairs in FY 1999. Use this matrix 
to assign your program's estimated percentage of involvement in meeting 
strategic goals attributable to national interests.


--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                               Other
                         Program/Activity                             National     Democracy/     Economic         Law          Mutual        National
                                                                      Security    Human Rights   Prosperity    Enforcement  Understanding  Interests \1\
--------------------------------------------------------------------------------------------------------------------------------------------------------
Fulbright/Humphrey................................................  ............  ............  ............  ............             X   .............
Study of U.S......................................................  ............  ............  ............  ............             X   .............
Affiliations......................................................  ............  ............  ............  ............             X   .............
Advising..........................................................  ............  ............  ............  ............             X   .............
EFL...............................................................  ............  ............  ............  ............             X   .............
Muskie............................................................  ............            X             X   ............             X   .............
CAORC.............................................................  ............  ............  ............  ............             X   .............
South Pacific.....................................................  ............  ............  ............  ............             X   .............
Disability Exchanges..............................................  ............  ............  ............  ............             X   .............
CASP..............................................................  ............  ............  ............  ............             X   .............
International Visitors............................................            X             X             X             X              X              X
Citizen Exchanges.................................................            X             X             X             X              X              X
CBYX..............................................................  ............  ............  ............  ............             X   .............
Pepper............................................................  ............  ............  ............  ............             X   .............
Mansfield.........................................................  ............  ............            X   ............  .............  .............
U.S./Mexico.......................................................  ............  ............            X   ............  .............  .............
CEEEP.............................................................  ............  ............            X   ............  .............  .............
IRG...............................................................  ............            X   ............  ............  .............  .............
Tibet.............................................................  ............            X   ............  ............  .............  .............
East Timor........................................................  ............            X   ............  ............  .............  .............
Womens World Cup..................................................  ............  ............  ............  ............             X   .............
Special Olympics..................................................  ............  ............  ............  ............             X   .............
China/Korea.......................................................  ............            X   ............  ............  .............  .............
National Youth Science Camp.......................................  ............  ............  ............  ............             X   .............
Freedom Support/SEED..............................................  ............            X             X   ............  .............  .............
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Others include American Citizens and U.S Borders, Global Issues (Environment, Population, Health). Humanitarian Response.


    Senator Grams. I think overall the program helps to promote 
democracy, because of the interchange.
    Dr. Bader. Absolutely.
    Senator Grams. So I would appreciate those answers.
    That is all the questions I have, Dr. Bader. Anything you 
would like to add?
    Dr. Bader. Thank you, Senator and Mr. Chairman. I would 
just close by saying for my side how appreciative the Bureau is 
of the support of the committee, particularly during this 
consolidation period. It has made all the difference in the way 
we are able to function in the State Department.
    I would just say that, if we get the kinds of support we 
need from the Congress and the public in terms of backing these 
programs, that it is a very good road ahead for exchanges. It 
is essential to the American vision and the American future to 
have strong and vibrant exchange programs. They make sense. 
Your statement was right on point and I hope it will be read 
widely.
    Thank you, Senator.
    Senator Grams. Thank you very much, Dr. Bader. I appreciate 
your time and your answers and, on behalf of the committee, I 
also want to commend you for the work you are doing. Thank you 
very much.
    I would like to now call our second panel: Ms. Carol Byrne, 
executive director of the Minnesota International Center in 
Minneapolis; Dr. James Denton, executive director, Freedom 
House in Washington, DC; Ms. Marlene Johnson, executive 
director and chief executive officer of NAFSA: The Association 
of International Educators, and chair, Alliance for 
International Education and Cultural Exchange, here in 
Washington; and also Dr. Sherry Mueller, the executive 
director, NCIV, the National Council for International 
Visitors, here in Washington, DC.
    I want to welcome all of you to the panel. Thank you very 
much for taking your time to be here, and I guess we will start 
from left to right. Mr. Denton, I guess that puts you in the 
hot seat. So your opening statement for the panel. Thank you.

   STATEMENT OF JAMES S. DENTON, EXECUTIVE DIRECTOR, FREEDOM 
                     HOUSE, WASHINGTON, DC

    Mr. Denton. Thank you very much, Mr. Chairman. Good morning 
and thank you again for inviting me to testify before the 
Subcommittee on International Operations on the subject of 
exchange programs and the national interest of the United 
States.
    I am appearing this morning as the executive director of 
Freedom House, a nonpartisan and nonprofit organization that 
promotes political and economic freedom around the world. In 
1941, led by Eleanor Roosevelt and Wendell Willkie, Freedom 
House was founded by a distinguished group of American policy 
and opinionmakers to persuade the American people of our 
Nation's responsibility to vigorously defend Europe's 
democracies during freedom's darkest hours of the 20th century. 
Now, nearly 60 years later, our mission remains largely the 
same: to promote American leadership in the defense and 
expansion of the borders of freedom around the world.
    In keeping with the founders' vision, today Freedom House 
is led by a bipartisan board of directors comprised of leading 
Democrats and Republicans, business and labor leaders, scholars 
and journalists. Our chairman is Betty Bao Lord, an 
internationally recognized human rights activist and author. 
Among those serving with her are close advisers to the past 
four American Presidents, including Dr. Brzezinski, Ambassador 
Jeane Kilpatrick, Ambassador Paul Wolfowitz, and Tony Lake. 
From labor and business, we count on the board Sandra Feldman, 
the head of the AFT, and Steve Forbes; and from the media we 
have Morton Kondracke, Mara Liasson, Peggy Noonan, and P.J. 
O'Rourke. All serve on the board together.
    All of these Americans, whose political loyalties and views 
will differ on any wide range of issues, are united and 
committed to their view that American leadership in 
international affairs is essential to the cause of freedom. 
Likewise, all are united in the view that the expansion of 
freedom is in the national interest of the United States 
because freedom creates the conditions for a more stable and 
prosperous world.
    Here in the United States, Freedom House conducts research 
and publishes books, reports, and articles to educate American 
policy and opinionmakers on the challenges to freedom around 
the world. Through this public education role, Freedom House 
urges our elected leaders to maintain America's vital 
leadership role in the world and its affairs and to implement 
policies which are true to our Nation's values and our 
interests and goals, and to protect and expand the borders of 
freedom.
    In addition to this research and public education role in 
the United States, Freedom House also conducts a large 
portfolio of what we call democratization programs, which 
account for about 70 percent of Freedom House's $7.5 million 
budget. These programs take several forms, but generally 
speaking they are intended to promote good governance, 
independent media, and free market economic development.
    The programs themselves take the forms of exchanges, which 
include longer term, what we call professional internships, 
which are generally 2 to 3 months long, here in the United 
States, or shorter term, 2, 3-week programs which we would call 
study tours or mini-internships.
    The second category of activities that Freedom House 
conducts in terms of democratization programs are sub-grant 
programs, which usually support NGO's that are active in the 
development of government policy or monitoring of human rights 
or media rights.
    The third category would be onsite technical assistance, 
which is almost always conducted by American professionals who 
are volunteering to serve and almost always are serving for a 
minimum of 3 months in the region.
    The fourth category is sponsorship of conferences and 
training, seminars and workshops.
    Even though exchanges account for less than 10 percent of 
our annual budget this year, I believe that these exchange 
programs are the central and most important of all the 
democratization programs which Freedom House is involved with.
    The democratic revolution that began in Poland in 1989 
represented a spectacular victory for the Western ideas of 
freedom and democracy. As these revolutions swept across 
Eastern Europe in 1989 and then the Soviet Union in 1992, these 
events changed the political, economic, and social map of the 
world in ways that could not have been anticipated even a few 
short years before.
    As Freedom House considered ways to support the 
transformation from communism to democracy, we understood that 
we could not teach the new leaders of Eastern Europe what it 
means to be free. It was, after all, their vision of freedom 
that had sustained them during the long, dark hours of 
communism. Likewise, we found that the new leaders understood 
in theoretical terms how a democratic and free market society 
operated.
    But at the same time, we also understood that these new 
leaders had no road maps, no practical application for the 
theory that could guide them on their journey. While there were 
more than enough variations on the Leninist blueprint on how to 
turn capitalism into communism, there was no plan for the 
reverse at the time.
    It was this passage from the theoretical to the practical 
dimension of democratic life that presented the greatest 
challenge to the new generation of leaders as they set out to 
transform their societies. Freedom House responded by 
committing itself to bridging the theoretical and the practical 
by developing a totally new kind of international exchange 
program, something we called the professional internship 
program.
    The plan was quite simple: identify the region's future 
leaders, bring them to the United States and arrange for them 
to work side by side with their American counterparts for 
several months. It was basically an immersion plan designed to 
give the participants the practical experience and skills 
necessary to understand the inner workings of a functioning 
democratic and free market system.
    Incorporated into Freedom House's program was our belief 
that practical on the job training is the most efficient means 
of transferring the skills, the working knowledge, and the 
expertise necessary to equip these new leaders.
    Since that time, together with the National Forum 
Foundation, which merged with Freedom House in 1997, Freedom 
House has sponsored and organized exchanges for about 900 young 
leaders from Central and Eastern Europe and the former Soviet 
Union. Of these, about 650 participated in that longer 
professional internship program, 10 to 12 weeks long, while the 
remaining 250 have participated in some variation of the 
classic study tour program.
    Since 1989 our programs have targeted three sectors of 
society which we believe continue to be key to the region's 
successful transformation to democracy: good governance, one 
sector, and through that we identify and support political and 
NGO leaders that are active in public policy development; 
independent media, and through that of course we are working 
with journalists as well as managers of the independent media; 
and the third category, free market development, working with 
individuals that are responsible for establishing the legal 
framework, policies, and infrastructure that is necessary to 
create a free market environment that is conducive to genuine 
investment, capital growth, and entrepreneurialism.
    In the past 10 years, with this practical training 
approach, the participants of the Freedom House exchange 
programs have worked in hundreds of offices across the United 
States--in U.S. congressional offices, State governments and 
local governments--where they have worked with their 
counterparts and come to understand the meaning of 
transparency, how to draft legislation, how to monitor the 
authorization process, how to participate in the authorization 
process, what an open hearing is all about and why it is 
important, working with the media and constituents.
    Then, in hundreds of media outlets across the United 
States, journalists from the emerging democracies have worked 
with their counterparts in the news rooms and in the editing 
offices, in the producing offices of broadcast and print news. 
They attend editorial meetings, observe the assignment process, 
conduct interviews with newsmakers, while learning new 
investigative reporting techniques, which has become 
increasingly important with the level of corruption that we are 
seeing in the region.
    Business managers in media outlets have learned how to 
enhance their company's commercial viability by developing 
organizational budgets, designing advertising strategies, 
making sales calls, and so on. To us it seems quite simple and 
normal in the course of everyday life, what advertising is all 
about, but being mindful that it was illegal for about 45 years 
in Eastern Europe, it becomes more important to understand why 
that is an essential function to ensuring the viability, the 
commercial viability, and therefore the independence of 
individual media outlets.
    In the area of market development, the fellows have worked 
in stock exchanges, regulatory agencies, entrepreneurial 
incubators, trade and business associations, venture capital 
firms, banks, and so on.
    Mr. Chairman, following their 3 months of immersion in the 
American work environment, but before the participant returns 
home, we conduct a formal evaluation. We have a record of each 
of the evaluations that have been submitted. They invariably 
observe that their American experience was the most productive 
professional experience in their lives. Some often use the term 
``reborn'' to describe their new perspective and understanding.
    Perhaps the most important thing, however, is that these 
young leaders return home with a new optimism that they pick up 
here in the United States, confident that they have the vision 
and the know-how to roll up their sleeves and get started with 
the task ahead.
    But perhaps the best evidence of Freedom House's success in 
helping to develop the region's new generation of leaders can 
be seen in the increased responsibility that is taken on by the 
program alumni after they return home. Among the former 
participants of these exchange programs, specifically the 
internship, professional internship program, we count now four 
cabinet ministers, including the current Foreign Minister of 
Bulgaria, six vice ministers, half a dozen ambassadors, over 60 
members of parliament, mayors and city council members, the 
press spokespersons for eight heads of state or government in 
the region, and numerous senior advisers to heads of 
government.
    None of those people that I have just mentioned held those 
positions before they came into this program. Many assumed 
those roles at lightning speed upon their return.
    Our alumni can also be found in each of the region's most 
influential print and broadcast media outlets throughout the 
former East bloc. Each day they report to audiences, national 
audiences across their country, on the events of the day as 
well as, of course, including reporting U.S. news on U.S. 
policy.
    It is self-evident that the 900-plus alumni who have 
returned home represent a critical and enormously influential 
cadre of policy, opinion, and business leaders. Now that they 
are equipped with their U.S. experience, they represent a 
valuable network that is helping to navigate their countries 
through the rapids of transformation.
    In addition, the alumni are to a person better informed 
about America and more likely to understand and support 
American policy in the years ahead.
    This year, as one of the largest American NGO's working in 
the region, Freedom House will sponsor another 50 U.S. 
exchanges. This happens to be about 20 percent less than in 
previous years. In addition to the exchange programs, as I 
mentioned, we conduct other activities. In the area of sub-
grants, we will award about $2 million in sub-grants to 
nongovernmental groups in the region, much of those funds going 
to support get-out-the-vote programs in countries like Serbia, 
Croatia, and Ukraine.
    Freedom House will sponsor hundreds of days of onsite 
consulting in senior government offices and NGO's throughout 
the region, and we will also sponsor an array of workshops and 
seminars and regional exchanges on issues ranging from 
investigative reporting of cross-border crime and corruption to 
linking reform-oriented think tanks in Central and Eastern 
Europe with their counterparts in Russia and Ukraine.
    As I mentioned earlier, this year the exchange component of 
Freedom House's program will represent less than 10 percent of 
our budget. Yet, based on my 12 years working and traveling in 
the former East bloc and having designed and managed one of 
America's largest democratization program portfolios I believe 
that without a doubt the exchange programs, when properly 
targeted and managed, represent America's most powerful tool in 
the toolbox of democracy programs to transform the former 
Communist world.
    It is a critical building block upon which to develop 
further collaboration and cooperation as well.
    Mr. Chairman, it has been 10 years since the Berlin Wall 
fell, liberating the former captive nations of Eastern Europe, 
and it has been 8 years since the Soviet Union collapsed. I 
understand that this subcommittee must continuously evaluate 
the situation in the region of the emerging democracies, along 
with America's interests and objectives, and to develop 
strategies to achieve those objectives.
    It is clear that some of the emerging democracies are on an 
irreversible path to full membership in the community of 
Western democracies. The progress, when you consider it has 
only been 10 years, has been breathtaking in a number of cases. 
Successive and fair elections have taken place and peaceful 
transfer of power has become routine in Central and Eastern 
Europe and, while the governments of the new democracies will 
continue to debate the role of government in their economies 
and the best way to bring growth and prosperity, it is 
important to realize that the basic economic restructuring has 
taken place in the region. Indeed, today the economies of 
Hungary and Poland are among the fastest growing in Europe.
    Yet, as you well know, the picture is not so rosy 
everywhere. Much of the region remains in two worlds, one dead 
and the other struggling to be born. Throughout the former 
Soviet Union, most significantly in Russian and the Ukraine, 
and of course in southeast Europe, progress has been 
incremental at best. The situation is volatile and even 
explosive because of the region's ethnic and nationalistic 
hostility and history. Dictators reign in several countries and 
they are not far beneath the surface in others. The desperate 
economic conditions, largely as a result of incomplete or phony 
reform programs, the rampant corruption, the public psychology, 
the porous borders, and of course the threat of proliferation, 
all mandate that America remain thoroughly engaged and vigilant 
throughout the region.
    Mr. Chairman, when one assesses what has worked in those 
countries where the assistance programs seem to have failed to 
produce meaningful results, I would speculate that in virtually 
every case, that when you look closely at those countries, the 
alumni of these exchange programs, as small and insignificant 
as they may seem in the larger picture of the critical problems 
that these regions face, represent a ray of hope for our future 
relations with these countries. I know that is particularly 
true, by the way, in my opinion in the Ukraine and in Serbia.
    Mr. Chairman, we congratulate you from Freedom House on 
your leadership on these important issues and I thank you for 
asking me to address this committee today. We at Freedom House 
stand ready to support your efforts and of course to respond to 
any questions you might have. Thank you, sir.
    [The prepared statement of Mr. Denton follows:]

                    Prepared Statement of Jim Denton

    Good morning, and thank you, Mr. Chairman, for inviting me to 
testify before the Subcommittee on International Operations on the 
subject of exchange programs and the national interests of the United 
States.
    I am appearing this morning as the executive director of Freedom 
House, a non-partisan, non-profit organization that promotes political 
and economic freedom around the world.
    In 1941, led by Eleanor Roosevelt and Wendell Willkie, Freedom 
House was founded by a distinguished group of American policy- and 
opinion-makers to persuade the American people of our nation's 
responsibility to vigorously defend Europe's democracies during 
freedom's darkest hours of the Twentieth Century. Now, nearly sixty 
years later, our mission remains largely the same--to promote American 
leadership in the defense and expansion of the borders of freedom 
around the world.
    In keeping with the founders' vision, today Freedom House is led by 
a bipartisan board of directors comprised of leading Democrats and 
Republicans, business and labor leaders, scholars and journalists. Our 
chairman is Bette Bao Lord, an internationally recognized human rights 
activist and author. Among those serving with her are close advisors to 
the past four American presidents, Dr. Zbigniew Brzezinski, Ambassador 
Jeane Kirkpatrick, Ambassador Paul Wolfowitz, and Tony Lake. From labor 
and business, Sandra Feldman and Steve Forbes; and from the media, 
Morton Kondracke, Mara Liasson, Peggy Noonan, and PJ O'Rourke serve on 
the board. All of these Americans, whose political loyalties and views 
will differ on any number of issues, are united and committed to the 
view that American leadership in international affairs is essential to 
the cause of freedom. Likewise, all are united in the view that the 
expansion of freedom is in the national interests of the United States 
because freedom creates the conditions for a more stable and prosperous 
world.
    Here in the United States, Freedom House conducts research and 
publishes books, reports, and articles to educate American policy and 
opinion makers on the challenges to freedom around the world. Through 
this public education role, Freedom House urges our elected leaders to 
maintain America's vital leadership role in world affairs, and to 
implement policies--which are true to our nation's values, interests, 
and goals--to protect and expand the borders of freedom.
    (About ninety percent of Freedom House's research and publications 
activity is funded by private donors, among them, the Bradley 
Foundation, the Soros Foundations, Rockefeller Brothers Fund, The Lilly 
Endowment, and the Smith Richardson Foundation. USAID also supports 
specific Freedom House research and analysis on democratic development 
in the former East Bloc.)
    In addition to this research and public education role in the U.S., 
Freedom House also conducts a large portfolio of ``democratization 
programs,'' which accounts for about 70% of Freedom House's $7.5 annual 
budget. These programs take several forms, but, generally speaking they 
can be categorized as:

          1. ``exchanges'' which include longer term (2-3 months) 
        professional internships or shorter term (2-3 weeks) study 
        tours or mini-internships;

          2. sub-grant programs, usually supporting NGOs active in the 
        development of government policy or monitoring human and media 
        rights;

          3. on-site technical assistance; and

          4. the sponsorship of conferences and training workshops.

    Even though our exchange programs account for less than 10% of our 
annual budget this year, I believe these exchange programs are the 
central and most important of all democratization programs.
    The democratic revolutions that began in Poland in 1989 represented 
a spectacular victory for the Western ideas of freedom and democracy. 
As they swept across Eastern Europe in 1989--and the Soviet Union in 
1992--these momentous revolutions changed the political, economic, and 
social map of the world in ways that could not have been anticipated 
even a few short years before during the Cold War.
    As Freedom House considered ways to support the transformation from 
communism to democracy, we understood that we could not teach the new 
leaders of Eastern Europe what it means to be free. It was after all 
their vision of freedom that had sustained them during the long night 
of communism. Likewise, we found that the new leaders understood in 
theoretical terms how a democratic and free market society operated. 
But, at the same time, we also understood that these new leaders had no 
roadmaps, no practical application for the theory that could guide them 
on their journey. For while there were more than enough variations on 
the Leninist blueprint for turning capitalism to communism, there was 
no plan for the reverse process.
    It was this passage from the theoretical to the practical dimension 
of democratic life that presented the greatest challenge to the new 
generation of leaders as they set out to transform their societies. 
And, Freedom House responded by committing itself to bridging the 
theoretical and the practical by developing a totally new kind of 
international exchange program, something we called a ``professional 
internship'' program. Our plan was simple: identify the region's future 
leaders, bring them to the United States, and arrange for them to work 
side by side with their American counterparts for several months. It 
was an immersion plan designed to give the participants the practical 
experience and skills necessary to understand the inner workings of a 
functioning democratic and free market system. Incorporated into 
Freedom House's program was our belief that practical, on-the-job 
training is the most efficient means of transferring the skills, 
working knowledge, and expertise necessary to equip these new leaders.
    Since that time, together with the National Forum Foundation (which 
merged with Freedom House in 1997), Freedom House has sponsored and 
organized exchanges for about 900 young leaders (average age 32) from 
CEE and the former Soviet Union. Of these, about 650 participated in 
the longer term (10-12 week professional internship program) and the 
remaining 250 participated in a variation of the study tour program (2-
3 weeks).
    Since 1989, our programs have ``targeted'' three sectors of society 
which we believe continue to be key to the region's successful 
transition to democracy:

          1. political and NGO leaders active in public policy 
        development,

          2. journalists and managers from independent media, and

          3. individuals responsible for establishing the legal 
        framework, policies, and infrastructure to create a free market 
        environment conducive to investment, capital growth, and 
        entrepreneurialism.

    In the past ten years, the participants in this exchange program 
have worked in hundreds of U.S. congressional, state, and local 
government offices across America where they have help to draft 
legislation, write reports on human rights, organize public hearings, 
prepare press releases, and respond to constituent concerns. Working in 
hundreds of media outlets across America, journalists from the emerging 
democracies have worked with reporters on their beats, and with 
editors, and managers and producers of the news. They attend editorial 
meetings, observe the assignment process, and conduct interviews with 
newsmakers while learning new investigative reporting techniques. 
Business managers of media outlets have learned how to enhance their 
companies' commercial viability by developing organizational budgets, 
design advertising strategies, making sales calls, and so on. Financial 
analysts, business development specialists, and stock exchange 
directors and regulators alike have worked in American exchanges, 
regulatory bodies, entrepreneur incubators, trade and business 
associations, in private public financing partnerships, venture capital 
firms, and banks.
    Mr. Chairman, following their three months of immersion in the 
American work environment, before the participant returns home, we 
conduct an evaluation. We have a record of each evaluation submitted 
that invariably observe that their American experience was the most 
productive professional training experience of their lives. Some even 
use the term ``reborn'' to describe their new perspective and 
understanding. Perhaps the most important thing, however, is that these 
young leaders all return home with new optimism, confident that they 
have the vision and know-how to roll up their sleeves and get started 
on the task ahead.
    Perhaps the best evidence of Freedom House's success in helping to 
develop the region's new generation of democratic leaders can be seen 
in the increased responsibility taken on by the program alumni after 
returning home. FH counts among its former participants four cabinet 
minister (including the current foreign minister of Bulgaria), six vice 
ministers, several ambassadors, over 60 MPs, mayors, and city council 
members, and the press spokespersons for eight heads of government or 
state, and numerous senior advisors to heads of government. Our alumni 
can also be found throughout the region's most influential print and 
broadcast media outlets. Each day they report to audiences on events in 
their country, their region--as well as reporting on U.S. news and U.S. 
policy.
    It is self evident that the 900-plus alumni who have returned home 
represent a critical and enormously influential cadre of policy, 
opinion, and business leaders. Now, equipped with their U.S. 
experience, they represent a valuable network that is helping to 
navigate their countries through the rapids of the transformation. In 
addition, the alumni are, to a person, better informed about America, 
and more likely to understand and support American policy.
    This year, as one of the largest American NGOs working in the 
region, Freedom House will sponsor another 50 U.S. exchanges--which is 
about 20% less than in previous years. In addition to our exchange 
programs, Freedom House will award over $2 million in sub grant 
programs particularly to think tanks throughout CEE and Ukraine as well 
as NGOs active in get-out-the-vote programs in Ukraine, Croatia, and 
Serbia. Freedom House will sponsor hundreds of days of on-site 
consulting in senior government offices and NGOs throughout the region. 
And, we also will sponsor an array of workshops, seminars, and regional 
exchanges on issues ranging from ``investigative reporting of cross-
border crime and corruption'' to ``linking reform oriented think tanks 
in CCE Russia and Ukraine.''
    As I mentioned earlier, this year the ``exchange'' component of 
Freedom House's program will represent less than 10% of our budget. 
Yet, based on my twelve years working and traveling to the former East 
Bloc (over fifty times), and having designed and managed one of 
America's largest democratization program portfolios, I believe without 
a doubt that exchange programs, when properly targeted and managed, 
represent America's most powerful tool to transform the former 
communist world. It is a critical building block upon which to develop 
further collaboration and cooperation.
    Mr. Chairman, it has been ten years since the Berlin Wall fell 
liberating the former captive nations of Eastern Europe. And, it has 
been eight years since the Soviet Union collapsed. I understand that 
this Subcommittee must continuously evaluate the situation in the 
region's emerging democracies, along with America's interests and 
objectives, and to develop strategies to achieve those objectives.
    It is clear that some countries are on an irreversible path to full 
membership in the community of Western democracies. The progress has 
been breathtaking in a number of cases. Successive and fair elections 
have taken place, and peaceful transfer of power has become routine in 
most of CEE. And, while they wifi continue to debate the role of 
government in the economy and the best way to bring growth and 
prosperity, the basic economic restructuring has taken place in much of 
CEE. Indeed, today, the economies of Hungary and Poland are among the 
fastest growing in Europe.
    Yet, the picture is not so rosy elsewhere. Much of the region 
remains between two worlds, one dead and the other struggling to be 
born. Throughout the former Soviet Union, most significantly in Russia 
and Ukraine and, of course, in Southeast Europe, progress has been 
incremental at best. The situation is volatile, even explosive, because 
of the region's ethnic and nationalist hostility. Dictators reign in 
several countries, and they are not far beneath the surface in others. 
The desperate economic conditions (largely as a result of incomplete or 
phony reform programs), the rampant corruption, the public psychology, 
the porous borders, and of course, the threat of proliferation--all 
mandate that America remain thoroughly engaged and vigilant throughout 
the region.
    But, Mr. Chairman, when assessing what has worked in those 
countries that have failed to make progress toward democracy and free 
markets, I would speculate that in virtually every case, the alumni of 
those exchange programs represent a ray of hope. I know that is true in 
Ukraine and in Serbia.
    Mr. Chairman, we congratulate you on your leadership on these 
issues, and we stand ready to support your efforts, and to respond to 
any questions you might have.
    Thank you.

    Senator Grams. Thank you, Mr. Denton.
    Ms. Johnson.

 STATEMENT OF MARLENE M. JOHNSON, EXECUTIVE DIRECTOR AND CHIEF 
    EXECUTIVE OFFICER, NAFSA: ASSOCIATION OF INTERNATIONAL 
EDUCATORS, AND CHAIRMAN OF THE BOARD OF DIRECTORS, ALLIANCE FOR 
INTERNATIONAL EDUCATIONAL AND CULTURAL EXCHANGE, WASHINGTON, DC

    Ms. Johnson. Thank you, Mr. Chairman, for holding this 
hearing and for inviting me to testify. I know it is hard to 
focus on these matters at this particular time of the year. All 
of us in the international education community appreciate your 
leadership in bringing us together to discuss an issue that may 
not figure prominently in the political debate swirling around 
us right now, but that does, we believe, fundamentally affect 
the national interest of this country.
    I would like to focus briefly on two concepts, leadership 
and the national interest. In an earlier era we understood 
better that the ability of the United States to protect and 
advance its interests in the world depended fundamentally on 
our knowledge of that world and on our ability to promote 
international understanding, and we all remember the Senators 
who were prepared to stand up and exercise leadership on behalf 
of international education and exchange programs that serve 
these objectives.
    Oddly, as the world has become more interdependent and more 
global, as the national interest of the United States has 
become more linked to events abroad, interest in international 
education programs in the Congress has declined. It is not that 
these programs have enemies, but they seem to be viewed as 
expendable in budget battles.
    The American people, however, understand that our Nation's 
ability to lead, prosper, and protect our national security in 
the 21st century depends more than ever on international 
knowledge and understanding. They need and we need champions 
who will fight for our programs in the legislative arena. You, 
Mr. Chairman, have been such a champion. We need more on both 
sides of the aisle.
    Today I testify on behalf of the Alliance for International 
Educational and Cultural Exchange, of which I chair the board 
of directors, and NAFSA: Association of International 
Educators, of which I am CEO. The Alliance is a coalition of 
more than 60 organizations that sponsor international 
educational and cultural exchange programs. NAFSA, a member of 
the Alliance, is the largest professional association of 
international educators, with more than 8,600 members on 
campuses nationwide, as well as a growing membership overseas.
    On behalf of the tens of thousands of citizens represented 
by these two organizations who make international education and 
exchange work on campuses and in communities all over the 
country, I thank you for being our champion, Mr. Chairman, and 
I express to you our hope that you will do even more in the 
future to fill the leadership vacuum that exists on our issues.
    To be true to this constituency, Mr. Chairman, let me say 
at the outset that there is a lot more to international 
education than exchange. We have to internationalize our 
college and university curricula and classrooms, make sure that 
study abroad programs are linked to student academic programs, 
deepen and broaden foreign language instruction so that 
Americans are conversant in the world's major languages, 
maintain and increase our output of international specialists 
who will provide the next generation of expert knowledge, and 
support an ambitious agenda of international and global 
research in all disciplines to help us understand and shape 
globalization.
    Exchanges are an indispensable part of all that, but they 
are not the whole picture, and we need to work on all of it to 
prepare ourselves for the new century.
    We have tried to lay out the whole picture in a NAFSA-
Alliance paper entitled ``Toward an International Education 
Policy for the United States,'' which is appended to my 
statement. This paper represents our effort to articulate a 
post-cold war rationale for international education and 
exchange in the global world. Unlike most such efforts, it is 
deliberately short and to the point as a way of encouraging 
policymakers to read it. I commend it to you and I ask for it 
to be included in the record.
    Senator Grams. It will be included. Thank you.
    Ms. Johnson. The focus of this hearing is international 
educational and cultural exchange programs, including 
Fulbright, citizens exchange, international visitor programs, 
high school exchanges, and a broad range of privately funded 
exchanges that the State Department facilitates under the J-
visa program. These programs establish the people to people 
ties between the U.S. and other nations that enable us to 
support American business interests and carry out U.S. foreign 
policy goals. These are the programs that establish the 
foundation for effective U.S. public diplomacy, economic 
competitiveness, and national security in the next century.
    They also include overseas educational advising centers, 
which counsel foreign students seeking an education in the 
United States. These centers deserve much of the credit for the 
half a million foreign students and scholars who study here 
every year and for the billions of dollars that they and their 
families contribute to the American economy.
    Foreign students and exchange visitors who come to the 
United States take American values and perspectives home with 
them, promote democratic institutions and market-based 
economies, make major purchasing decisions involving American 
products, and create partnerships with American enterprises. 
Many, as has already been mentioned, become important leaders 
in their societies, enhancing our diplomatic ties with a number 
of nations. Virtually all of them have a profound positive 
impact on our own security and prosperity.
    In recent years, international education has become a major 
global issue. Education topped the agenda of the Summit of the 
Americas in 1998. In the past few years, the Governments of 
Australia, Great Britain, France and others have placed a major 
emphasis on recruiting international students and have 
dedicated millions of new dollars to that mission. This year 
the G-8 adopted a goal of doubling the number of exchanges in 
the next 10 years.
    The United States lags far behind in terms of having 
proactive national policies to promote international education. 
Recently, however, there have been hopeful signs of increased 
national priority and attention to these issues. I have 
outlined a number of them in my prepared remarks and I will not 
repeat them here because the other presenters have reinforced 
them. Needless to say, it includes the USIA conference a couple 
of years ago, our own policy statement, the President's April 
19 directive, Congressman Kolbe's resolution, and the 
Appropriations Committee statement on foreign policy priorities 
including exchanges of this fall. Of course, this fall and 
November we will for the first time be acknowledging U.S. 
International Education Week on the 13th to the 17th of 
November.
    I have submitted material on each of these and I ask that 
they also be included in the record.
    Senator Grams. Without objection, they will be included.
    Ms. Johnson. Thank you.
    Now, these hearings are highlighting the importance of one 
very important aspect of international education policy, 
exchange programs. We have come a long way in the period of a 
year or two, but we must not allow the momentum to die. So 
today I would like to suggest a few things that can be done to 
assure that international education and particularly 
educational and cultural exchange programs can meet the 
challenges we face as a Nation in this global area.
    First, I ask you to establish a congressional caucus on 
international education, so that we will have a forum for 
promoting a long-term forward-thinking policy on international 
education. Sustained congressional leadership is essential to 
our success.
    Second, I ask you to work to ensure that our Nation's 
flagship exchange programs, the ones that are tried and true, 
have healthy budgets so that they will have the resources they 
need to serve our national interests. At a minimum, these 
programs need to be restored to the levels of funding they 
enjoyed before the severe reductions of the mid-nineties. In 
some cases, such as overseas advising centers, additional 
resources will be necessary to adequately meet the challenges 
posed by the increased and substantially increased foreign 
competition and foreign investment in recruiting international 
students.
    Third, I ask you to join the nongovernmental sector in 
calling on the next administration for leadership. Congress 
needs to hold the next administration accountable for promoting 
our national interest with an international education policy.
    Now, Mr. Chairman, I would like to add one additional 
proposal that is not in the prepared remarks that you had 
before I sat down here, and I request permission to submit a 
revised statement for you tomorrow for the record.
    Senator Grams. As requested, without objection.
    Ms. Johnson. Thank you.
    My fourth suggestion is that we are asking you to establish 
a vehicle to use Federal dollars to leverage private, 
corporate, and university support to stimulate an increase in 
the number of U.S. students studying abroad. As an example, I 
would simply mention to you a tremendous impact that many State 
legislatures, including Minnesota, had during the eighties by 
appropriating funds that were matched by private support that 
endowed chairs and professorships at public universities 
throughout the country.
    All of these initiatives were based on the Oklahoma model 
and they resulted in millions of private dollars of investment 
in the long-term academic health of public universities. I 
believe that such an initiative could play a significant role 
in encouraging America's young people to study abroad.
    We recognize that the Federal Government cannot do it all. 
Colleges, universities, community colleges, and our school 
systems must further internationalize their curricula and 
campuses and they must provide enhanced global opportunities 
for students and faculty. Higher education institutions, State 
governments, private foundations, nongovernmental 
organizations, local school districts, and community and 
business leaders all need to accept responsibility. They must 
increase their support for international education and they 
must forge creative partnerships to achieve these important 
national goals.
    But the Federal role is crucial in setting a policy 
direction, creating a conceptual understanding within which 
members of the public can define their roles, and using Federal 
resources to leverage action at other levels. Those in Congress 
who understand the importance of international education have 
an important role to play in placing international education 
policy on the national agenda.
    I hope this hearing will be followed by others early in the 
next Congress, and I call upon the next Congress to pass such a 
resolution outlining such a policy and urge the next 
administration to adopt it as the policy of the United States.
    Thank you, Mr. Chairman.
    [The prepared statement of Ms. Johnson, including 
attachments, begins on page 45:]
    Senator Grams. Thank you, Ms. Johnson.
    Dr. Mueller.

 STATEMENT OF SHERRY L. MUELLER, EXECUTIVE DIRECTOR, NATIONAL 
       COUNCIL FOR INTERNATIONAL VISITORS, WASHINGTON, DC

    Dr. Mueller. Senator Grams, thank you very much for 
inviting me to testify on the domestic impact of the State 
Department's International Visitor [IV] Program. I have the 
privilege of serving as executive director of the National 
Council for International Visitors, a nonprofit professional 
association for the private sector partners in the daily 
administration of the International Visitor Program.
    Each year more than 80,000 volunteers, citizen diplomats, 
are involved in the activities of our program agency members 
and our 97 community-based member organizations throughout the 
United States. Our members organize the professional programs, 
the cultural activities, the home visits that these 
distinguished foreign leaders who participate in the 
international visitor program enjoy while they are in the 
United States. A list of our members by State is appended. You 
also have our membership directory and a new publication called 
``A Salute to Citizen Diplomacy.''
    When assessing the impressive results of the International 
Visitor Program or any exchange, for that matter, we tend to 
focus on the visitors themselves--the positions of prominence 
they attain, their accomplishments. To illustrate, former Prime 
Minister of Japan Kaifu when he was here as an international 
visitor learned about our Peace Corps program and invented 
years later the Japanese equivalent. Or recently we heard from 
the current Minister of Justice of Poland, who said that it was 
her IV experience that really deepened her understanding of 
democratic institutions and the functioning of a market 
economy.
    We also focus on how the program improves our embassy 
personnel overseas ability to function and to do their jobs. It 
has already been underscored that in the most recent survey 
done of U.S. Ambassadors in fact the International Visitor 
Program is ranked at the top of the list. I would just remind 
that the last time the survey was conducted in 1993 the same 
results occurred.
    But when discussing the national interest it is also 
imperative to focus on the domestic impact of these exchange 
programs, what do the U.S. communities get out of it. I have 
conducted some research on this and also have the privilege of 
spending about 20 percent of my time on the road visiting these 
citizen diplomats around the country.
    Perhaps the most dominant reason or the best illustration 
of the reason that they are involved in the International 
Visitor Program can be illustrated by an adaptation of the 
original ad for the Pony Express rider, and you may remember 
this from your American history. The add went like this: 
``Wanted: Young, wiry, skinny fellows under the age of 18. Must 
be expert riders, willing to risk death daily. Wages, $25 per 
week''--pretty good for 1860--``Orphans preferred.''
    Now, if I were to rewrite this ad for our members and the 
volunteers who become involved with the International Visitor 
Program, it would go something like this: ``Wanted: Young at 
heart of all ages. Must be eager to learn, well organized, and 
willing to risk breaking stereotypes daily. Wages, will not be 
discussed. Idealists preferred.''
    Our volunteers come from all walks of life and represent 
the diversity of their communities. But what they have in 
common is that they are all idealists. They care about 
promoting human rights, about improving civic participation, 
not only abroad but at home. In working on these programs, they 
really develop a particular appreciation for American 
democratic institutions.
    Whether in Tennessee, Texas, California, or Wisconsin, 
whether farmers, bankers, doctors, teachers, these volunteers 
relish the opportunity to make a difference, as one of our 
members brochures phrases it, ``one handshake at a time.''
    Their second major motivation is the education of their 
children. Through extensive schools programs and home 
hospitality, the children of these citizen diplomats enjoy a 
valuable supplement to their education. As a volunteer from 
Freeport, Illinois, phrased it: ``My daughter can discuss 
intelligently places her classmates cannot find on a map.''
    Many volunteers are involved with the International Visitor 
Program to counter the ``ugly American'' image. The Arkansas 
Council for International Visitors was established in the early 
1960's to counter the negative publicity surrounding the 
integration of Central High School. Founder Fred Darrow, with 
whom I was visiting just last week, observed that hosting newly 
independent African visitors helped advance integration in many 
U.S. communities.
    The International Visitor Program still brings a whole 
variety of people together to host the foreign guests who 
otherwise would not have the opportunity to work together.
    Still others are involved because they are responsible for 
economic development in their communities and they see 
exchanges as an opportunity to make valuable connections and to 
have certain cross-cultural experiences that are particularly 
valuable for representatives of small and medium sized 
businesses.
    The International Visitor Program reaches a broad spectrum 
of the community. It involves a cross-section of institutions, 
individuals, who might never have the opportunity to study or 
travel abroad. ``Travel by proxy'' is the way one volunteer 
described her involvement.
    After receiving the invitation to testify, I sent out a 
broadcast fax to our members inviting their statements. They 
sent wonderful articles and quotations and a few, some of them, 
are attached to my testimony, that illustrate the remarkable 
results of the International Visitor Program, and I hope those 
statements may be included in the record as well.
    Senator Grams. Without objection, they will be entered.
    Dr. Mueller. Despite the tremendous constituent involvement 
in exchanges, the overall direct exchanges appropriation fell 
31 percent, adjusted for inflation, since 1993. The 
International Visitor Program is down 34 percent since 1993. 
Fewer participants, shorter trips, mean that for the NCIV 
member organizations the program has diminished by 
approximately 40 percent.
    During a recent visit to Nebraska, our volunteers spoke of 
declining numbers and their concern that fewer foreign leaders 
get to smaller and more rural communities, where they can have 
such a great impact and where they can learn about basic 
American values.
    NCIV is a member of the Alliance. We enthusiastically echo 
Ms. Johnson's request for a congressional caucus and a national 
policy on international education. Citizen diplomats leverage 
an enormous amount of resources for exchanges locally, but they 
need your leadership at the national level.
    NCIV members across the United States strongly support 
increased funding for all State Department exchanges. We urge 
that the International Visitor Program in particular not only 
be restored to its 1993 levels, but that it be expanded to 
cover inflation and new programmatic needs. Specifically, we 
request that you identify additional new money in fiscal year 
2002 to fund the GREAT program, dubbed as the GrassRoots 
Exchange and Training Program, that would, under the auspices 
of the International Visitor Program, enable an additional 400 
participants to come to the United States each year.
    These new participants would be local officials, 
representatives of Chambers of Commerce, and other community 
leaders, who would spend the last week of their 21 days in the 
States in their current or in a potential sister city, to 
develop plans of action and strengthen those relationship. This 
addition to the International Visitor Program would serve as a 
model, generating synergy among exchange programs, and expand 
U.S. efforts to build stronger commercial and cultural ties 
between U.S. leaders and their counterparts abroad. A statement 
of support for the GREAT program from Sister Cities 
International is appended. Senator Grams, we appreciate your 
support for this new initiative.
    If the world consisted of only 100 people, only 5 of them 
would live in the United States. It is imperative that we as a 
country learn to communicate and to work well with the other 
95. The International Visitor Program and other exchanges do 
just that. Thank you for underscoring that fact by holding this 
hearing.
    [The prepared statement of Dr. Mueller, including 
attachments, begins on page     :]
    Senator Grams. Thank you, Ms. Mueller. Thank you very much.
    Carol, welcome.

   STATEMENT OF CAROL ENGEBRETSON BYRNE, EXECUTIVE DIRECTOR, 
        MINNESOTA INTERNATIONAL CENTER, MINNEAPOLIS, MN

    Mrs. Byrne. Senator Grams, thank you for inviting me to 
testify today. My name is Carol Engebretson Byrne, the 
executive director of the Minnesota International Center [MIC]. 
Founded in 1953, MIC is a membership-based nonprofit, 
nonpartisan organization whose mission is to foster 
understanding between Minnesotans and the world. Public 
interest in the Minnesota International Center is soaring. Our 
membership has almost tripled in the last 3 years to 2,100 
members, and our budget is $965,000. We are affiliated with the 
World Affairs Councils of America, the National Councils for 
International Visitors, and NAFSA.
    Our mission is carried out through three major programs. 
The world affairs program connects international events to the 
daily lives of Minnesotans by inviting experts on international 
issues to speak at public forums. Last year over 8,000 people 
attended the world affairs events.
    Our schools program, International Classroom Connection, 
links international speakers and State Department international 
visitors to Minnesota classrooms K through 12 to bring inter-
cultural perspectives throughout the entire curriculum.
    The third program, the International Visitor Program, 
arranges for foreign civic and business leaders to meet their 
Minnesota counterparts to discuss issues ranging from legal 
reform to agricultural technology.
    The Minnesota International Center is one of a network of 
97 organizations nationwide that host State Department 
international visitors. Today I am here to underscore the 
importance of the International Visitors Program to our 
organization, our State, our country. The State Department 
views the International Visitors Program as the key component 
of its public diplomacy initiatives. The International Visitors 
Program is a professional leadership development program which 
promotes the exchange of ideas and expertise between mid-career 
international professionals and their U.S. counterparts.
    The power of the program rests with the peer to peer 
connection. Its success rests in the number of connections that 
are made. In Minnesota in the mid-1980's we hosted a thousand 
international visitors on an annual basis. Each international 
visitor met with a minimum of five professional peers, for a 
total of approximately 5,000 personal peer to peer connections.
    However, in the past years the number of visiting 
professionals has dropped significantly, from 715 in 1991 to 
330 in 1999. That meant that last year just 1,600 contacts were 
made or 3,400 less than in the mid-eighties.
    The Minnesota International Center views the International 
Visitors Program as critical to introducing our local leaders 
in business, government, the arts, and civil society to the 
next generation of leaders emerging in key countries around the 
world. Minnesotans are avid participants in the burgeoning 
global society and economy. In 1998, for example, Minnesota 
companies exported more than $9.1 billion in agricultural and 
manufactured products. That figure makes it easy to grasp that 
more than 100,000 Minnesota jobs are related to the 
international economy.
    We also need the program to add a vital international 
perspective to our local understanding of who we as Minnesotans 
are today. The vast wave of international immigration to the 
United States is rapidly changing the demographic makeup of 
Minnesota's population. In Minneapolis schools, for example, 
the number of students for whom English is not the native 
language has tripled since 1990.
    Why is the International Visitors Program so important to 
Minnesotans and why do I believe this program deserves to be 
strengthened and bolstered? Because it gives Minnesotans at all 
levels of society an opportunity to engage in a dialog with 
others of similar interests and learn how things are done in 
other countries.
    The International Visitors Program is an efficient way to 
initiate and nurture critical international professional 
connections. Minnesotans greatly appreciate this program and as 
our State's economy grows we have a compelling desire to see it 
expanded. With our current community contacts, we have the 
potential to host two or three times the number of 
international visitors that we have today. We want more 
international visitors.
    Every dollar invested in the program at the national level 
is leveraged many times over at the local level. We draw 
heavily upon volunteer support to both manage and implement the 
program. It is an example of public-private partnership at its 
best. Volunteers organize professional appointments, may 
transport international visitors to and from meetings, and host 
them for dinners and cultural events. More importantly, the 
people with whom the visiting professionals meet all agree to 
do so voluntarily. This network of local leaders contributes 
considerable time to the program at no cost.
    Let me give you some examples of Minnesota officials and 
community leaders who have warmly embraced this program and 
recently met with our international visitors: former Attorney 
General Skip Humphrey, Guthrie Theater director Joe Dowling, 
St. Paul Mayor Norm Coleman, the staff of our own U.S. 
Senators, Rod Grams and Paul Wellstone, Congressman Jim 
Ramstad, Governor Jesse Ventura, executives from 3M, Honeywell, 
Medtronics, and Cargill, and dozens of mayors, county 
commissioners, education officials, medical personnel, and 
municipal elected officials statewide. All of these are active 
partners in nurturing a network of informed global leaders.
    Where some of our other programs measure their success by 
the headlines they generate, the International Visitors Program 
works more subtly, in a behind the scenes manner. As a result, 
it is all the more powerful and influential. It is the work 
that goes on away from the TV cameras and microphones that 
produces lasting relationships between people and countries.
    The International Visitors Program also has had a profound 
impact on our country's ability to influence positively and 
discretely the development of democratic principles and 
processes in other countries. Consider that many of the 
international visitors to Minnesota come from countries 
struggling to develop a viable democratic society. Whether in 
Eastern Europe, Africa, Asia, or Latin America, many of these 
visiting leaders come from countries lacking strong internal 
democratic traditions. They desperately need to learn how to 
implement the basics of a free society, how to establish an 
equitable system of justice, how to decentralize government 
decisionmaking so it best represents the interests of all 
members of their societies.
    In Minnesota we arrange for visitors such as these to meet 
with their local government counterparts to learn how a 
representative democratic functions in one U.S. State. The 
implications of this type of activity are profound in terms of 
American foreign policy goals. Through the International 
Visitors Program, we are literally helping countries learn how 
to rebuild their nations in accordance with the democratic 
principles that we as a Nation believe are essential to the 
peaceful functioning of a global society.
    MIC members also leap at the opportunity to meet with our 
international visitors. It is not every day that one can host 
members of the South African Parliament, a Russian theater 
director, supreme court justices from Rwanda, or a Brazilian 
mayor at one's home for dinner. But MIC members have been able 
to do just that through the International Visitors Program.
    These informal dinners in a home offer Minnesotans and 
visitors alike the chance to relax and exchange international 
viewpoints. For all participants, it is a chance to set aside 
any stereotypes they may harbor and learn something new about a 
new country.
    As I mentioned earlier, there is much more we could do in 
Minnesota with a more robust International Visitors Program. 
One of the most discouraging outcomes of the funding cutbacks 
for the program has not only been the tremendous decline in 
visitors, but the necessity to drastically curtail the number 
of visitors we schedule for meetings with rural Minnesotans. 
Due to budgetary reasons, the State Department has in recent 
years reduced the amount of time visitors spend in the United 
States from 4 weeks to 3 weeks. In Minnesota this has meant 
fewer days on the ground for our visitors, with less and less 
opportunity to schedule visits to areas outside the 
metropolitan Twin Cities area.
    Funding reductions can also erode the quality of the 
programs, such as interpreting services. Any reduction in the 
ratio of interpreters to visitors can diminish the quality of 
productivity of the meetings. This is another area that 
deserves greater support.
    In conclusion, I would like to again express my gratitude 
for the opportunity to speak to you today. On behalf of the 96 
organizations around the country that work with the 
International Visitors Program, I urge you to support a 
resolution calling for a greater national priority to 
international exchange in the United States, including most 
specifically higher levels of financial and public policy 
support for the International Visitors Program, including the 
GREAT program.
    The International Visitors Program is a long-term 
investment in engaging the public and meeting our foreign 
policy goals.
    Thank you.
    [The prepared statement of Mrs. Byrne follows:]

             Prepared Statement of Carol Engebretson Byrne

    Mr. Chairman and distinguished members of this subcommittee, thank 
you for inviting me to testify today. I am Carol Engebretson Byrne, the 
executive director of the Minnesota International Center. Founded in 
1953, MIC is a membership-based, non-profit, non-partisan organization 
whose mission is to foster understanding between Minnesotans and the 
world. Public interest in the Minnesota International Center is 
soaring. Our membership has almost tripled in the past three years to 
2,100 members and our budget is $965,000. We are affiliated with the 
World Affairs Councils of America and the National Councils of 
International Visitors.
    Our mission is carried out through three major programs:

  <bullet> The World Affairs program connects international events to 
        the daily lives of Minnesotans by inviting experts on 
        international issues to speak at public forums. Last year over 
        8,000 people attended our World Affairs events.

  <bullet> Our program for schools, International Classroom Connection, 
        links international speakers and State Department International 
        Visitors to Minnesota classrooms (K-12) to bring intercultural 
        perspectives throughout the entire curriculum.

  <bullet> And the third program, the International Visitors program, 
        arranges for foreign civic and business leaders to meet their 
        Minnesota counterparts to discuss issues ranging from legal 
        reform to agricultural technology. The Minnesota International 
        Center is one of a network of 97 organizations nationwide that 
        hosts State Department International Visitors.

    Today, I am here to underscore the importance of the International 
Visitors program to our organization, our state and our country. The 
State Department views the International Visitors program as a key 
component of its public diplomacy initiatives. The International 
Visitors program is a professional leadership development program, 
which promotes the exchange of ideas and expertise between mid-career 
international professionals and their U.S. counterparts. The power of 
the program rests within the peer-to-peer connection. Its success rests 
in the number of connections that are made.
    In Minnesota in the mid 1980s, we hosted 1,000 International 
Visitors on an annual basis. Each International Visitor met with a 
minimum of 5 professional peers, for a total of 5,000 personal peer-to-
peer connections.
    However, in the past several years the number of visiting 
professionals has dropped significantly, from 715 in 1991 to 330 in 
1999. That meant that last year just over 1,600 contacts were made--or 
3,500 less than in the mid-80s.
    The Minnesota International Center views the International Visitors 
program as critical to introducing our local leaders in business, 
government, the arts and civic society to the next generation of 
leaders emerging in key countries around the world.
    Minnesotans are avid participants in the burgeoning global society 
and economy. In 1998, for example, Minnesota companies exported more 
than $9.1 billion in agricultural and manufactured products. That 
figure makes it easy to grasp that more than 100,000 Minnesota jobs are 
related to the international economy.
    We also need the program to add a vital international perspective 
to our local understanding of who we, as Minnesotans, are today. The 
vast wave of international immigration to the United States is rapidly 
changing the demographic makeup of Minnesota's population. In 
Minneapolis schools, for example, the number of students for whom 
English is not the native language has tripled since 1990.
    Why is the International Visitors program so important to 
Minnesotans? And why do I believe this program deserves to be 
strengthened and bolstered to previous funding levels? It gives 
Minnesotans at all levels of society, an opportunity to engage in a 
dialogue with others of similar interests--and learn how things are 
done in other countries.
    The International Visitors program is an efficient way to initiate 
and nurture critical international professional connections. 
Minnesotans greatly appreciate the program--and as our state's economy 
grows, we have a compelling desire to see it expanded. With our current 
community contacts, we have the potential to host two or three times 
the number of International Visitors that we have today.
    We want more International Visitors. Every dollar invested in the 
program at the national level is leveraged many times over at the local 
level. We draw heavily upon volunteer support to both manage and 
implement the program. It is an example of public-private partnership 
at its best. Volunteers organize professional appointments, transport 
international visitors to and from meetings and host them for dinners 
and cultural events. More importantly, the people with whom the 
visiting professionals meet all agree to do so voluntarily. This 
network of local leaders contributes considerable time to the program 
at no cost. Let me give you some examples of Minnesotan government 
officials and community leaders who have warmly embraced this program 
and recently met with our International Visitors: former Attorney 
General Skip Humphrey; Guthrie Theater Director, Joe Dowling; St. Paul 
Mayor Norm Coleman; the staff of our own U.S. Senators Rod Grams and 
Paul Wellstone; Congressman Jim Ramstad; Governor Jesse Ventura; 
executives from 3M, Honeywell, Medtonic and Cargill; and dozens of 
mayors, county commissioners, arts officials, medical personnel and 
municipal elected officials statewide. All of these are active partners 
in nurturing a network of informed global leaders.
    Where some of our other programs measure their success by the 
headlines they generate, the International Visitors program works more 
subtly in a behind-the scenes manner. As a result, it is all the more 
powerful and influential. It's the work that goes on away from the TV 
cameras and microphones that produces lasting relationships between 
people and countries.
    The International Visitors program also has a profound impact on 
our country's ability to influence positively--and discreetly--the 
development of democratic principles and processes in other countries. 
Consider that many of the International Visitors to Minnesota come from 
countries struggling to develop a viable democratic society. Whether in 
Eastern Europe, Africa, Asia or Latin America, many of these visiting 
leaders come from countries lacking strong internal democratic 
traditions themselves. They desperately need to learn how to implement 
the basics of a free society, how to establish an equitable system of 
justice, how to decentralize government decision-making so it best 
represents the interests of all members of their societies, how to 
establish fair and open government purchasing systems. In Minnesota, we 
arrange for visitors such as these to meet with their local 
governmental counterparts to learn how representative democracy 
functions in one U.S. state. The implications of this type of activity 
are profound in terms of American foreign policy goals--through the 
International Visitors program we are literally helping countries learn 
how to rebuild their nations in accordance with the democratic 
principles that we as a nation believe are essential to the peaceful 
functioning of a global society.
    MIC members also leap at the opportunity to meet with our 
international visitors. It is not everyday that one can host members of 
the South African parliament, a Russian theater director, Supreme Court 
justices from Rwanda or a Brazilian mayor in one's home for dinner, but 
MIC members have been able to do just that through the International 
Visitors program. These informal dinners in a home offer Minnesotans 
and visitors alike the chance to relax and exchange international 
viewpoints. For all participants it is a chance to set aside any 
stereotypes they may harbor and learn something new about another 
country.
    As I mentioned earlier, there is much more we could do in Minnesota 
with a more robust International Visitors program. One of the most 
discouraging outcomes of the funding cutbacks for the program has not 
only been the tremendous decline in visitors, but the necessity to 
drastically curtail the number of visitors we schedule for meetings 
with rural Minnesotans. Due to budgetary reasons, the State Department 
has in recent years reduced the amount of time visitors spend in the 
United States--from four weeks to three weeks. In Minnesota, this has 
meant fewer days on the ground for our visitors, with less and less 
opportunity to schedule visits to areas outside the metropolitan Twin 
Cities area.
    Funding reductions can also erode the quality of the program such 
as interpreting services. Any reduction in the ratio of interpreters to 
visitors can diminish the quality of productiveness of the meetings. 
This is another area that deserves greater support.
    In conclusion, I would like to again express my gratitude for the 
opportunity to speak to you today. On behalf of the 97 organizations 
around the country that work with the International Visitors program, I 
urge you to support a resolution calling for a greater national 
priority to international exchange in the United States--including most 
specifically higher levels of financial and public policy support for 
the International Visitors program including the GREAT Program. This 
program is a long-term investment in engaging the public and meeting 
our foreign policy goals. Thank you for your time.

    Senator Grams. Thank you very much, Carol.
    Before we begin a round of questioning, with the way the 
schedule is here in Washington, I have been kind of double-
booked. I had another commitment at 10:30, but I have the folks 
here in the back room. So I am going to take just a quick 
break. I do not want to take very long, but I have to meet, 
including Mayor Dick Nelson of Warren, Minnesota, and Vice 
Mayor Rob Kleiner and a number of others. So I am just going to 
meet with them very briefly. So I will just take a quick break 
and then I will be back.
    So we will just take a quick break and I will be right 
back.
    [Short recess.]
    Senator Grams. Thank you very much. I again apologize for 
doing some of these things out of order, but schedules are 
schedules. So I thank you very much for your consideration.
    Just a few questions I would like to ask our panelists this 
morning. Again, I really appreciate your taking the time and 
your testimony and your concerns and suggestions. So maybe we 
will just start and maybe go back counterclockwise and we will 
start with Carol here for the first question. Again I want to 
thank you for being here today, traveling out.
    The Minnesota International Center has been recognized 
nationally for its excellent work with the International 
Visitors Program and I think it is important to hear about the 
role of exchanges from the perspective of the heartland in 
America. I have had the great opportunity to visit a number of 
times and with some of the visiting dignitaries, including from 
China recently, and also the Ambassador to the United States 
from Israel. That was a GREAT lunch the other day as well in 
Minnesota.
    Carol, what has been the impact of these exchange programs 
on the people of Minnesota? In other words, do you see lasting 
effects from their contacts with these international visitors? 
I know you said there has been a great ratio with the 
professional peers in Minnesota meeting with such counterparts. 
What kind of lasting effects or benefits does it have, not only 
on the visitors but on Minnesotans as well?
    Mrs. Byrne. You know, Minnesota is a very interesting State 
because international exchange has always been very big. If you 
look at AFS, we have some of the largest number of 
international students at the high school. We also have one of 
the largest numbers of Peace Corps returnees. What happens with 
international exchanges like that and certainly with the 
International Visitors Program as well is that there is 
engagement between the public and the world, and they want to 
continue that.
    I think that the fact that Minnesota is a State that looks 
outward, you see that kind of impact every day. With our 
members and with people that we come in contact with, we 
usually find that their interest in international issues was 
sparked by a personal connection. I think that there are a 
number of things that have happened.
    One case in point would be the SADC conferences that have 
come to Minnesota, Southern African Development Community. That 
has come out of a contact from one international visitor from 
South Africa making a connection with Minnesota and 
strengthening those ties. You have seen those business 
connections that have grown as well.
    So there are some ways that you can measure it, but there 
are many, many other ways that you cannot measure it. But you 
know that that is somebody that has developed a strong 
international mind set.
    Senator Grams. I think, as you said, Minnesota looking 
outward really gave reason for the Minnesota International 
Center to be born and the things that you have done. It is from 
the interest of the people there.
    Mrs. Byrne. Right, exactly.
    Senator Grams. This reflects that.
    Mrs. Byrne. And please note that our membership has 
tripled, almost tripled in 4 years. I think that that says a 
lot about how Minnesotans are feeling that they have a 
compelling need to be very connected, and the younger it starts 
the better.
    Senator Grams. Dr. Mueller, I know we might take democracy 
for granted, but it is great to be able to invite people from 
other countries to come and, as I think all of you have 
mentioned, experience it firsthand and get a better 
understanding of workings of democracy and to take that back 
home and, not trying to maybe duplicate it, but it becomes a 
very important part of their thinking process.
    How has the IV program that you have talked about helped 
promote democracy abroad?
    Dr. Mueller. I think for many people from parts of the 
world in transition, whether you are talking about East Europe 
in particular, it gives them that first exposure and a sense 
that there is another way to go about organizing society. I 
think some of us in America do not appreciate how isolated up 
until the falling of the Berlin Wall and the disintegration of 
the Soviet Union that that part of the world actually was.
    I think even a very brief 3-week exposure can really change 
a lot of their stereotypes, a lot of their fixed ideas, both 
about who we are, but about how democratic institutions 
actually operate. There is no substitute for that actual 
experience, whether you are taking a Russian visitor to look at 
open houses on a weekend and say, which one do you want to go 
in, and then let us talk about how you get a mortgage for it if 
you were going to buy it. That kind of active experiencing of 
both a market economy and democratic institutions is 
irreplaceable. You cannot explain it to somebody in another 
context, and I think the International Visitor Program has been 
superb at doing that.
    Another example in more of a human rights context would be 
F.W. deKlerk, for instance, coming here as an international 
visitor and having that change his ideas about the future of 
that country. I could give more examples along the way, but why 
do I not stop there in the interest of time.
    Senator Grams. Just to followup on that, Dr. Mueller, the 
Sister Cities program, which as you know is very highly 
regarded in the State of Minnesota as well, was rated as one of 
the least useful programs in the field service of public 
diplomacy programs. So I would like to ask you, how will the 
new proposal that we have unveiled today help improve our 
Sister Cities program?
    Dr. Mueller. A few years ago, the then-executive director 
of Sister Cities and I had a chance to talk. In fact, we were 
preparing for a panel for the NAFSA conference. Her greatest 
challenge at the time was finding a way to move more 
delegations, to strengthen those Sister City relationships and 
make them more than relationships on paper. Some of the Sister 
Cities relationships are very strong.
    Over my travels in the United States I have had a chance to 
meet with a lot of Sister Cities volunteers because they often 
are involved in our Councils for International Visitors as 
well. So I think the ability to bring more delegations here 
will strengthen those relationships and put meat on their 
bones, so to speak.
    I also think there have been major changes in both the 
board composition as well as there is a brand new executive 
director of Sister Cities, with whom I have met and discussed 
the GREAT program. You saw their letter. I think they are on a 
very good course, and I do think the tremendous volunteer 
support they have across the country will be strengthened by 
having more foreign delegations to come and work with them more 
closely.
    Senator Grams. Marlene, since the end of the cold war many 
question the need to have exchanges with European countries and 
with Canada, claiming that the people from these regions would 
come to America without taxpayer funding. Has there been an 
effort to target other regions of the world for expanding U.S. 
exchange programs activity and, if so, how have they been 
successful?
    Ms. Johnson. I think there has been a great deal of effort 
by both universities and colleges themselves, as well as the 
State Department, to look at moving students in both directions 
to the emerging countries, the emerging democracies. Certainly 
we support that. I just came back 2 days ago, in fact, from 
South Africa at a conference of sister organizations there that 
is trying to strengthen the capacity of South African 
universities to support study abroad programs for American 
students and to increase the capacity of those institutions to 
send students here for 1-year programs, not necessarily 4-year 
programs, which is how most of the international students come 
now.
    There is a great deal of interest in that and a great deal 
of enthusiasm and leadership in that country for building the 
infrastructure in South Africa to support American students. 
There has been a substantial increase in the interest on the 
part of American students at many universities and colleges 
around the country.
    I think that it is important to identify vehicles to 
encourage that kind of exchange in both directions, because it 
is not just that Americans need to meet international visitors 
and students in our own country, but we need to go there. We 
need to have more Americans studying abroad, both for short-
term and long-term programs, if we are going to do our part to 
understand the world, just as we want them to come here and get 
a more personal understanding, more personally in touch with 
what a democracy means, what it means to have an election and 
have some people lose and still talk to each other the next 
day, and to transition governments, to build businesses, to 
build public-private partnerships, to support nongovernment 
associations or organizations like we are.
    We represent an aspect of society that is just beginning to 
exist in most parts of the world, including in Europe. So I do 
not really share the notion that there is not a need for 
exchanges with Canada and with Mexico and with Europe. Quite 
the contrary, I think that, if I could be so bold, I think that 
we United States Americans are pretty ignorant if we think that 
Canada is the same as we are, and unfortunately we do think 
that they are the same as we are and that is a problem. Yet 
they are our most important trading partner.
    So I would encourage us to speed up the exchange between 
the United States and Canada, but not at the expense of slowing 
down exchange with Eastern Europe or the former Soviet Union or 
Africa or Asia, because I think it is critical that we continue 
to build those relationships in both directions.
    Senator Grams. My second language is Canadian, so I 
understand.
    Ms. Johnson. Well, good. We are proud of you for that.
    Senator Grams. I wanted to also ask quickly before I move 
on, are these roles of exchanges becoming more or less 
important because of really the globalization? I say that 
because I hear many parents lament that their children and then 
grandchildren are now working in Beijing or London or Moscow. 
So I mean, the job opportunities are global now, not just 
moving to San Francisco or St. Louis. So really we do have a 
great mobility worldwide for many job opportunities.
    So are these exchange programs becoming more important or 
are they becoming less important because really it is becoming 
more of the way of life? Marlene?
    Ms. Johnson. Well, I think they are becoming more important 
because it is becoming more a way of life, because the more we 
begin to engage in the world at a young age the more competent 
we will be to handle the challenges, to accept the challenges, 
and be successful in those global environments that we are 
required to do.
    It is not just the people who are going to take a job in 
Beijing. It is the people in Wilmer, Minnesota, who are working 
for a company that is doing business internationally. I do not 
know if there is one in Wilmer exactly. Yes, there is one. I 
actually, I do remember that. I am losing touch with my old 
anecdotes a little bit here. I am getting a little rusty.
    But there are international businesses of every size in 
every county in your State and my State, and that is true for 
most States in this country. I think that is why there is a lot 
more interest on the part of American parents to get their 
children learning other languages and really thinking about 
where they should be studying and what they should be studying, 
because they know, they know they are working with people whose 
first language is not English. They know that the products they 
are making when they go to work in the morning are being sold 
all over the world and that if we are going to be successful at 
buying and selling around the world our products--they know 
that the clothes they are wearing were made someplace else, 
too.
    I mean, Americans are real smart. They just need some help 
understanding how to take all this new understanding of the 
world and do some things with our educational system and with 
our community involvement that helps advance what they know 
instinctively is required to have a successful future for 
themselves and their children.
    Senator Grams. Thank you.
    Mr. Denton, let me talk about promoting democracy. What is 
the administration's record on promoting democracy through 
these exchange programs?
    Mr. Denton. I cannot say, Mr. Chairman, that I have really 
done a serious study or assessment of that.
    Senator Grams. Are you satisfied with it?
    Mr. Denton. Yes. I think that it is basically on track. But 
I must tell you, Mr. Chairman, I really do not follow the macro 
numbers in the way that you and your committee do. So I feel 
like it is a little bit above my pay grade to grade the 
administration on this. From my limited perspective, I think 
that this administration has done all right in this respect.
    Senator Grams. Mr. Denton, your work with the National 
Forum Foundation and then Freedom House has focused on exchange 
programs in the area of the Central and Eastern Europe and the 
former Soviet Union. Again I will kind of reiterate a question 
I asked earlier: 10 years after the cold war, does that area 
remain the most important sphere to focus on for exchange 
programs in your opinion, more important than others?
    Mr. Denton. You mean geographically?
    Senator Grams. Yes.
    Mr. Denton. The most important region? Well, that is a 
tough one.
    Senator Grams. I suppose it could be in the eye of the 
beholder.
    Mr. Denton. That is a tough one. I think that it would be a 
very bad time to let go of that region. There is a great deal 
of progress that has been made, but, as I mentioned in my 
comments, I think there are--well, it is very clear that there 
is still a great distance to go.
    This particular region that we are talking about is highly 
volatile and it is right next to our Western European allies, 
where we have extraordinary trading relationships and so on. So 
from a national security standpoint, of course it is highly, 
highly important.
    But on the other hand, I think that it would probably be a 
good idea for us to be thinking about ways to engage China in 
this respect for exchanges. There are problems. A lot of them 
do not return. I think we should be thinking that it will not 
be long from now before we might have opportunities to do this 
in Iran, where there has been some interesting progress made in 
recent years. Those areas would also be strategically important 
to the United States from a security and economic point of 
view, and also I think from a moral point of view, to try to 
strengthen the forces for reform and freedom in those 
countries.
    But I guess that I would have to say that at this stage, if 
I were to prioritize the world where both there is need and 
opportunity to engage in a significant way the agents for 
reform, so to speak, then I would say that the priority would 
be the former Soviet Union, most particularly Russia and 
Ukraine, and then southeastern Europe.
    Senator Grams. Ms. Johnson, I would like to ask, how long 
of a visit is important to make sure that there is maybe 
lasting friendships or bonds? Is it a 2-week visit? Does it 
have to be a 6-month visit? Is there something over history 
that tells us length of time is better than another?
    Ms. Johnson. I think that educators would say that the 
longer the experience the better it is. We certainly as an 
association, my association is very interested in advancing 
programs that provide academic credit.
    On the other hand, there is also a strong belief in the 
field that it is better to get people started, and if short 
gets them started inevitably they will have a second and third 
experience. I personally subscribe to that. I think that, while 
it is better to have immersion, because with immersion in a 
culture, learning what it means to be on your own and having to 
struggle with that language until you master it and figure it 
out on your own and live with the family for a while, that is 
immersion, and 2 weeks or 1 week is not immersion, and a 
vacation to Paris is not international education. It is a great 
time. I am all for it and I think we should encourage it, but I 
do not think it is international education and we should not 
pretend it is.
    On the other hand, I think there are many examples at this 
table and in this room and beyond of short experiences that 
have had a tremendous impact on people's thinking and have 
caused them to go another time for a half a year or a year and 
even more.
    So I think it is really important that we support the 
range, that we increase the range of opportunities, and that we 
have a national policy that really says it is important for all 
of our people to engage in the world. And for those people who 
do not study abroad, it is critical that our campuses and our 
communities are more internationalized, that the curricula and 
the other programs on a campus really keep advancing an 
international perspective, if we want all of our people, not 
just those who actually do study abroad, to be successful.
    Senator Grams. Dr. Mueller, the advantages or virtues of a 
short-term program such as the international visitor program, 
the benefits from that? Even though it is maybe not as long as 
we might want, there are values? Or how would you sum up the 
International Visitors Program?
    Dr. Mueller. Well, I think it is tremendously important 
that people have an opportunity, as I indicated earlier, to 
have that first exposure. I share Marlene's perspective on this 
and I think the real challenge for Dr. Bader and you, is what 
is the right mix of exchanges that really does serve the 
national interest.
    I think there is tremendous importance for the Fulbright 
program and academic exchanges, and likewise it is just awfully 
valuable to have the International Visitor Program because I 
think those linkages, as Ms. Byrne described them, the human 
connections, the web of human connections that are made even in 
a very short, relatively short visit, really do underpin other 
relationships that will come later.
    I think the International Visitor Program is a tremendous 
catalyst. It is a tremendous first step, and in many cases it 
does perform, despite its short length, life-changing--has 
life-changing results.
    Senator Grams. Thank you.
    Carol, just one final question. I would like you kind of to 
describe for us, if you would, a typical program which an 
international visitor could expect to experience when he comes 
to Minnesota. I know we have done a lot of things with--we know 
quite a bit, Minnesotans know a lot about countries like 
Germany, Norway, Sweden, because we have a lot of family ties 
there. But what role have international exchanges had in 
focusing more attention on other regions, like Asia, Africa, 
the Mideast? So what would be a typical type?
    Mrs. Byrne. Well, this is a program that we are going to be 
doing in October, so we are in the planning of it. I will just 
give you that example. It is going to be a multi-regional group 
of journalists coming over. We love to host journalists in 
Minnesota. With this particular group, they most likely will 
meet with editorial boards, with the St. Paul Pioneer Press and 
the Star Tribune. Hopefully, we will take them to Monticello to 
meet with that newspaper, small town newspaper.
    We are going to have a public forum for this group as well, 
and that is something that the State Department had asked. 
Oftentimes--when we bring in a group of IV's, we want to 
leverage their visit with as many people as possible in 
Minnesota.
    We might also schedule a visit for them to go to a school. 
This group is a very interesting IV group, composed of about 
seven Europeans. Excuse me, when I look back on it, we have got 
two journalists, one from Greece. We have also got some 
parliament members. So they are going to talk about Europe in 
transition.
    Then, of course, we will arrange home hospitality. We 
usually try to only put at most two international visitors per 
family. So with that group of seven, they will meet with three 
different families as well.
    So it will be whirlwind, 4 full days of Minnesota. The time 
will be very short, but I think the effects will be long-
reaching.
    One of the other points to just make about the 
International Visitors Program is that I really want to commend 
the State Department and embassies around the world for 
selecting such stellar individuals to come on this particular 
program. They come at such a high caliber that when they are in 
the United States they really can take advantage of those 3 
weeks, as opposed to--I can speak on behalf of myself. When I 
was 17 I was an exchange student and it took me a lot longer to 
learn things than it does today. So I think the International 
Visitors Program is like an accelerated program.
    When they leave, with the power of technology that it is 
today, with e-mail, et cetera, those connections will continue.
    Senator Grams. I think it is just a good example of the 
benefits on both sides, I mean, for Minnesotans to have the 
visitors here and also for the visitors to have an exposure, 
not just to Minnesota but to America and democracy.
    I want to thank you very much for your testimony and your 
answers. I appreciate your time. I also commend Secretary Bader 
for staying with us and listening to the testimony and taking 
in all the information. I know it is important to you in your 
work. So again, thank you all very much.
    This hearing is over. Thank you.
    [Whereupon, at 11:10 a.m. the subcommittee was adjourned.]
                              ----------                              


                    Prepared Statements of Witnesses


                Prepared Statement of Marlene M. Johnson

    Thank you, Mr. Chairman, for holding this hearing and for inviting 
me to testify. I know it's hard to focus on these matters at this 
particular time of year. All of us in the international education 
community appreciate your leadership in bringing us together to discuss 
an issue that may not figure prominently in the political debates 
swirling around us right now, but that does, we believe, fundamentally 
affect the national interest of this country.
    Let me focus on those two concepts for a moment: leadership, and 
the national interest. In an earlier era, we understood better that the 
ability of the United States to protect and advance its interests in 
the world depended fundamentally on our knowledge of that world and on 
our ability to promote international understanding. And we all remember 
the Senators who were prepared to stand up and exercise leadership on 
behalf of international education and exchange programs that served 
these objectives.
    Oddly, as the world has become more interdependent and more 
global--as the national interest of the United States has become more 
linked to events abroad--interest in international education programs 
in the Congress has declined. It's not that these programs have 
enemies, but they seem to be viewed as expendable in budget battles.
    The American people, however, understand that our country's ability 
to lead, prosper, and protect our national security in the twenty-first 
century depends more than ever on international knowledge and 
understanding. They need--and we need--champions who will fight for our 
programs in the legislative arena. You, Mr. Chairman, have been such a 
champion. We need more, on both sides of the aisle.
    I testify today on behalf of the Alliance for International 
Educational and Cultural Exchange, of which I chair the board of 
directors, and NAFSA: Association of International Educators, of which 
I am CEO. The Alliance is a coalition of more than 60 organizations 
that sponsor international educational and cultural exchange programs. 
NAFSA, a member of the Alliance, is the largest professional 
association of international educators, with more than 8,600 members on 
college and university campuses nationwide, as well as a growing 
membership overseas.
    On behalf of the tens of thousands of citizens represented by these 
two organizations, who make international education and exchange work 
on campuses and in communities all over this country, I thank you for 
being our champion, Mr. Chairman, and I express to you our hope that 
you will do even more in the future to fill the leadership vacuum that 
exists on our issues.
    To be true to this constituency, Mr. Chairman, let me say at the 
outset that there is a lot more to international education than 
exchange. We have to internationalize our college and university 
curricula and classrooms, make sure study abroad programs are linked to 
students' academic programs, deepen and broaden foreign language 
instruction so that Americans are conversant in the world's major 
languages, maintain and increase our output of international 
specialists who will provide the next generation of expert knowledge, 
and support an ambitious agenda of international and global research in 
all disciplines to help us understand and shape globalization.
    Exchanges are an indispensable part of all that, but they aren't 
the whole picture. And we need to work on all of it to prepare 
ourselves for the new century.
    We have tried to lay out the whole picture in a NAFSA-Alliance 
paper entitled, ``Toward an International Education Policy for the 
United States,'' which is appended to my statement. This paper 
represents our effort to articulate a post-cold war rationale for 
international education and exchange in the global world. Unlike most 
such efforts, it is deliberately short and to the point, as a way of 
encouraging policy makers to read it. I commend it to you.
    The focus of this hearing is international educational and cultural 
exchange programs, including Fulbright programs, Citizen Exchanges, the 
International Visitor Program, high school exchanges, and the broad 
range of privately funded exchanges that the State Department 
facilitates under the J visa program. These programs establish the 
people-to-people ties between the United States and other nations that 
enable us to support American business interests and carry out U.S. 
foreign policy goals. These are the programs that establish the 
foundation for effective U.S. public diplomacy, economic 
competitiveness, and national security in the next century.
    They also include overseas educational advising centers, which 
counsel foreign students seeking an education in the United States. 
These centers deserve much of the credit for the half-a-million foreign 
students who study here every year, and for the billions of dollars 
that they and their families contribute to the American economy.
    Foreign students and exchange visitors who come to the United 
States take American values and perspectives home with them, promote 
democratic institutions and market-based economies, make major 
purchasing decisions involving American products, and create 
partnerships with American enterprises. Many have become important 
leaders in their societies, enhancing our diplomatic ties with a number 
of nations. Virtually all of them have a profound, positive impact on 
our own security and prosperity.
    In recent years, international education has become a major global 
issue. Education topped the agenda of the Summit of the Americas in 
1998. In the past few years, the governments of Australia, Great 
Britain, France, and other countries have placed a major emphasis on 
recruiting international students, and have dedicated millions of 
dollars toward that mission. This year, the G-8 adopted a goal of 
doubling the number of exchanges in the next 10 years.
    The United States lags far behind in terms of having proactive 
national policies to promote international education. Recently, 
however, there have been hopeful signs of increased national priority 
and attention to these issues.

  <bullet> In the fall of 1998, the U.S. Information Agency and the 
        Educational Testing Service hosted a joint conference on the 
        state of U.S. leadership in international education. The 
        conference report concluded that the United States is indeed 
        losing its edge in international education, as other nations 
        strategically and aggressively establish national policies to 
        promote international education. The report called on the 
        United States to adopt such a policy.

  <bullet> Last February, responding to that call, NAFSA and the 
        Alliance released the statement I referred to earlier, calling 
        for the establishment of a U.S. international education policy 
        and setting forth what we thought such a policy should be.

  <bullet> This statement provided an important basis for President 
        Clinton's April 19 executive memorandum for the heads of 
        agencies on international education policy, which Dr. Bader has 
        discussed.

  <bullet> On the heels of that memorandum, Congressman Jim Kolbe, 
        together with a bipartisan group of co-sponsors, introduced a 
        resolution based on the NAFSA-Alliance statement, stating the 
        need for such a policy.

  <bullet> The Senate Appropriations Committee, in its report 
        accompanying the fiscal year 2001 CJS appropriations bill, 
        noted that international exchanges are a foreign policy 
        priority and urged the State and Education departments to give 
        international education a higher position on the national 
        agenda.

  <bullet> In May of this year, Chairman Gilman of the International 
        Relations Committee introduced a bill to increase study abroad 
        opportunities for financially-disadvantaged students. We have 
        worked closely with the Chairman on this bill, which is now 
        before the Senate. I hope you will pass it.

  <bullet> And for the first time, our nation will celebrate U.S. 
        International Education Week on November 13-17, 2000.

    I have submitted materials for each of these important developments 
for the record.
    And now, these hearings are highlighting the importance of one very 
important aspect of an international education policy--exchange 
programs.
    We've come a long way in the period of a year or two, but we have 
only just begun. We mustn't allow the momentum to die. Here is what we 
need to do to be sure that international education, and particularly 
educational and cultural exchange programs, can meet the challenges we 
face as a nation in this global era.

  <bullet> First, I ask you to establish a congressional caucus on 
        international education, so that we'll have a forum for 
        promoting a long-term, forward-thinking policy on international 
        education. Sustained congressional leadership is essential to 
        our success.

  <bullet> Second, I ask you to work to ensure that our nation's 
        flagship exchange programs, the ones that are tried and true, 
        have healthy budgets so that they'll have the resources they 
        need to serve our national interests. At a minimum, these 
        programs need to be restored to the levels of funding they 
        enjoyed before the severe reductions of the mid-nineties. In 
        some cases, we will need additional resources to adequately 
        meet the challenges posed by increased foreign competition.

  <bullet> Third, I ask you to join the nongovernmental sector in 
        calling on the next administration for leadership. Congress 
        needs to hold the next administration accountable for promoting 
        our national interest with an international education policy.

    We recognize that the federal government can't do it all. Colleges, 
universities, community colleges, and our school systems must further 
internationalize their curricula and campuses, and must provide 
enhanced global opportunities for students and faculty. Higher 
education institutions, state governments, private foundations, 
nongovernmental organizations, local school districts, and community 
and business leaders all need to accept their responsibilities, 
increase their support for international education, and forge creative 
partnerships to achieve these important national goals.
    But the federal role is crucial in setting a policy direction, 
creating a conceptual understanding within which members of the public 
can define their roles, and using federal resources to leverage action 
at other levels. Those in Congress who understand the importance of 
international education have an important role to play in placing 
international education policy on the national agenda. I hope this 
hearing will be followed by others early in the next Congress. And I 
call upon the next Congress to pass a resolution outlining such a 
policy and urging the next administration to adopt it as the policy of 
the United States.
    Thank you, Mr. Chairman.

                                 ______
                                 

     Toward an International Education Policy for the United States

      NAFSA: Association of International Educators Alliance for 
             International Educational and Cultural Affairs

                           EXECUTIVE SUMMARY
    International education--imparting effective global literacy to 
students and other citizens as an integral part of their education--is 
important to meet three challenges facing the United States: national 
security and the management of global conflict, competitiveness in a 
global economy, and an increasingly multicultural society.
    Several factors are of concern: declining U.S. competitiveness in 
the international student market; the extremely low participation of 
U.S. students in study abroad programs; the critical shortage of 
Americans' foreign language skills; and the declining priority given to 
exchange programs which, in the past, have done much to extend U.S. 
influence by educating the world's future leaders.
    We propose that the nation commit itself to work toward several 
ambitious goals, including:

  <bullet> Knowledge of a foreign language and a foreign area by all 
        college graduates.

  <bullet> Enhancing the educational infrastructure through which the 
        United States produces international expertise.

  <bullet> Recapturing 40 percent of the international student market 
        and streamlining visa, taxation, and employment policies and 
        regulations applicable to international students.

  <bullet> Vastly increasing the number of U.S. students studying 
        abroad; promoting ethnic, socioeconomic, and gender diversity 
        in study abroad; and diversifying the locations, languages, and 
        subjects involved in study abroad.

  <bullet> Invigorating citizen and professional exchange programs and 
        promoting the international exchange of scholars.

    We ask that the President announce such an international education 
policy, take steps to ensure effective leadership and interagency 
coordination on the part of his administration, and seek broad 
participation by educators and others in the formulation and 
implementation of the policy. To view the entire statement, go to 
http://www.nafsa.org/int-ed/22200.html.

                                 ______
                                 

     Toward an International Education Policy for the United States

                           February 22, 2000

                                SUMMARY
    In the two decades following World War II, visionary leaders 
understood that the challenges of the cold war required that Americans 
be knowledgeable about the world, and they created international 
education programs to endow Americans with the skills necessary to 
compete in that environment. Today our nation faces global challenges 
that, although less stark, are at least as profound. Yet our commitment 
as a nation to international education--that is, to imparting effective 
global literacy to students and other citizens as an integral part of 
their education--is in doubt.
    With the end of the cold war, the United States mistakenly drew the 
conclusion that it had the luxury of retreating from international 
concerns and focusing on domestic problems. In today's world, however, 
that is impossible.

  <bullet> It is now clear that the end of the cold war did not mean an 
        end to international, civil, and ethnic conflict. The defense 
        of U.S. interests and the effective management of global unrest 
        in the next century will require more, not less, ability on the 
        part of Americans to understand the world in terms other than 
        their own.

  <bullet> Globalization is obliterating the distinction between 
        foreign and domestic concerns. Most domestic problems in 
        today's world are also international. The global economic and 
        technology revolutions are redefining the nation's economic 
        security and reshaping business, life, and work. The opening of 
        global markets, the explosion of trade, the globalizing effects 
        of Internet technology, and the need for U.S. business to 
        compete in countries around the world require a global content 
        in education in general, as well as specific foreign language 
        and country expertise.

  <bullet> The world is coming to us, whether we like it or not. 
        Immigrants are changing the face of American society. Foreign-
        born experts now pace America's scientific leadership. The 
        American workforce is now multicultural, and customers for 
        American products are found everywhere the Internet goes. These 
        realities help fuel U.S. development, but they also create new 
        needs, both for managers who can think globally and for 
        tolerance and cross-cultural sensitivity in our neighborhoods 
        and workplaces.

    In short, international and cross-cultural awareness and 
understanding on the part of U.S. citizens will be crucial to effective 
U.S. leadership, competitiveness, prosperity, and national security in 
the next century. Yet--all the laws on the books notwithstanding--the 
United States effectively lacks a coherent, coordinated, operational 
policy for educating its citizens internationally.
    What is needed is a policy that promotes international education in 
the broadest sense, including supporting the learning of foreign 
languages and in-depth knowledge of other cultures by Americans, 
promoting study abroad by U.S. students, encouraging students from 
other countries to study in the United States, facilitating the 
exchange of scholars and of citizens at all levels of society, and 
supporting the educational infrastructure through which we produce 
international competence and research.
    We propose that the President announce and implement an 
international education policy that: (1) articulates the national 
interest in international education; (2) sets forth the goals and 
objectives of such a policy; (3) dedicates resources that are 
appropriate to these interests, goals, and objectives; (4) charges a 
high-level government official with lead responsibility for the 
promotion and implementation of the policy; (5) specifies the roles of 
appropriate government agencies in implementing the policy; (6) 
mandates interagency coordination under leadership of the senior 
official referred to above; and (7) creates an ongoing mechanism 
whereby international education professionals, business leaders, and 
state-level officials can offer advice and guidance on policy 
development and implementation.

   WHY DOES THE UNITED STATES NEED AN INTERNATIONAL EDUCATION POLICY?
    Globalization expands the nation's need for international 
competence. To maintain U.S. security, well being, and global economic 
leadership, we need to increase the depth and variety of international 
expertise of Americans in government, business, education, the media, 
and other fields. While the Internet dramatically increases 
opportunities for global collaboration, technology alone cannot 
substitute for the expertise developed through serious study and 
substantive international experience.
    In addition to increasing the global awareness of Americans, our 
international education interests also encompass the presence of 
foreign students in the United States. In the 1998-99 academic year, 
nearly 500,000 international students studied in the United States at 
the post-secondary level. They and their dependents spent more than $11 
billion on tuition, fees, and living expenses in U.S. higher-education 
institutions and communities, making international education the fifth-
largest U.S. service-sector export.
    But these students represent much more than an entry on the credit 
side of the U.S. current accounts ledger. To educate them is to have an 
opportunity to shape the future leaders who will guide the political 
and economic development of their countries. In American classrooms, 
dormitories, and living rooms, international students gain an in-depth 
exposure to American values and to our successful multicultural 
democracy, and they take those values home to support democracy and 
market economies. They develop an appreciation of American products and 
are likely to remain American customers throughout their lives. They 
enrich American campuses and provide many American students with their 
first-ever exposure to foreign friends and colleagues. The millions of 
people who have studied in the United States over the years constitute 
a remarkable reservoir of goodwill for our country, perhaps our most 
underrated foreign policy asset.
    Yet because the United States does not have a proactive policy for 
attracting international students, we are beginning to lose our share 
of this market to those countries that do. Although we still dominate 
the international student market, the proportion of international 
students who choose to study in the United States has declined almost 
10 percent since 1982; it now stands at just over 30 percent. The 
United Kingdom, Canada, Australia, and New Zealand, among others, have 
announced or are implementing aggressive international student 
recruitment strategies that promise to make further inroads into 
current U.S. market share unless we adopt measures to reverse the 
trend.
    America's success in attracting international students has not been 
matched by success in sending students abroad. The number of Americans 
who study overseas for academic credit is increasing; it topped 100,000 
for the first time in 1998-99--a tribute to the efforts of 
international educators and certain colleges and universities. However, 
study abroad participants remain less than one percent of our roughly 
15 million undergraduates and, as noted by the Institute of 
International Education, many students still do not have access to 
study abroad programs. Recent data also show an encouraging 
diversification of study abroad locations; nevertheless, we need to 
further increase the numbers of students studying outside of Europe, in 
world areas of growing importance to U.S. interests.
    At a time when other countries understand that their citizens 
cannot be considered educated for the modern world unless part of their 
education has taken place abroad, the United States has no policy to 
promote global learning, nor do policymakers seem aware of the need for 
one. Research has demonstrated that study abroad greatly enhances and 
accelerates the learning of critical foreign languages. If American 
students are to be able to function effectively in the world into which 
they will graduate, it must become the routine--not the exception--for 
them to study abroad in high quality programs.
    American foreign language skills are in critically short supply and 
will remain so until we take bold steps to enhance both participation 
in study abroad and the infrastructure for teaching foreign languages 
in our institutions. The U.S. government requires 34,000 employees with 
foreign language skills, and American business increasingly needs 
internationally and multi-culturally experienced employees to compete 
in a global economy and to manage a culturally diverse workforce.
    The United States benefits from a great wealth of exchange 
programs, some federally funded but many more funded privately. They 
operate at all levels, from high school to higher education to the 
business and professional realms. Armies of American volunteers make 
these programs possible, hosting visitors in their homes and serving as 
resources and guides to their communities. Exchange programs uniquely 
engage our citizenry in the pursuit of our country's global interests, 
and offer opportunities for substantive interaction in the broadest 
possible range of fields.
    These exchanges also offer unparalleled opportunities for 
intercultural learning. Many of today's world leaders first experienced 
America and its values through exchange programs--a priceless foreign 
policy asset. But these valuable programs are hemmed in by diminished 
policy priority and by bureaucratically imposed regulations that make 
them more difficult than necessary for nongovernmental and community 
organizations to manage.
    To be an educated citizen today is to be able to see the world 
through others' eyes and to understand the international dimensions of 
the problems we confront as a nation--skills that are enhanced by 
international experience. The programs we put in place today to make 
international experience integral to higher education will determine 
whether or not our society will have a globally literate citizenry 
prepared to respond to the demands of the twenty-first century.

             ELEMENTS OF AN INTERNATIONAL EDUCATION POLICY
    An international education policy that effectively promotes U.S. 
interests in the twenty-first century should do the following:

International, Foreign Language, and Area Expertise
    Such a policy should recognize that future generations of Americans 
will live in a borderless world, and must therefore be vastly more 
capable than any previous generation of understanding other peoples and 
cultures and communicating in the world's major languages. To this end, 
it should:

  <bullet> Set an objective that international education become an 
        integral component of U.S. undergraduate education, with every 
        college graduate achieving proficiency in a foreign language 
        and attaining a basic understanding of at least one world area 
        by 2015. New technologies should be employed creatively to help 
        achieve this objective.

  <bullet> Promote cultural and foreign language study in primary and 
        secondary education so that entering college students will have 
        increased proficiency in these areas.

  <bullet> Through graduate and professional training and research, 
        enhance the nation's capacity to produce the international, 
        regional, international business, and foreign-language 
        expertise necessary for U.S. global leadership and security.

  <bullet> Encourage international institutional partnerships that will 
        facilitate internationalized curricula, collaborative research, 
        and faculty and student mobility.
International Student Recruitment
    Such a policy should recognize that international students are a 
resource for the United States: They contribute significantly to 
national, state, and local economies; bring vital resources to U.S. 
educational institutions; enrich the academic experience of U.S. 
students; and spread U.S. values and influence in the world. To this 
end, the policy should:

  <bullet> Set an objective to arrest the decline in the proportion of 
        internationally mobile students who select the United States 
        for study at the post-secondary level and to recapture 40 
        percent of this market for the United States.

  <bullet> Promote the study of English by international students in 
        the United States, and promote the United States as the best 
        global provider of English training services and materials.

  <bullet> Streamline visa, taxation, and employment policies and 
        regulations to facilitate entry into the United States for bona 
        fide short-term and degree students and to enable these 
        students to maximize their exposure to American society and 
        culture through internships and employment.

                              STUDY ABROAD
    Such a policy should recognize that providing Americans with 
opportunities to acquire the skills, attitudes, and perceptions that 
allow them to be globally and cross-culturally competent is central to 
U.S. security and economic interests in the twenty-first century and, 
accordingly, should promote the experiencing of the world first-hand by 
American students. To this end, it should:

  <bullet> Set an objective that 20 percent of American students 
        receiving college degrees will have studied abroad for credit 
        by 2010, and 50 percent by 2040.

  <bullet> Promote ethnic, socioeconomic, and gender diversity in study 
        abroad.

  <bullet> Promote the diversification of the study abroad experience, 
        including: increased study in nontraditional locations outside 
        the United Kingdom and Western Europe; increased study of major 
        world languages--such as Arabic, Chinese, Japanese, Portuguese, 
        and Russian--that are less commonly learned by Americans; and 
        increased study of under-represented subjects such as 
        mathematical and physical sciences and business.

  <bullet> Promote the integration of study abroad into the higher-
        education curriculum, and increase opportunities for 
        international internships and service learning.
Exchanges of Citizens and Scholars
    Such a policy should recognize that U.S. interests are 
significantly furthered by the vast network of exchange activity that 
occurs at all levels of American society. Accordingly, it should:

  <bullet> Invigorate federal programs and reform regulations governing 
        private efforts in order to promote citizen, professional, and 
        other exchanges that bring future leaders from around the world 
        to the United States for substantive exposure to our society, 
        and that give future American leaders opportunities for similar 
        experiences overseas.

  <bullet> Promote the international exchange of scholars in order to 
        enhance the global literacy of U.S. scholars, ensure that the 
        United States builds relationships with the best scholarly 
        talent from abroad, and strengthen the international content of 
        American curricula.

                        MOBILIZING THE RESOURCES
    Such a policy should recognize the crucial role of the federal 
government in mobilizing a national effort. Accordingly, it should:

  <bullet> Clearly articulate the national interest in international 
        education and set a strong policy direction to which citizens 
        can relate their own efforts.

  <bullet> Dedicate federal resources that are appropriate for the 
        national interests served.

  <bullet> Stimulate involvement by, and leverage funding from, the 
        states and the higher education, business, and charitable 
        communities.

                             HOW TO PROCEED
    The President should:

  <bullet> Announce the international education policy in a major 
        address, decision memorandum, or message to Congress, and 
        propose appropriate funding.

  <bullet> Appoint a senior White House official who will be in charge 
        of the policy and responsible for meeting its targets.

  <bullet> Convene a White House summit of college and university 
        presidents, other academic leaders, international education 
        professionals, and NGO and business leaders to map out the 
        specifics of the policy.

  <bullet> Assign specific roles to appropriate federal agencies.

  <bullet> Create an interagency working group of these agencies, 
        chaired by the senior White House official, to ensure that 
        policies and regulations affecting international education are 
        consistent and coherent.

  <bullet> Create an advisory commission consisting of business 
        leaders, state-level officials, and international education 
        professionals from institutions of higher education, exchange 
        programs, foundations, and appropriate professional 
        associations to offer advice and guidance on program 
        implementation.

                          A COOPERATIVE EFFORT
    The federal government cannot do it all. Colleges, universities, 
and community colleges must further internationalize their curricula 
and campuses, and must provide enhanced global opportunities for 
students and faculty. Higher education institutions, state governments, 
private foundations, nongovernmental organizations, and the business 
community (which will be the primary beneficiary of a globally literate 
workforce) all need to accept their responsibilities, increase their 
support for international education, and forge creative partnerships to 
achieve these important national goals.
    But the federal role is crucial in setting a policy direction, 
creating a conceptual understanding within which members of the public 
can define their roles, and using federal resources to leverage action 
at other levels. If Americans are called upon from the ``bully pulpit'' 
to respond to the challenge of globalism, they will respond as they 
have to other international challenges. What is needed above all, as 
noted in a 1998 report by the U.S. Information Agency and the 
Educational Testing Service, is ``a clearly articulated foreign policy 
strategy which recognizes international education as a fundamentally 
important endeavor at policy levels.''

                                 ______
                                 

                            THE WHITE HOUSE

        Office of the Press Secretary (Oklahoma City, Oklahoma)

                 For Immediate Release--April 19, 2000

     MEMORANDUM FOR THE HEADS OF EXECUTIVE DEPARTMENTS AND AGENCIES
Subject:  International Education Policy
    To continue to compete successfully in the global economy and to 
maintain our role as a world leader, the United States needs to ensure 
that its citizens develop a broad understanding of the world, 
proficiency in other languages, and knowledge of other cultures. 
America's leadership also depends on building ties with those who will 
guide the political, cultural, and economic development of their 
countries in the future. A coherent and coordinated international 
education strategy will help us meet the twin challenges of preparing 
our citizens for a global environment while continuing to attract and 
educate future leaders from abroad.
    Since World War II, the Federal Government, in partnership with 
institutions of higher education and other educational organizations, 
has sponsored programs to help Americans gain the international 
experience and skills they will need to meet the challenges of an 
increasingly interdependent world. During this same period, our 
colleges and universities have developed an educational system whose 
reputation attracts students from all over the world. But our work is 
not done. Today, the defense of U.S. interests, the effective 
management of global issues, and even an understanding of our Nation's 
diversity require ever-greater contact with, and understanding of, 
people and cultures beyond our borders.
    We are fortunate to count among our staunchest friends abroad those 
who have experienced our country and our values through in-depth 
exposure as students and scholars. The nearly 500,000 international 
students now studying in the United States at the postsecondary level 
not only contribute some $9 billion annually to our economy, but also 
enrich our communities with their cultures, while developing a lifelong 
appreciation for ours. The goodwill these students bear for our country 
will in the future constitute one of our greatest foreign policy 
assets.
    It is the policy of the Federal Government to support international 
education. We are committed to:

  <bullet> encouraging students from other countries to study in the 
        United States;

  <bullet> promoting study abroad by U.S. students;

  <bullet> supporting the exchange of teachers, scholars, and citizens 
        at all levels of society;

  <bullet> enhancing programs at U.S. institutions that build 
        international partnerships and expertise;

  <bullet> expanding high-quality foreign language learning and in-
        depth knowledge of other cultures by Americans;

  <bullet> preparing and supporting teachers in their efforts to 
        interpret other countries and cultures for their students; and

  <bullet> advancing new technologies that aid the spread of knowledge 
        throughout the world.

    The Federal Government cannot accomplish these goals alone. 
Educational institutions, State and local governments, non-governmental 
organizations, and the business community all must contribute to this 
effort. Together, we must increase and broaden our commitment. 
Therefore, I direct the heads of executive departments and agencies, 
working in partnership with the private sector, to take the following 
actions:
    (1) The Secretaries of State and Education shall support the 
efforts of schools and colleges to improve access to high-quality 
international educational experiences by increasing the number and 
diversity of students who study and intern abroad, encouraging students 
and institutions to choose nontraditional study-abroad locations, and 
helping under-represented U.S. institutions offer and promote study-
abroad opportunities for their students.
    (2) The Secretaries of State and Education, in partnership with 
other governmental and nongovernmental organizations, shall identify 
steps to attract qualified post-secondary students from overseas to the 
United States, including improving the availability of accurate 
information overseas about U.S. educational opportunities.
    (3) The heads of agencies, including the Secretaries of State and 
Education, and others as appropriate, shall review the effect of U.S. 
Government actions on the international flow of students and scholars 
as well as on citizen and professional exchanges, and take steps to 
address unnecessary obstacles, including those involving visa and tax 
regulations, procedures, and policies.
    (4) The Secretaries of State and Education shall support the 
efforts of State and local governments and educational institutions to 
promote international awareness and skills in the classroom and on 
campuses. Such efforts include strengthening foreign language learning 
at all levels, including efforts to achieve bi-literacy, helping 
teachers acquire the skills needed to understand and interpret other 
countries and cultures for their students, increasing opportunities for 
the exchange of faculty, administrators, and students, and assisting 
educational institutions in other countries to strengthen their 
teaching of English.
    (5) The Secretaries of State and Education and the heads of other 
agencies shall take steps to ensure that international educational 
exchange programs, including the Fulbright program, are coordinated 
through the Interagency Working Group on United States Government-
Sponsored International Exchange and Training, to maximize existing 
resources in a nonduplicative way, and to ensure that the exchange 
programs receive the support they need to fulfill their mission of 
increased mutual understanding.
    (6) The Secretary of Education, in cooperation with other agencies, 
shall continue to support efforts to improve U.S. education by 
developing comparative information, including benchmarks, on 
educational performance and practices. The Secretary of Education shall 
also share U.S. educational expertise with other countries.
    (7) The Secretaries of State and Education shall strengthen and 
expand models of international exchange that build lasting cross-
national partnerships among educational institutions with common 
interests and complementary objectives.
    (8) The Secretary of Education and the heads of other agencies, in 
partnership with State governments, academic institutions, and the 
business community, shall strengthen programs that build international 
expertise in U.S. institutions, with the goal of making international 
education an integral component of U.S. undergraduate education and, 
through graduate and professional training and research, enhancing the 
Nation's capacity to produce the international and foreign-language 
expertise necessary for U.S. global leadership and security.
    (9) The Secretaries of State and Education, in cooperation with 
other agencies, the academic community, and the private sector, shall 
promote wise use of technology internationally, examining the 
implications of borderless education. The heads of agencies shall take 
steps to ensure that the opportunities for using technology to expand 
international education do not result in a widening of the digital 
divide.
    (10) The Secretaries of State and Education, in conjunction with 
other agencies, shall ensure that actions taken in response to this 
memorandum are fully integrated into the Government Performance and 
Results Act (GPRA) framework by means of specific goals, milestones, 
and measurable results, which shall be included in all GPRA reporting 
activities, including strategic plans, performance plans, and program 
performance reports.
    Items 1-10 of this memorandum shall be conducted subject to the 
availability of appropriations, consistent with the agencies' 
priorities and my budget, and to the extent permitted by law.
    The Vice President shall coordinate the U.S. Government's 
international education strategy. Further, I direct that the heads of 
agencies report to the Vice President and to me on their progress in 
carrying out the terms of this memorandum.
    This memorandum is a statement of general policy and does not 
confer a private right of action on any individual or group.

                                        William J. Clinton.

                                 ______
                                 

                       106th Congress--2d Session

                            H. CON. RES. 342

Expressing the sense of Congress that there should be an international 
education policy for the United States.

                    In the House of Representatives

                              May 25, 2000

Mr. Kolbe (for himself, Mr. Isakson, Mr. Oberstar, and Mrs. Morella) 
        submitted the following concurrent resolution; which was 
        referred to the Committee on Education and the Workforce

                         Concurrent Resolution

Expressing the sense of Congress that there should be an international 
education policy for the United States.

      Resolved by the House of Representatives (the Senate concurring),

SECTION 1. FINDINGS.

      The Congress makes the following findings:
          (a) International education entails the imparting of 
        effective global literacy to students and other citizens as an 
        integral part of their education;
          (b) International education is important to meet future 
        challenges facing the United States including national security 
        and the management of global conflict and competitiveness in a 
        global economy;
          (c) Nearly 500,000 international students and their 
        dependents contributed an estimated $11.7 billion to the U.S. 
        economy in the academic year 1998-99;
          (d) Other countries, especially the United Kingdom, are 
        mounting vigorous recruitment campaigns to compete for 
        international students;
          (e) U.S. competitiveness in the international student market 
        is declining, the U.S. share of internationally mobile students 
        having declined from 40 percent to 30 percent since 1982;
          (f) Educating international students is an important way to 
        spread U.S. values and influence and to create goodwill for 
        America throughout the world;
          (g) Less than 10 percent of U.S. students graduating from 
        college have studied abroad;
          (h) Research indicates that the United States is failing to 
        graduate enough students with foreign language expertise to 
        fill the demands of business, government, and universities; and
          (i) Exchange programs, which in the past have done much to 
        extend U.S. influence in the world by educating the world's 
        leaders, are suffering from declining priority:

SEC. 2. SENSE OF CONGRESS.

      It is the sense of Congress that an international education 
policy should incorporate the following goals--
          (a) To ensure that all college graduates will have knowledge 
        of a second language and will have knowledge of a foreign area.
          (b) To enhance the educational infrastructure through which 
        the Nation produces international expertise.
          (c) To recapture 40 percent of the international student 
        market for the United States.
          (d) To streamline visa, taxation, and employment regulations 
        applicable to international students.
          (e) To significantly increase participation in study abroad 
        by U.S. students.
          (f) To promote greater diversity of locations, languages, and 
        subjects involved in study abroad in order to ensure that the 
        Nation maintains an adequate international knowledge base.
          (g) To invigorate citizen and professional exchange programs 
        and to promote the international exchange of scholars.

                                 ______
                                 

                       106th Congress--2d Session

                               H. R. 4528

To establish an undergraduate grant program of the Department of State 
to assist students of limited financial means from the United States to 
pursue studies at foreign institutions of higher education.

                    In the House of Representatives

                              May 24, 2000

Mr. Gilman (for himself and Mr. Hinchey) introduced the following bill; 
        which was referred to the Committee on International Relations

                                 A Bill

To establish an undergraduate grant program of the Department of State 
to assist students of limited financial means from the United States to 
pursue studies at foreign institutions of higher education.

      Be it enacted by the Senate and House of Representatives of the 
United States of America in Congress assembled,

SECTION 1. SHORT TITLE.

      This Act may be cited as the ``International Academic Opportunity 
Act of 2000''.

SEC. 2. STATEMENT OF PURPOSE.

      It is the purpose of this Act to establish an undergraduate grant 
program for students of limited financial means from the United States 
to enable such students to study at institutions of higher education in 
foreign countries. Such foreign study is intended to broaden the 
outlook and better prepare such students of demonstrated financial need 
to assume significant roles in the increasingly global economy.

SEC. 3. ESTABLISHMENT OF GRANT PROGRAM FOR FOREIGN STUDY BY AMERICAN 
                    COLLEGE STUDENTS OF LIMITED FINANCIAL MEANS.

      (a) Establishment.--Subject to the availability of appropriations 
and under the authorities of the Mutual Educational and Cultural 
Exchange Act of 1961, the Secretary of State shall establish and carry 
out a program in each fiscal year to award grants of up to $5,000, to 
individuals who meet the requirements of subsection (b), toward the 
cost of 1 academic year of undergraduate study at an institution of 
higher education in a foreign country.
      (b) Eligibility.--An individual referred to in subsection (a) is 
an individual who--
          (1) is a student in good standing at an institution of higher 
        education in the United States (as defined in section 101(a) of 
        the Higher Education Act of 1965);
          (2) has been accepted for an academic year of study at an 
        institution of higher education outside the United States (as 
        defined by section 102(b) of the Higher Education Act of 1965);
          (3) is receiving any need-based student assistance under 
        title IV of the Higher Education Act of 1965; and
          (4) is a citizen or national of the United States.
      (c) Application and Selection.--
          (1) Grant application and selection shall be carried out 
        through accredited institutions of higher education in the 
        United States or combination of such institutions under such 
        procedures as are established by the Secretary of State.
          (2) In considering applications for grants under this 
        section, priority consideration shall be given to applicants 
        who are receiving Federal Pell Grants under title IV of the 
        Higher Education Act of 1965.

SEC. 4. REPORT TO CONGRESS.

      The Secretary of State shall report annually to the Congress 
concerning the grant program established under this Act. Each such 
report shall include the following information for the preceding year:
          (1) The number of participants.
          (2) The institutions of higher education in the United States 
        that participants attended.
          (3) The institutions of higher education outside the United 
        States participants attended during their year of study abroad.
          (4) The areas of study of participants.

SEC. 5. AUTHORIZATION OF APPROPRIATIONS.

      There are authorized to be appropriated $1,500,000 for each 
fiscal year to carry out this Act.

SEC. 6. EFFECTIVE DATE.

      This Act shall take effect October 1, 2000.

                                 ______
                                 

                                The Secretary of Education,
                                Washington, DC, September 13, 2000.

Ms. Marlene Johnson,
Executive Director,
NASFAA--Association of International Educators,
1307 New York Avenue, NW, 8th Floor,
Washington, DC 20005

    Dear Ms. Johnson:

    I am writing to encourage your involvement in an effort to broaden 
our students' understanding of the world in which we live. The week of 
November 13-17, 2000, has been designated International Education Week 
in the United States by the Department of Education and the Department 
of State. This weeklong observation will provide a wonderful 
opportunity for students in our nation's schools, colleges and 
universities to learn more about the cultures, languages and 
governments of other nations and about the possibilities of studying 
abroad. I have invited foreign ambassadors to the United States to 
consider visiting educational institutions in this country, and I am 
encouraging representatives of the higher education community to visit 
schools in their communities. Your assistance will underscore the 
education community's commitment to international education and 
cooperation.
    On June 21, at the U.S. Department of State, I met with 
representatives from the embassy community and the nongovernmental 
sector to exchange ideas regarding the Memorandum on International 
Education Policy, which President Clinton signed on April 19. Designed 
to make international experience integral to U.S. education, the policy 
memorandum directs the heads of U.S. government agencies to work 
together in consultation with all other sectors of society to 
strengthen America's commitment to international education.
    During my remarks at the June 21 briefing, I invited ambassadors to 
the United States to visit at least one American school, college, or 
university during International Education Week in order to stress the 
importance of international education and cooperation. It is my hope 
that, in taking a firsthand look at our educational institutions, the 
ambassadors will have a better understanding of our young people and 
will be inspired to foster classroom-to-classroom connections among our 
schools, colleges, and universities and those in their home countries. 
I believe that the visits will not only help our students develop a 
wider view of the world and its different governments and cultures, but 
will also generate greater interest in studying foreign languages and 
visiting and studying in other countries.
    Additionally, I will be inviting college and university presidents, 
provosts, and chancellors as well as heads of study abroad and 
international programs to visit middle schools and high schools during 
the week of November 13 to tell students about the opportunities and 
benefits of study abroad. I believe students in this age group will be 
a receptive audience for any information about foreign study and 
travel.
    Your help and active participation will contribute greatly to the 
success of International Education Week. If you have any questions 
about International Education Week, please feel free to contact Regan 
Burke of my staff. We will keep you informed about this activity.
    I appreciate your kind attention to this request and look forward 
to receiving any comments you may have. I hope you will be able to 
participate.
            Yours sincerely,
                                          Richard W. Riley.

                                 ______
                                 

       U.S. Leadership in International Education: The Lost Edge?

                   Washington, DC, September 24, 1998

                  Conference Report and Action Agenda

                            I. INTRODUCTION
    The presence of international students on U.S. campuses has created 
significant political, social, and economic benefits for our nation as 
a whole, but disturbing trends throughout the 1990s show that the 
United States may be losing its competitive edge in international 
education.
    Officials from U.S. higher education and related organizations are 
seeing large numbers of students from Japan, China, Korea, India--
countries that traditionally provide a large proportion of our foreign 
student enrollment--choosing to study in other countries. In the 1980s, 
40 percent of the 1.3 million students studying abroad did so in the 
United States. Today we enroll just 32 percent.
    In addition to this declining trend in the percentage of 
international students studying in the United States, officials are 
also noticing aggressive competition from other English-speaking 
countries.
    To address these concerns, Dr. Joseph Duffey, Director of the 
United States Information Agency, and Dr. Nancy Cole, President of 
Educational Testing Service, convened a summit at the State Department 
on September 24, 1998. Participants in the summit on U.S. Leadership in 
International Education included representatives from institutions of 
higher education, U.S. corporations, non-profit organizations, and 
government entities.
    The conference participants sought to identify barriers to 
international educational exchange between the U.S. and other countries 
and to formulate an action plan to maintain U.S. leadership. A 
volunteer task force will be formed to take action on the conference 
recommendations; and USIA will coordinate U.S. government involvement 
on this front.
    (This document reviews the conference deliberations and sets forth 
recommendations and a suggested plan of action. The Appendices include 
abstracts of major addresses made during the conference, the conference 
agenda, a White Paper by Dr. Ted Sanders, President of Southern 
Illinois University, and a list of conference participants.)

                II. SUMMARY OF CONFERENCE DELIBERATIONS
    At the end of the conference, it was clear that intensified 
competition from other countries was only part of the reason for the 
erosion of America's dominant position in the world of international 
study. Other more troubling signs emerged--ones showing that key 
players in the United States' international education effort have 
contributed to this decline through benign neglect. In his White Paper 
written for the conference, Dr. Ted Sanders, President of Southern 
Illinois University, identified complacent attitudes on the part of 
U.S. institutions of higher education toward promoting themselves to 
foreign students; state and Federal governments failing to promote an 
aggressive spirit of entrepreneurship in international education; and 
diminishing Federal funds to support overseas educational advising 
centers affiliated with the United States Information Agency as factors 
that have contributed to this neglect.
    Dr. Sanders summed up his position by noting, ``If we are to regain 
our position of dominance in this very important area, we must now 
begin to emulate the enlightened policies of other advanced nations who 
have seen the future and are aggressively pursuing it. Nationally, we 
must enhance our tangible support for international efforts within a 
framework of a broad-based, clearly defined strategy . . .''
    Following a series of major addresses, participants joined one of 
three groups to discuss the issues in-depth. They identified many of 
the barriers to U.S. leadership in international education.
    (For purposes of clarity, we have grouped issues identified by 
conference participants into four categories: those that need to be 
addressed by higher education; by Federal, state, and local 
governments; by businesses and corporations; and global systemic 
issues.)
Institutions of Higher Education
    For many decades, the flow of international students to the United 
States seemed to be never ending. Yet, participants agreed that this 
abundance has contributed to complacency by some institutions, 
evidenced by inattention to the marketplace. A long complicated 
application process for U.S. study and the perceived high cost of a 
U.S. education hamper international exchange, as does limited 
collaboration between U.S. and foreign institutions. For many younger 
U.S. faculty, a year abroad is career-deflating rather than enhancing. 
The difficulties that faculty sometimes experience in taking advantage 
of opportunities to research or teach abroad diminish the overall 
impact of international exchange and hamper Fulbright and other 
sponsored programs. Participants acknowledged that other institutions, 
however, are actively engaged in entrepreneurial approaches to 
international education, with extensive collaboration with institutions 
abroad and active overseas recruitment efforts.
    Participants also discussed the inadequate integration of foreign 
students on American campuses. It was felt that officials at many 
institutions viewed these students primarily as revenue sources and 
offered limited mechanisms for incorporating them into or using their 
experiences to enrich campus life, including limited use of Fulbright 
students and scholars on U.S. campuses. There was also little effort 
given to encouraging foreign students to learn about American life. In 
addition, participants also identified a lack of information provided 
to international students on opportunities offered by community 
colleges as entry points to U.S. study. In the area of recruitment, 
experts at the conference also noted a failure by U.S. campus 
administrators to utilize and support the USIA-affiliated advising 
center network and the need to make better use of overseas alumni for 
recruiting purposes.
    Conference participants focussed primarily on issues related to 
foreign students in the U.S. However, campus internationalization and 
study abroad issues also received some attention. Participants noted 
that U.S. students could benefit more broadly from the presence of 
foreign students on campus, but that interactions between the two 
groups are often limited. Rigid curriculum requirements, graduate 
faculty expectations, and restrictions on using financial aid for study 
abroad often constrain overseas study opportunities for U.S. students.
Federal, State and Local Governments
    It was generally agreed that government officials at all levels had 
ignored or contributed to these disturbing trends. As Dr. Sanders 
noted, ``In years past, the United States relied heavily on its 
overseas educational advisement centers, supported by the United States 
Information Agency, to communicate the strengths of the `American 
model' of higher education. Yet Federal funds to support these centers 
have steadily diminished, forcing some of them to close and services to 
others to be cut.'' Cuts in Federal funding have also affected 
Fulbright and other scholarship programs and exchanges. Congressman 
Payne pointed out the need to build interest, concern and knowledge of 
international issues and programs in the Congress.
    Most important, participants noted the absence of a clearly 
articulated foreign policy strategy which recognizes international 
educational exchange as a fundamentally important endeavor at policy 
levels. Such a strategy should be accompanied by compatible regulations 
and procedures that encourage, rather than discourage, foreign students 
to study in the United States. There is also insufficient recognition 
in the Federal government of education as a trade issue.
    Another issue of concern to conference participants was the lack of 
coordination at the Federal level between the State Department and the 
Immigration and Naturalization Service (INS), as evidenced by 
burdensome visa regulations, and consular officers with overly heavy 
caseloads, resulting in visa interviews that shortchange applicants.
    At the state level, there is a need for alliances between state 
university boards, state governments and commerce officials to support 
international education. Participants stated that state legislatures 
have sometimes opposed educating international students at state 
expense.
Corporations and Businesses
    Conference attendees agreed that there was a definite need for the 
business community to pick up where Federal support for scientific and 
technological research has declined. They also called for greater links 
between businesses and universities to ensure premier scientific 
research capacity and the ability to attract the best minds.
    Because of the need for global workforce development, the private 
sector is well positioned to raise awareness and political support. One 
supporter of increased investment and attention to international study 
and exchange by corporations was Peter C. Thorp, Vice President of 
Corporate University Relations and Educational Programs at Citibank. In 
remarks that could apply to all businesses he said, ``Citicorp receives 
benefits by supporting education from the employment angle--that is, to 
recruit bright, well-educated employees, and to better position their 
businesses worldwide. Creating partnerships, creating ties, can make 
things happen for businesses. Investments in education can be very long 
term investments in the economies and leadership of foreign 
countries.''
    It was generally agreed that U.S. companies especially need to be 
involved in international education because of their need to recruit 
employees overseas who are U.S.-trained. Yet only a small percentage of 
corporate foundation money is devoted to international activities, 
compared with the amount of corporate income that originates in 
overseas markets.
    In the invitation to conference attendees, Nancy Cole noted, 
``Businesses need workers who can function in foreign marketplaces and 
who are sensitive to cultural and societal issues. America is 
preeminent in educating leaders for the global economy, and we must 
ensure that the best and brightest international students continue to 
choose the United States for their post-secondary schooling.''
Global Systemic Issues
    While the United States remains the country of choice for most 
foreign students, our relative share of foreign students has fallen 
because absolute numbers have plateaued. The reasons, conference 
attendees learned, are also the result of systemic issues that cut 
across international borders, and some that are beyond the control of 
government, education or business. Conference participants raised the 
following points:

  <bullet> In 1997-98, the nearly 500,000 foreign students in the U.S. 
        contributed $8.27 billion to the U.S. economy.

  <bullet> Foreign students in Australia contributed more than $1 
        billion to the Australian economy and foreign students in the 
        United Kingdom contributed approximately $1.8 billion to the 
        economy of the U.K.

  <bullet> Distance learning technology is creating new outlets for the 
        marketing of education around the world. In some cases, 
        students can receive a degree from a foreign university without 
        ever leaving home.

  <bullet> Many educational systems around the world are strengthening 
        their capacity and increasing enrollments in order to keep 
        their ``best and brightest'' at home for their higher 
        education.

  <bullet> The relative strength, or weakness, of economies of other 
        countries relative to that of the U.S. impacts the ability of 
        students from those countries to afford the costs of U.S. 
        study. This balance is constantly changing and can affect the 
        marketing of U.S. higher education dramatically, as evidenced 
        by the recent financial crisis in Asian countries.

  <bullet> The ability of foreign students to study in the U.S. is 
        inhibited by a complex regulatory environment unlike that of 
        the countries which compete with the U.S. for these students.

    One conference speaker, the Honorable Ray Mabus, former governor of 
Mississippi and former U.S. ambassador to Saudi Arabia, noted, 
``International students are important to our national and local 
economies, to the strength of our system of education; they add 
diversity to our campuses. It is becoming more difficult to attract and 
keep international students. Competition from developing local 
institutions around the world and from other countries trying to 
attract students could lessen the numbers of foreign students coming to 
the United States. The United States is going to have to do a better 
job. We've got competition; we're not a monopoly anymore. We can't beat 
other countries in the price of higher education, but we can be better 
in quality. We are the best. We need to do a better job of letting 
everyone know about what we have here in the United States.''

                          III. RECOMMENDATIONS
    The following list of recommendations for action is the combined 
work of conference attendees and distinguished speakers who are leaders 
in the world of education, government and business. They are offered by 
people who daily face the challenges of maintaining America's 
preeminent position as the destination of choice for international 
students seeking the best in higher education. The conference attendees 
felt these recommendations could serve as the basis for a vitally 
important effort of bringing international education needed 
recognition.
1. Develop a Clear Federal Policy on International Education
    It is critical that the Federal government continue to play a 
significant role in international educational exchange. We recommend 
that the U.S. government develop a clear Federal policy statement 
placing international education on the national agenda. The policy 
would define the goals of the Federal government in the field of 
international education and inform and direct programming and 
regulations, including visa regulations, tax policies and funding for 
grants, and strengthening of the overseas educational advising network.
2. Create an Alliance in Support of International Education
    The corporate community needs to be engaged with U.S. universities 
and governments at all levels. We must build up communications networks 
among the various stakeholders, including government, the academic 
community, and the corporate sector, and develop a consensus on the 
issues and messages that need to be conveyed. Possible models for 
partnerships with the business community include NAFSA's ASPIRE 
project, alliances with the tourism and airlines industries, and state 
government/business alliances using public funds to match private 
sector funds as was successfully done in Minnesota to promote tourism 
and in Massachusetts to increase foreign student flows.
3. Conduct a Public Awareness Campaign About International Education
    We recognize the critical need for a coherent case on international 
education to be made to the professional community and the public at 
large. The public needs to be educated about the positive impact of 
international student flows and about the serious nature of the issues 
surrounding U.S. leadership. This message also needs to be addressed to 
policy makers, corporations, local, state, and national legislators, 
and administrators and educators at all levels.
4. Strategically Market U.S. Education Abroad
    We recommend that the full spectrum of U.S. higher education be 
marketed and represented abroad in a coordinated manner. Ideas to be 
examined include devising a group-representation mechanism similar to 
that used by Australian and British universities; convincing state 
trade missions to include representatives from universities and 
community colleges (perhaps subsidized by corporate presidents); 
reestablishing contact with foreign alumni of U.S. universities; and 
developing different marketing approaches for varying audiences. 
Alliances should be developed between community colleges and four-year 
institutions to market themselves jointly overseas as a cost-effective 
alternative to other countries' publicity about the high cost of U.S. 
tuition.
5. Publicize Best Practices at U.S. Universities
    We recognize the need to develop models that showcase the 
integration and utilization of foreign students and scholars on campus, 
and the need to encourage educational institutions to train faculty, 
staff and administrators on the kinds of systemic change required to 
make institutions more hospitable and make curricula more global.

                            IV. ACTION PLAN
    1. Convene a task force to disseminate data on marketing 
international educational exchange, conduct a public advocacy campaign 
to put international education on the national agenda, and craft a 
coherent message that demonstrates the political and financial case and 
engages policy makers.
    The task force should be composed of individuals from universities, 
corporations, nongovernmental organizations, and various levels of 
government, each of whom would be assigned a specific issue/barrier and 
who would then identify others with whom to work on dismantling the 
barrier. A number of conference participants volunteered to work on the 
task force and will be contacted in the near future by ETS and USIA.
    2. Convene the concerned Federal government bodies to discuss 
coordinating policies and procedures. These would most likely include 
the Department of State, the Immigration and Naturalization Service, 
the Department of Education, the Department of Commerce, the Internal 
Revenue Service, and the Office of the U.S. Trade Representative. USIA 
representatives agreed to spearhead the quest to coordinate government 
action.

                             V. CONCLUSION
    Dr. Ted Sanders, President of Southern Illinois University, summed 
up the challenges ahead saying, ``The United States has an unparalleled 
opportunity to market our advanced and very cost-effective delivery 
system in higher education. If we don't seize this opportunity, if we 
continue the gradual erosion of international students in our colleges 
and universities, we will lose far more than tuition dollars, important 
as these may be to local and state communities.''
    ``As a nation, we will begin to find it more difficult to make 
friends around the world, to cement ties economically, culturally, and 
politically. Our influence as a positive international force depends on 
people in other countries understanding and appreciating American 
culture. To sustain that powerful instrument of foreign policy, a 
coordinated and assertive national policy for international education 
must be placed near the top of the agenda for Congress and the 
President.''

                Appendix I: Abstracts of Major Addresses

Dr. Joseph Duffey, Director, U.S. Information Agency, Welcoming Remarks
    We want to develop a strategic plan to maintain and maybe increase 
U.S. competitiveness in international education. This competitiveness 
has implications for educators, business leaders, and the foreign 
affairs community. Educators are forced to review the quality of U.S. 
education; business leaders, to ensure dynamism and resources for 
growth; and the foreign affairs community, to adjust to a world in 
which it is increasingly necessary to work together with other 
countries and ensure a more accurate understanding of the U.S. in the 
post-Cold War era. There is no substitute for international education 
since neither tourism nor the popular culture currently being exported 
gives a complete or accurate view of the U.S. I don't think the edge 
has been lost, but I don't think we can take it for granted.
Dr. Sharon Robinson, Senior Vice President and Chief Operating Officer, 
        Educational Testing Service
    Today is an important step in articulating our conference mission 
of maintaining the edge in international education and also in 
developing a strategy to increase the number of global students coming 
to the United States to work and study. At ETS we sincerely believe 
that a critical aspect of education is maintaining a global environment 
where students of every age, learn about and from people of diverse 
backgrounds. Being exposed to people of different languages, religions 
and cultures creates an understanding that is critical to maintaining 
and expanding our own appreciation of diversity and our own sense of 
well-being. Education makes it all possible.
The Honorable William Perry, Former Secretary of Defense, ``American 
        National Security Interests: The Importance of U.S.-Educated 
        International Students''
    International education programs create goodwill toward America all 
over the world. Foreign students are motivated to come to the U.S. 
because of our leadership, especially in science and technology, which 
has contributed to our national economic well-being. The most obvious 
example of American leadership today is in information technology, and 
our universities have achieved a unique connection with our technical 
companies. Foreign students come to the U.S. for education in science 
and technology because they want the best in education and because they 
want to learn to relate to industry like our universities do.
    But the interest of other countries in having their future leaders 
educated in American universities depends on the U.S. maintaining its 
world leadership in science. It also depends on America's universities 
maintaining their standards of excellence in science and technology 
education and research, which many Americans take for granted. But this 
leadership cannot be taken for granted in the future.
    Education is of critical importance to a country trying to maintain 
technological leadership. Technological training at U.S. universities 
has been relevant and cutting edge because of close ties between 
education and industry. Our leadership in technology today depends on 
our leadership in technical education and in maintaining the unique 
bonding between our universities and our technical companies.
    The ``magnet effect'' of U.S. universities is decreasing. We need 
an increase in Federal funds for technology-based programs or 
alternatively, funding from research consortia composed of industries 
to invest in technology-based programs at our universities.
    Attracting foreign students to study in the U.S. is a win-win-win 
situation: it's a win for our economy; it's a win for our foreign 
policy; and it's a win for our educational programs. Foreign students 
spend money while they are in the U.S., and when they return home, they 
often become business leaders who deal with U.S. colleagues. In 
addition, foreign students work hard in graduate courses, which raises 
the bar for U.S. students, forcing them to work harder.
The Honorable Ray Mabus, Former Governor of Mississippi and Former U.S. 
        Ambassador to Saudi Arabia, ``Building a Global Community, 
        State by State''
    I've always thought that if you did one thing right, education was 
it, and that you could shut down the rest of government if you did that 
right. We need to give our children the chance to succeed. 
Globalization and global interdependence affect us every day, in 
economics and in higher education. More international students come to 
the U.S. than U.S. students go abroad, which testifies to the 
excellence of U.S. higher education. At the University of Mississippi, 
58 flags fly in the student union, representing the countries of all 
Ole Miss students, including 2,100 foreign students. These 
international students are important to our national and local 
economies, to the strength of our system of education; they add 
diversity to our campuses. It is becoming more difficult to attract and 
keep international students. Competition from developing local 
institutions around the world and from other countries trying to 
attract students could lessen the numbers of foreign students coming to 
the U.S. The U.S. is going to have to do a better job. We've got more 
competition; we're not a monopoly anymore. We can't beat other 
countries in price of higher education, but we can be better in 
quality. We are the best. We need to do a better job of letting 
everyone know about what we have here in the U.S.
    On trade visits abroad, state governors should take education 
representatives, university presidents with them. We need to ``think 
internationally'' and be more aggressive in reaching the worldwide 
audience. International students bring new ideas and cultural richness 
to our universities and our communities. Also, they experience America. 
This creates some common ground in international relations. Excellence 
and hard work are needed and will work for higher education. American 
higher education will prevail.
Dr. Allan Goodman, President and CEO, Institute of International 
        Education, ``Open Doors and Opening Minds: Why Both are Needed 
        for the 21st Century''
    Three key questions we must answer are: Why is it important for the 
U.S. to have the leading edge in international education? What is 
making it so difficult to keep that edge? What do we have to do?
    The single most important success factor for our times is having 
people whose minds are open to the world. This can only happen through 
international education. English is the international language, the 
dollar is the world currency, and the Internet is the means of 
communication. The costs of retaliation and security following the 
terrorist bombings in Africa were many times the budget request for 
international education. This disparity is striking.
    While the U.S. government will maintain its leadership role in 
supporting flagship initiatives such as Fulbright, Humphrey and the 
National Security Education Program, future programs will require 
enlarging the circle of private sector stakeholders. Sources of 
corporate philanthropy have contributed only one out of every nine 
dollars in grant aid to international programs, while corporations earn 
six out of every ten dollars from their international activities. The 
best and brightest foreign students are now being aggressively 
recruited by other countries. We cannot continue to take for granted 
the flow of foreign students to U.S. campuses, or underestimate the 
intellectual, strategic, and financial resource they represent.
    While foreign governments are developing sophisticated and well-
funded strategies to increase the international mobility of their 
students and faculty members, there is no parallel strategy or resource 
pool to encourage and facilitate international academic mobility by 
Americans. Few American corporate leaders have ever articulated the 
importance of worldwide learning; yet no major business today can 
expect to survive without managers who are knowledgeable about and able 
to work across nations as well as cultures.
    The numbers of foreign students coming here have been flat for 
several years, and visas are harder to get. Only about 1 percent of 
American college students study abroad, many of those in English-
speaking countries. The problem is larger than just Federal funding 
cuts. Some suspect that ``internationalize'' may be just a buzzword 
rather than a reality. Faculties do not appear convinced about the 
value of overseas experience and scholarship.
    State governments have virtually ignored the foreign investment 
brought to them in the millions of dollars by international students. 
Only a handful of states have developed a coordinated academic 
recruitment strategy. We cannot take for granted those flows of 
students to our shores.
    There is, in sum, work for all of us here to do.
    Why is it so difficult? We are cutting budgets. International 
educational exchanges are being affected. The private sector must step 
up to the plate to make international study possible. Companies are 
generating sales from abroad but not giving enough philanthropy or 
grants back. The private sector must speak out about the need to 
promote international education activities. Many nations have an 
international education policy to easily recruit international 
students. But our prices are high, and we do not have such a policy. We 
need to.
    The U.S. curriculum makes it difficult to do study abroad. Senior 
scholars often discourage younger faculty from applying for Fulbright 
or other fellowships. We need to value the overseas experience more. We 
should also provide more scholarships. Deans and provosts need to 
change in this direction.
    We need to lead a charge together. The U.S. government, state 
government, academic leaders, and corporate leaders all have roles. 
Academic leaders must clearly articulate the value of international 
students on campus and the value of study abroad for U.S. students. 
CEOs of major companies must speak out on the importance of 
international education.
    Together we have to make the case that international education is 
one of the surest ways left to make the world a less dangerous place.
Ms. Marlene Johnson, Executive Director, NAFSA: Association of 
        International Educators, ``A Model to Improve Strategies for 
        Supporting Study in the United States''
    The U.S. needs more data about the potential pool of international 
students who may be interested in U.S. study. As a nation we don't know 
nearly as much about where foreign students come from as we should, 
given their importance to our colleges and universities, to U.S.-based 
employers, and to local economies. We have an excellent census that 
tells us more or less everything we need to know about international 
student enrollments, but we don't know much about what happens 
upstream. Knowing that two million students come through USIA's network 
of 450 advising centers worldwide, and that 50-90 percent of the 
international students who do study in the U.S. have come through those 
centers, is not enough information. The U.S. should have a keener 
business sense of this ``raw material.'' What is the potential of U.S. 
educational advising as a business?
    All of us with a stake in international education have something to 
learn from McDonald's and its strict but flexible strategy of 
franchising--demanding standardization, yet allowing a high degree of 
local ownership and customization, simultaneously protecting and 
extending its brand. Other top U.S. service export sectors--banking, 
accounting services, and so on--are much more consolidated and benefit 
from representation by trade groups. In higher education, the bigger 
names may not need this trade group representation. But the U.S. 
education system may benefit from cooperative marketing. Such tactics 
are most needed and most useful in sectors not dominated by one or more 
highly visible brands. Competitive pressures from Australia, Canada, 
and the UK, the rising costs of U.S. education, and increasing 
educational opportunities in students' home countries are issues which 
should compel the U.S. to think about the benefits of cooperative 
marketing.
    The place to start with these efforts is the network of U.S. 
overseas advising centers. U.S. higher education needs to recognize 
this system and make it an integral part of its own system. Data is 
needed on how much this network costs to operate and how to more 
precisely assess its effects.
    Then we can begin to think of the changes that consolidation can 
bring. Currently, each university advertises itself to the 
international market in a variety of means--booths in international 
events and education fairs, branch campuses, local advertising, and so 
forfh. It is extremely difficult to market ``U.S. education'' abroad 
when the system of U.S. education itself is larger, more complicated, 
and more decentralized than any other nation's. An apt analogy for 
marketing U.S. education abroad might be piloting a supertanker with 
hundreds of presumptive captains at the helm.
    However, the efforts could be worth it. NAFSA believes that the 
interests of students and universities and colleges alike would benefit 
by the creation of a more coordinated, disciplined, and focused 
marketing of U.S. higher education abroad. Exporters, importers and 
brokers all would gain from the creation of an independent, self-
sustaining entity which would provide products and services such as 
marketing, management, and training after the franchising model. This 
entity would be funded by its member institutions, Federal and state 
governments, and businesses.
    We must not allow the present system of overseas advising centers 
to languish and deteriorate. In a changing geopolitical and 
technological environment, everyone in the room has something to 
contribute to the health of this vital network and should not pass on 
the opportunity or the responsibility to promote U.S. higher education 
to the world. We must think creatively, we must demonstrate our agility 
and our willingness to consider new strategies, and we must be 
entrepreneurial. Our contributions will go farther if we make them 
together.
Summaries of Panel Discussion on ``Forging Alliances to Support 
        International Education'' Moderator: Dr. Ted Sanders, 
        President, Southern Illinois University
            Panelist 1: Congressman Donald M. Payne (D-NJ):
    International exchanges are crucial to the U.S. at the edge of the 
next millennium, especially with our interdependent world. There exists 
a most unfortunate lack of interest, concern, and even knowledge of 
international relations in the U.S. and the U.S. House of 
Representatives. Funding for USIA programs has been cut. This trend 
should not continue. The numbers of students from Asia, which had been 
highest in numbers in the world, are declining due to a variety of 
factors. We need to recruit international students in new markets, in 
countries where the economies are growing (for example, in South 
Africa). Payne also advocated recruiting international students to 
study in diverse areas of the U.S., to those states that host 
relatively small numbers of international students.
            Panelist 2: Mr. Peter C. Thorp, Vice President, Corporate 
                    University Relations and Educational Programs, 
                    Citibank:
    I am a strong supporter of international education. Citicorp is 
about globalism. The corporation must support the franchise; it is not 
interested in old-fashioned philanthropy. Citicorp receives benefits by 
supporting education from the employment angle--that is, to recruit 
bright, well-educated employees, and to better position their 
businesses worldwide. Creating partnerships, creating ties, can make 
things happen for business. The company puts nearly $6 million annually 
into higher education programs. Citibank has a worldwide interest in 
education and economic development. The demand for MBA programs remains 
steady. Those MBA graduates are appearing all over the world. 
Investments in education can be very long term investments in the 
economies and leadership of foreign countries.
            Panelist 3: Dr. Jacquelyn Beicher, President, DeKaIb 
                    College:
    There continues to be a tremendous lack of understanding about 
community colleges among the U.S. public and even within the higher 
education community. Meanwhile, the number of international students 
coming to community colleges has grown by 9 percent compared with a 2 
percent decrease in the number of international students attending 
four-year institutions. Community colleges can be a solution to the 
problem of decreasing numbers of international students coming to the 
U.S. The growing interest of community colleges in international 
education can be attributed to the involvement of the U.S. in 
international business; the increase in cultural diversity in the 
general population and subsequently on college campuses; and the 
substantial presence of international students, immigrants, and 
refugees in community colleges.
    Is the U.S. higher education commitment to international education 
still strong or have we stopped pushing the limits of expanding 
connections? Certainly community colleges do not feel that they have 
lost the edge. There is expanding involvement by community colleges in 
international partnerships: approximately 48 percent of community 
colleges are involved in exchanges and/or study abroad, and 79 percent 
of these institutions have internationalized the curriculum in some 
way.
    Community colleges can realize numerous benefits from having 
international students on our campuses. Continuing to attract 
international students to the U.S. requires commitment, tenacity and 
caring. It is important to advocate on campuses about the importance of 
these students, especially to the president because it is the president 
of each institution who will decide about committing the necessary 
funding for international programs.
Mr. Steven Trachtenberg, President, George Washington University, ``The 
        Lost Edge? An Action Plan for Recapturing U.S. Leadership''
    At one time, American students seldom studied abroad unless 
supported by scholarships, while controversies between traditionalists 
and non-traditionalists over college and university curricula played a 
part in attracting large numbers of foreign students to U.S. 
institutions. Foreign leaders and countries studied the American 
educational system because it was such a pervasive system so profoundly 
tied to American economic development. This ``mega-university'' is 
administered in a totally decentralized manner, operating in a mostly 
voluntary fashion. It keeps its parts synchronized and interchangeable 
so that a community college graduate in Illinois can get a B.A. in Los 
Angeles, an MBA in Texas, and a first job in Virginia. Meanwhile, 
faculty in research-oriented universities not only teach but serve as 
the ceaseless analysts of the entire U.S. national system. The rest of 
the world looks to the United States for assistance in catching up with 
the American-style higher education system (most of which is controlled 
by the 50 states) and with a national economy the likes of which the 
world has never seen. Meanwhile, foreigners' high regard is viewed with 
bewilderment by the American people. The history of modern American 
higher education is a story that is dying to be told.

                          Appendix II: Agenda

     ``U.S. LEADERSHIP IN INTERNATIONAL EDUCATION: THE LOST EDGE?''
Date: September 24, 1998

Loy Henderson Conference Room, Department of State


                                                 Morning Session

Moderator:                         Keith Geiger, Director, Office of Academic Programs, U.S. Information Agency

8:00-8:45 a.m.                     Registration and Continental Breakfast
9:00-9:10 a.m.                     Welcoming Remarks and Introduction by Dr. Joseph Duffey, Director, U.S.
                                    Information Agency
9:10-9:30 a.m.                     ``American National Security Interests: The Importance of U.S.-Educated
                                    International Students'' Speaker: The Honorable William Perry, Former
                                    Secretary of Defense
9:30-9:40 a.m.                     Welcoming Remarks and Introduction by Dr. Sharon Robinson, Chief Operating
                                    Officer, ETS
9:40-10:00 a.m.                    ``Building a Global Community: State by State'' Speaker: The Honorable Ray
                                    Mabus, Former Governor of Mississippi and Former U.S. Ambassador to Saudi
                                    Arabia
10:00-10:30 a.m.                   ``Open Doors and Opening Minds: Why Both Are Needed for the 21st Century''
                                    Speaker: Dr. Allan Goodman, President and CEO, Institute of International
                                    Education
10:30-10:35 a.m.                   Charge to Working Sessions--Mr. Keith Geiger, U.S. Information Agency
10:35-10:50 a.m.                   Break
10:50-11:50 a.m.                   Working Session: Quantifying the Current State of Affairs
Noon-1:30 p.m.                     Lunch--Benjamin Franklin State Dining Room

                                                Afternoon Session

Moderator:                         Linda Pfister, Vice President, Educational Testing Service

1:30-1:45 p.m.                     ``Current Structures Supporting Study in the U.S. and Abroad'' Speaker: Ms.
                                    Marlene Johnson, Executive Director, NAFSA: Association of International
                                    Educators
1:45-2:30 p.m.                     ``Forging Alliances to Support International Education'' Panel Discussion
                                   Moderator: Dr. Ted Sanders, President, Southern Illinois University
                                   Participants: Mr. Peter C. Thorp, Vice President, Corporate University
                                    Relations & Educational Programs, Citibank
                                   Congressman Donald M. Payne (D), Newark, New Jersey
                                   Dr. Jacquelyn Belcher, President, DeKalb College, Georgia
2:30-3:00 p.m.                     Interactive Discussion
3:00-3:15 p.m.                     ``The Lost Edge? An Action Plan for Recapturing U.S. Leadership'' Speaker:
                                    Mr. Stephen J. Trachtenberg, President, George Washington University
3:15-3:30 p.m.                     Break
3:30-4:45 p.m.                     Working Sessions: Development of Recommendations for Action Plan
4:45-5:30 p.m.                     Reports on the Afternoon Working Sessions and Closing Comments--Dr. Sharon
                                    Robinson, ETS
----------------------------------------------------------------------------------------------------------------

    The Alliance for International Educational and Cultural Exchange 
and the Embassy of Spain will host a reception for conference 
participants on September 24 from 5:30-7:30 p.m. at the Spanish 
Embassy. The embassy is located at 2375 Pennsylvania Avenue, NW, 
approximately six blocks from the State Department.

                       Appendix III: White Paper

         Leadership in International Education: The Lost Edge?

     (By Dr. Ted Sanders, President, Southern Illinois University)

                             WARNING SIGNS
    For many years higher education in the United States has enjoyed a 
preeminent position in the world of international education, attracting 
students in large numbers from other countries to its colleges and 
universities. Foreign enrollment in the U.S. rose steadily from a 
relatively modest 34,232 in 1954, to a record setting 457,984 students 
in 1996-97. Peak growth occurred from 1975 to 1980, when enrollment in 
the U.S. almost doubled. Troubling, however, is the dramatically slowed 
rate of increase, from 4.5% in 1992-93 to a virtual standstill (0.3%) 
in 1995-96. Of particular concern is the fact that in 1996-97 there was 
only a slight rise in the number of foreign students coming to the 
United States from Japan, South Korea, and Malaysia, countries which 
provide a large proportion of our foreign enrollment.
    Approximately 1.3 million students pursued education outside their 
home countries during the 1980s. The United States attracted roughly 
40% of them, but now enrolls only 32%.\1\ From 1994 to 1996, Taiwan 
sent 10.2% fewer students to the U.S., India 5.3% fewer, Hong Kong 7.1% 
fewer, and Mexico 3.5% fewer.\2\ There is no doubt that the United 
States has lost its competitive edge as a world leader in international 
education.

                         THE CAUSE AND THE COST
    There appear to be many reasons for the decline. Among them are 
complacency, rising relative costs to attend our colleges and 
universities, unwillingness of state and federal governments to spend 
more money to attract foreign students, changes in political and 
economic conditions in a number of countries, and stepped up efforts by 
others to obtain an increasing share of the lucrative international 
student market.
    It appears that past successes have contributed to a complacent 
attitude on the part of many institutions in the U.S. The seemingly 
never-ending growth in the number of students coming into the country, 
along with a lack of serious competition, has caused us to miss the 
need to pay close attention to competing developments around the world.
    The U.S. government may pay a high cost for its failure to foster a 
spirit of strong and vital entrepreneurship in international education. 
Students from around the world broaden and enrich the intellectual and 
social climate of our institutions, providing young Americans with 
invaluable understanding and appreciation of other peoples and 
cultures. It is also true that in a period when public support of U.S. 
higher education is diminishing and the costs of maintaining and 
improving quality are rising, new revenue streams are essential. 
Foreign students in the United States inject about $7.8 billion 
annually in tuition, fees and living expenses into our local economies. 
And their presence creates an additional 100,000 jobs in the U.S.\3\
    Probably even more important, a strong international student and 
alumni network helps to build the kinds of long-term relationships and 
trust essential for the U.S. to be an effective global citizen and 
global competitor. When enrollment declines, we lose far more than 
tuition dollars. We begin to lose the opportunity to make important 
friends around the world. Our positive international influence in the 
world depends on others understanding and appreciating American 
culture. International education is a key element in achieving that 
goal, so sustained support for this powerful instrument of foreign 
policy should be near the top of the agenda for Congress and the 
President. Unfortunately, that does not seem to be the case.

                   CREATIVE AND COMMITTED COMPETITION
    The United States has traditionally relied heavily on its overseas 
educational advising centers, supported by the United States 
Information Agency, to provide information about U.S. higher education 
to prospective foreign students. Yet, federal fi.inds to support these 
centers have steadily diminished, forcing some of them to close and 
services to be cut in others.\4\ While the United States government is 
decreasing its support for recruiting foreign students, other nations, 
particularly Australia, Canada, and the United Kingdom, are actively 
promoting their colleges and universities around the world. Enrollment 
of foreign students in higher education has become big business and is 
now an integral part of strategic planning by governments in many 
countries. Australia, for instance, actively promotes its attractive 
lifestyle, its wide range of high quality curricula, and the value 
received for a dollar spent to potential foreign students. The 
Australian International Education Foundation, established in 1994, 
also markets Australian education by linking it with trade, investment, 
and diplomacy. Australia is one of the first countries to develop an 
international alumni-networking system, and it is the first to host a 
convention including foreign alumni from all its universities. 
Australia's alumni in Singapore number about 50,000; in Indonesia, 
between 40,000 and 50,000; while in Malaysia, Australian alumni exceed 
120,000.\5\ Australia's share of international student enrollment has 
increased steadily from 1.6% in 1985 to 3.3% in 1994.\6\
    Britain is also becoming a serious competitor in international 
education. It offers comparatively low educational costs and is a big 
spender in recruiting foreign students. Its Educational Counseling 
Service actively promotes British education, particularly in Southeast 
Asia. And these strategies appear to be working. During 1996-97, Asian 
enrollment in British universities was up 27% from the year before, and 
has increased an average of 20% annually since 1992-93.\7\

   GROWING DEMAND AND GREATER OPPORTUNITY: A NEW CHANCE AT LEADERSHIP
    The recent economic crisis in Asia has been an important factor for 
many international students in selecting Australia, Canada, and Britain 
as alternatives to the U.S. for their studies. Even though this trend 
had begun before the crisis, the affordability of study in these 
countries has made them more attractive. During 1996-97, Asian students 
comprised 57.6% of foreign student enrollment in the U.S. Asian 
countries providing the most students were Japan (46,292), China 
(42,503), Korea (37,130), India (30,641), and Taiwan (30,487).
    The potential for significant growth over the next several years 
remains great. Projections for 1995-2010 are that Asia will need an 
additional 800,000 international university places, and another 1.5 
million places will be needed in the following 15 years.\8\ Of the 200 
million people in Indonesia, 26 million are between the ages of 15 and 
25.\9\ Indonesia's colleges and universities cannot hope to meet that 
demand for higher education in their country. Other projections 
indicate that the world population of college-age students will grow by 
100 million over the next 10 years. These burgeoning youth populations, 
particularly in countries which appreciate the importance of a well-
educated citizenry to their development plans, will provide new 
opportunities for America to regain its preeminence in international 
education. But nations facing many competing needs for limited 
resources will be careful shoppers in the world education market. They 
will look for the most cost-effective way to provide needed education 
services, and they will be reluctant to put scarce capital into 
providing their own classrooms, labs, and dormitories. Alternatives 
which provide high quality services at low cost and at the same time 
diminish or even eliminate the need for expensive local infrastructure 
will define the market.
    A precondition for any serious effort on our part to retain a 
leading role in international education is for the federal government 
to recognize, both in policy and action, that it is in the national 
interest to do so. It must restore and enhance its tangible support for 
international efforts and provide such support within the framework of 
a clearly defined strategy. Opportunities for technologically advanced, 
cost-effective higher education delivery systems that have expensive 
infrastructures already in place may be unparalleled in history. The 
challenge for America will be to offer the most affordable higher 
education, and technological superiority may provide the avenue for us 
to do that. If we are to maintain our position of leadership in this 
important area and make the contribution to world society expected of 
us, we must begin to emulate the enlightened policies of other advanced 
nations who have seen the future of international education and are 
actively pursuing it.
--------------
    \1\ The Chronicle of Higher Education, Dec. 6, 1996.
    \2\ Open Doors, 1995-96.
    \3\ Open Doors, 1996-97.
    \4\ The Chronicle of Higher Education, May 29, 1998.
    \5\ The Straits Times, April 27, 1998.
    \6\ Open Doors, 1995-96.
    \7\ Asian Wall Street Journal, October 20, 1997.
    \8\ Open Doors, 1995-96, p. 12.
    \9\ Meeting Notes, IIE Tenth Biennial Educational Associates 
Seminar on International Education, 1998.

                  Appendix IV: Conference Participants

       U.S. Leadership in International Education: The Lost Edge?

              U.S. Department of State--September 24, 1998

                           List of Attendees


----------------------------------------------------------------------------------------------------------------
                Name                                  Title                              Institution
----------------------------------------------------------------------------------------------------------------
Ms. Pamela Alden                      Vice President, Planning and          Educational Testing Service
                                       Development
Mr. Frank Alejandro                   Program Officer                       U.S. Agency for International
                                                                             Development
Mr. Gary Althen                       Director, Office of International     University of Iowa
                                       Students and Scholars
Ms Mary Ashley                        Chief, Advising, Teaching and         U.S. Information Agency
                                       Specialized Programs
Ms. Mariam Assefa                     Executive Director                    World Education Services, Inc.
Ms. Ellen Babby                       Senior Director for Planning and      NAFSA: Association of International
                                       Development                           Educators
Mr. Roger Batchelor                   ....................................  Bowling Green State University
Ms. Valerie A. Becker                 National Education Program            Chrysler Corporation
                                       Administrator
Mr. Peter Becskehazy                  Chief, Advising and Student Services  U.S. Information Agency
Dr. Jacquelyn Belcher                 President                             DeKaIb College
Ms. Becca Bell                        Deputy Division Director, NIS         IREX
                                       Exchanges
Mr. Victor Betancourt                 Coordinator, International Services   University of Maryland University
                                                                             College
Dr. Peggy Blumenthal                  Vice President for Educational        Institute of International Education
                                       Studies
Mr. Michael Bonner                    Director, Center for Middle Eastern   University of Michigan
                                       and North African Studies
Ms. Jennifer Bremer                   Director                              Kennan Institute
Dr. Barbara Burn                      Associate Provost for International   University of Massachusetts, Amherst
                                       Programs
Ms. Achamma Chanderseekaran           Office of Service Industries          U.S. Department of Commerce
Ms. Audree Chase                      Coordinator of International          American Association of Community
                                       Services                              Colleges
 Mr. E. Thomas Coleman                Vice President                        BASF Corporation
Ms. Marthena Cowart                   Director, Office of Public Liaison    U.S. Information Agency
Mr. James Cramer                      Interim President and CEO World       World Learning
                                       Learning
Ms. Marianne Craven                   Deputy Director, Office of Academic   U.S. Information Agency
                                       Programs
Dr. William Cressey                   Vice President                        Council on International Educational
                                                                             Exchange
Dr. Lois Cronholm                     Interim President                     CUNY Bernard M. Baruch College
Mr. William Dant                      Director, Humphrey Fellowship         Institute of International Education
                                       Program
Dr. Dan E. Davidson                   President                             American Councils for International
                                                                             Education
Mr. Paul Desruisseaux                 International Affairs Editor          The Chronicle of Higher Education
Mr. John Deupree                      Director, International Education     The College Board
Mr. Michael Ditchkofsky               Vice President                        Peterson's
Dr. Joseph Duffey                     Director                              U.S. information Agency
Ms. Jeanne-Marie Duval                Associate Executive Director          NAFSA: Association of International
                                                                             Educators
Mr. Stephen Eck                       Director of Graduate Admissions       New Jersey Institute of Technology
Dr. Eileen M. Evans                   International Education Program       George Washington University
Mr. Thomas Farrell                    Vice President, Exchange Programs     Institute of International Education
Ms. Marina Fernando                   Director, International Studies       City College of New York
                                       Programs
Ms. Patricia Fesci                    Consultant, Academic Leadership and   American Association of State
                                       Change                                Colleges and Universities
Ms. Jeannette File-Lamb               Executive Director                    Educational Testing Service
Ms. Lenore Yaffee Garcia              Director, International Affairs       U.S. Department of Education
Mr. Keith Geiger                      Director, Office of Academic          U.S. Information Agency
                                       Programs
Dr. Allan E. Goodman                  President                             Institute of International Education
Mr. Dale E. Gough                     Director, Office of International     American Association of Collegiate
                                       Education Services                    Registrars and Admissions Officers
Ms. Madeleine F. Green                Vice President                        American Council on Education
Ms. Virginia Hammell                  Assistant Director, Federal           National Association of State
                                       Relations                             Universities and Land Grant
                                                                             Colleges (NASULGC)
Ms. Linda Harbaugh                    ....................................  U.S. Department of Commerce
Mr. Fred Hecklinger                   Dean of Student Development           Northern Virginia Community College,
                                                                             Alexandria Campus
Mr. Stephen Heyneman                  Vice President                        International Management and
                                                                             Development Group, Ltd.
Mr. Ralph Hines                       Director, International Education     U.S. Department of Education
                                       and Graduate Programs
Ms. Gail Hochhauser                   Senior Director, Special Programs     NAFSA: Association of International
                                       Division                              Educators
Mr. John K. Hudzik                    Professor and Dean of International   Michigan State University
                                       Studies and Programs
Mr. James P. Hurley                   Director of International Education   Pikes Peak Community College
Ms. Arlene Jackson                    Director, Center for International    Virginia Commonwealth University
                                       Programs
Ms. Marlene M. Johnson                Executive Director and CEO            NAFSA: Association of International
                                                                             Educators
Mr. Victor C. Johnson                 Senior Director of Public Affairs     NAFSA: Association of International
                                                                             Educators
Dr. Larry H. Jones                    Associate Dean                        University of the South
Ms. Mary C. King                      Executive Director                    Association of Professional Schools
                                                                             of International Affairs
Dr. Benjamin Ladner                   President                             The American University
Dr. Richard Lariviere                 Associate Vice President              University of Texas-Austin
Dr. Marjorie Peace Lenn               Executive Director                    Center for Quality Assurance in
                                                                             International Education
Mr. Charles Lenth                     Director of Policy Studies, Higher    Education Commission of the States
                                       Education
Ms. Beverly Lindsey                   Director, J. William Fulbright        U.S. Information Agency
                                       Scholarship Board
Ms. Martha Loerke                     Director, Network Scholarship         Open Society Institute
                                       Program
Dr. John P. Loiello                   Associate Director for Educational    U.S. Information Agency
                                       and Cultural Affairs
Mr. David Longanecker                 Assistant Secretary for               U.S. Department of Education
                                       Postsecondary Education
Mr. James F. Lynch, Jr.               Director, International Students and  Pennsylvania State University
                                       Scholars
Hon. Raymond E. Mabus                 Former Governor of Mississippi        ....................................
Mr. C. Peter Magrath                  President                             National Association of State
                                                                             Universities and Land Grant
                                                                             Colleges
Ms. Ann Marinoni                      Director of International Studies     Lake Superior State University
Ms. Mary Beth Marklein                ....................................  USA Today
Mr. Michael McCarry                   Executive Director                    Alliance for International
                                                                             Educational and Cultural Exchange
Mr. Robert McCarthy                   Director, Office of East European     U.S. Information Agency
                                       and NIS Affairs
Ms. Mada McGill                       Assistant to the Deputy Director      Council for the International
                                                                             Exchange of Scholars
Mr. David McNierney                   Office of Service Industries          U.S. Department of Commerce
Dr. Shah M. Mehrabi                   Professor of Economics                Montgomery College
Ms. Cindy Barnes Ochoa                Past President                        American Association of Intensive
                                                                             English Programs
Ms. Jody Olsen                        Senior Vice President                 Academy for Educational Development
Hon. Donald M. Payne                  Member of Congress                    ....................................
Hon. William Perry                    Former Secretary of Defense           ....................................
Mr. Norman Peterson                   Director, International Programs      Montana State University
Ms. Linda A. Pfister                  Vice President                        Educational Testing Service
Ms. Rachell Punchatz                  Executive Director, Marketing         Educational Testing Service
Mr. Hoyt Purvis                       Chairman, J. William Fulbright        University of Arkansas
                                       Foreign Scholarship Board
Ms. Margaret Pusch                    Associate Director                    Intercultural Communication
                                                                             Institute
Dr. Hazel Reed                        Dean, School of Graduate Studies      Delaware State University
Dr. Sharon Robinson                   Chief Operating Officer               Educational Testing Service
Mr. William Rugh                      Ambassador                            America-Mideast Educational and
                                                                             Training Services, Inc. (AMIDEAST)
Mr. McKinney H. Russell               Senior Coordinator of Academic and    International Research and Exchanges
                                       Training Programs                     Board (IREX)
Dr. Ted Sanders                       President                             Southern Illinois University
Ms. Linda Scatton                     Director, International Activities    Educational Testing Service
Dr. Robert A. Scott                   President                             Ramapo College
Ms. Catherine Sevcenko                Senior Program Officer                Academy for Educational Development
Ms. Alonia C. Sharps                  Assistant to the President for        Prince George's Community College
                                       Minority Affairs and Affirmative
                                       Action Programs
Dr. Judith Siegel                     Deputy Associate Director for         U.S. Information Agency
                                       Educational and Cultural Affairs
Mr. Robert O. Slater                  Director                              National Security Education Program
                                                                             (NSEP)
Mr. Andrew F. Smith                   President                             The Amencan Forum for Global
                                                                             Education
Mr. Michael John Stopford             Senior Assistant to the President     The American University
                                       for International Affairs
Mr. Ned D. Strong                     Executive Director                    LASPAU (Harvard)
Dr. Shirley Strum-Kenny               President                             SUNY Stony Brook
Mr. Jerry Sullivan                    Executive Director                    AACRAO
Ms. Mary Ann Swain                    Provost                               SUNY Binghamton
Mr. Peter D. Syverson                 Vice President                        Council of Graduate Schools
Dr. Julia Taiber                      Assistant Director                    Alliance for International
                                                                             Educational and Cultural Exchange
Ms. Marie Taris                       ....................................  Ohio State University
Dr. Orlando Taylor                    Dean, Graduate School of Arts and     Howard University
                                       Sciences
Mr. Peter C. Thorp                    Vice President                        Citibank
Mr. Stephen J. Trachtenberg           President                             George Washington University
Dr. Barbara Turlington                Director, Office of International     American Council on Education
                                       Education
Mr. Jay Van Den Berg                  Vice President, Administration        Whirlpool Corporation
Mr. David L. Warren                   President                             National Association of Independent
                                                                             Colleges and Universities
Ms. Norma Williamson                  Team Leader                           U.S. Information Agency
Dr. Craig Dean Willis                 President                             Lock Haven University
Dr. H. J. Zoffer                      Senior Counsel, University Center     University of Pittsburgh
                                       for International Studies
----------------------------------------------------------------------------------------------------------------


                               __________

                Prepared Statement of Dr. Sherry Mueller

    Senator Grams, thank you for the opportunity to testify on the 
domestic impact of the State Department's International Visitor 
Program. My name is Sherry Mueller. I have the privilege of serving as 
the Executive Director of the National Council for International 
Visitors (NCIV)--the nonprofit, professional association for the 
private sector partners of the State Department who implement the 
International Visitor Program. Each year more than 80,000 volunteers--
citizen diplomats--are involved in the activities of our 97 community-
based member organizations throughout the United States. Our members 
organize professional programs, cultural activities and home visits for 
the distinguished foreign leaders who participate in the International 
Visitor Program. A list of our members by state is appended. You each 
have a membership directory and copy of NCIV's latest publication A 
Salute to Citizen Diplomacy.
    When assessing the impressive results of the International Visitor 
Program, we usually focus on the Visitors themselves--the positions of 
prominence that alumni attain and their accomplishments. For example, 
we note former Prime Minister Kaifu of Japan learned about the Peace 
Corps during his IV trip and years later helped found the Japanese 
equivalent. The current Minister of Justice of Poland credits her 
deeper understanding of democratic institutions and a market economy to 
her experience as an International Visitor.
    We also focus on how the Program enables U.S. Embassy personnel to 
be more effective. Last January, all U.S. ambassadors were asked to 
rank public diplomacy products and programs. In 2000 as in 1993, the 
last year the survey had been conducted, the International Visitor 
Program was the most highly rated.
    However, when discussing the national interest it is also 
imperative to focus on the domestic impact of exchange programs. I have 
conducted research and currently spend approximately 20% of my time 
``on the road'' meeting with these dedicated citizen diplomats. Why do 
Americans volunteer for the International Visitor Program--and for 
other exchange programs as well?

  <bullet> The most important reason can best be illustrated by an 
        adaptation of the original ad for a Pony Express rider.

          Wanted: Young wirey, skinny fellows under the age of 18. Must 
        be expert riders willing to risk death daily. Wages $25 per 
        week Orphans preferred.

    If I were to rewrite this ad for NCIV members, it would read:

          Wanted: Young at heart of all ages. Must be well-organized, 
        eager to learn, and willing to risk breaking stereolypes daily. 
        Wages--won't be discussed. Idealists preferred.

    Our volunteers come from all walks of life and represent the 
diversity of their communities--but they are all idealists. They care 
about promoting human rights and civic participation. Whether in 
Tennessee, Texas, California or Wisconsin, whether farmers, bankers, 
doctors, or teachers, these volunteers relish the opportunity to make a 
difference, as one of our member's phrases it, ``one handshake at a 
time.''

  <bullet> Their second major motivation is the education of their 
        children. Through extensive school programs and home 
        hospitality, the children of these citizen diplomats enjoy a 
        valuable supplement to their education. As a volunteer from 
        Freeport, Illinois asserted: ``My daughter can discuss 
        intelligently places her classmates can't find on a map.''

  <bullet> Many volunteers are involved with the International Visitor 
        Program and other exchanges to counter the ugly American image. 
        The Arkansas Council for International Visitors was established 
        in the early 1960s to counter the negative publicity 
        surrounding the integration of Central High School. Founder 
        Fred Darragh observed that hosting newly independent African 
        visitors helped advance integration in many U.S. communities.

  <bullet> Still others are involved because they are responsible for 
        economic development in their communities and the International 
        Visitor Program and other exchanges provide valuable 
        connections and cross-cultural experiences, particularly for 
        small and medium sized businesses.

  <bullet> The International Visitor Program reaches a broad spectrum 
        of the community. It involves a cross-section of institutions 
        and individuals who might never have the opportunity to study 
        or travel abroad. ``Travel by proxy'' is the way one volunteer 
        described her involvement.

    After receiving the invitation to testify, I sent out a broadcast 
fax to our members inviting statements. They sent wonderful articles 
and quotations (some are attached) that illustrate the remarkable 
outreach of the International Visitor Program.
    Despite the tremendous constituent involvement in exchanges, the 
overall direct exchanges appropriation fell 31% adjusted for inflation 
since FY1993. Funding for the International Visitor Program is 34% 
below FY1993. (See attached chart.) Fewer participants and shorter 
trips mean that for NCIV community member organizations, the program 
has diminished by approximately 40%. During a recent visit to Grand 
Island and Lincoln, Nebraska, our volunteers spoke of declining numbers 
and their concern that fewer foreign leaders get to smaller and more 
rural communities where they can have such a great impact. These 
concerns are all too common.
    NCIV is a member of The Alliance. We enthusiastically echo Ms. 
Johnson's request for a congressional caucus and a national policy on 
international education. Citizen diplomats leverage an enormous amount 
of resources for exchanges locally but they need your leadership at the 
national level.
    NCIV members across the United States strongly support increased 
funding for all State Department exchanges. We urge that the 
International Visitor Program, not only be restored to its FY1993 
levels, but that it be expanded to cover inflation and needed new 
initiatives. Specifically, we request that you identify additional new 
money in FY2002 to fund the GREAT Program (GrassRoots Exchange And 
Training Program) that would--under the auspices of the International 
Visitor Program--enable an additional 400 participants to come to the 
United States each year. These new participants would be local 
officials, representatives of Chambers of Commerce, and other community 
leaders who would spend the last 5-7 days of their 21 days in the 
States in their current (or in a potential) Sister City to develop 
plans of action and strengthen Sister City relationships. This addition 
to the International Visitor Program would serve as a model generating 
synergy among exchange programs and expand U.S. efforts to build 
stronger commercial and cultural ties between U.S. leaders and their 
counterparts abroad. A statement of support for the GREAT Program from 
Sister Cities International is appended. Senator Grams, we appreciate 
your interest in this new initiative.
    If the world consisted of 100 people, only five would live in the 
United States. We must learn to communicate--to work well with the 
other 95. The International Visitor Program and other exchanges help us 
do just that.
    Thank you for underscoring that fact by holding this hearing.

                                    International Visitor Program Statistics
----------------------------------------------------------------------------------------------------------------
                                                                          Nominal Dollars\1\       Constant
                     Fiscal Year                        Grant Visitors                            Dollars\2\
----------------------------------------------------------------------------------------------------------------
1993................................................              2,983                52.3                52.3
1994................................................              3,109                51.2                48.0
1995................................................              3,083                49.4                39.0
1996................................................              2,393                41.1                36.1
1997................................................              2,595                39.1                35.1
1998................................................              2,505                39.2                36.1
1999................................................              2,581                41.1                36.1
2000 (estimate).....................................              2,499                41.7                35.0
----------------------------------------------------------------------------------------------------------------
\1\ Nominal Dollars in millions.
\2\ Constant Dollars adjusted for inflation.

    In real terms, the overall direct Exchanges appropriation fell 31 
percent adjusted for inflation since FY1993. IVP funding is now 34 
percent below FY1993--the peak year for inflation-adjusted exchanges 
budget authority since FY1966.

[Attachments.]

Community Organization Members of the National Council for International
                                Visitors
------------------------------------------------------------------------
       Community Organizations
------------------------------------------------------------------------
International Services Council of      Huntsville         AL
 Huntsville-Madison County.
Arkansas Council for International     Little Rock        AR
 Visitors.
World Affairs Council of Arizona.....  Scottsdale         AZ
Tucson Council for International       Tucson             AZ
 Visitors.
University of California, Davis--      Davis              CA
 International Agricultural Visitors
 Program.
International Visitors Council of Los  Los Angeles        CA
 Angeles.
UCLA International Visitors Bureau...  Los Angeles        CA
International Relations Council of     Riverside          CA
 Riverside.
Sacramento Council for International   Sacramento         CA
 Visitors.
International Visitors Council of San  San Diego          CA
 Diego.
International Diplomacy Council......  San Francisco      CA
Silicon Valley Forum International     San Jose           CA
 Visitor Program.
International Visitors and Protocol    Santa Ana          CA
 Foundation of Orange County.
Stanford University, Office for        Stanford           CA
 International Visitors.
Boulder Council for International      Boulder            CO
 Visitors.
Colorado Springs Committee for         Colorado Springs   CO
 International Visitors.
Institute of International Education-- Denver             CO
 Rocky Mountain Regional Center.
International Center of New Haven....  New Haven          CT
World Affairs Council, Hartford, CT..  West Hartford      CT
International Hospitality Committee    Westport           CT
 of Fairfield County, CT.
Delaware Council for International     Greenville         DE
 Visitors (DELCIV).
International Resource Center of       Jacksonville       FL
 Jacksonville.
International Council of Central       Longwood           FL
 Florida, Inc..
Florida Space Coast Council for        Melbourne          FL
 International Visitors.
Miami Council for International        Miami              FL
 Visitors.
Georgia Council for International      Atlanta            GA
 Visitors.
Pacific & Asian Affairs Council......  Honolulu           HI
Iowa Council for International         Des Moines         IA
 Understanding.
Council for International Visitors to  Iowa City          IA
 Iowa Cities (CIVIC).
International Visitors Center of       Chicago            IL
 Chicago.
Freeport Area International Visitors   Freeport           IL
 Council.
Geneseo International Thanksgiving     Geneseo            IL
 Fellowship Program.
Paris International Thanksgiving       Paris              IL
 Fellowship.
Springfield Commission on              Springfield        IL
 International Visitors.
Rock River Valley International        Sterling           IL
 Fellowship.
International Center of Indianapolis.  Indianapolis       IN
Louisville International Cultural      Louisville         KY
 Center (LICC).
Council for International Visitors of  New Orleans        LA
 Greater New Orleans.
WorldBoston..........................  Boston             MA
Massachusetts Institute of Technology  Cambridge          MA
Harvard University Marshal's Office..  Cambridge          MA
World Affairs Council of Western       Springfield        MA
 Massachusetts, Inc..
International Center of Worcester....  Worcester          MA
World Trade Center Institute.........  Baltimore          MD
World Council of Maine...............  Portland           ME
University of Michigan International   Ann Arbor          MI
 Center.
International Visitors Council of      Detroit            MI
 Metropolitan Detroit.
International Visitor Committee of     East Lansing       MI
 Mid-Michigan.
Minnesota International Center.......  Minneapolis        MN
International Visitors Council of      Kansas City        MO
 Greater Kansas City.
The World Affairs Council of St.       St. Louis          MO
 Louis.
The International Visitors Center of   Jackson            MS
 Jackson.
Montana Center for International       Bozeman            MT
 Visitors.
Charlotte's Council for International  Charlotte          NC
 Visitors.
Piedmont Triad Council for             Greensboro         NC
 International Visitors.
Research Triangle International        Research Triangle  NC
 Visitors Council.                      Pk
Minot Area Council for International   Minot              ND
 Visitors.
Grand Island Council for               Grand Island       NE
 International Visitors.
Mayor's Committee for International    Lincoln            NE
 Friendship.
Kiwanis Club of Omaha, Inc...........  Omaha              NE
New Hampshire Council on World         Durham             NH
 Affairs.
 Albuquerque Council for               Albuquerque        NM
 International Visitors.
Santa Fe Council on International      Santa Fe           NM
 Relations.
International Visitors Council of      Reno               NV
 Northern Nevada.
International Center of the Capital    Albany             NY
 Region.
Buffalo-Niagara Region Council for     Buffalo            NY
 International Visitors, Inc..
Rochester International Friendship     Rochester          NY
 Council.
International Center of Syracuse.....  Syracuse           NY
Akron International Friendship.......  Akron              OH
International Visitors Council of      Cincinnati         OH
 Greater Cincinnati.
Cleveland Council on World Affairs...  Cleveland          OH
International Visitors Council, Inc..  Columbus           OH
International Institute of Toledo....  Toledo             OH
Oklahoma City International Visitors   Oklahoma City      OK
 Council.
Tulsa Global Alliance................  Tulsa              OK
World Affairs Council of Oregon......  Portland           OR
International Visitors Council of      Philadelphia       PA
 Philadelphia.
Pittsburgh Council for International   Pittsburgh         PA
 Visitors.
World Affairs Council of Rhode Island  Providence         RI
South Carolina World Trade Center--    Charleston         SC
 Charleston.
Columbia Council for International     Columbia           SC
 Visitors.
Dacotah Territory International        Rapid City         SD
 Visitor Program.
Memphis Council for International      Memphis            TN
 Visitors.
Nashville Council for International    Nashville          TN
 Visitors.
International Hospitality Council of   Austin             TX
 Austin.
Dallas Committee for Foreign Visitors  Dallas             TX
El Paso Council for International      El Paso            TX
 Visitors.
World Affairs Council of Greater Fort  Fort Worth         TX
 Worth.
Institute of International Education-- Houston            TX
 Southern Region.
San Antonio Council for International  San Antonio        TX
 Visitors.
International Visitors Utah Council..  Salt Lake City     UT
Center for International Programs,     Richmond           VA
 Virginia Commonwealth University.
The Vermont Council on World Affairs,  Burlington         VT
 Inc..
World Affairs Council of Seattle/      Seattle            WA
 Tacoma.
Spokane International Exchange         Spokane            WA
 Council.
Yakima Valley Council for              Wapato             WA
 International Visitors.
International Institute of Wisconsin.  Milwaukee          WI
------------------------------------------------------------------------


                                 ______
                                 

  The U.S. Department of State International Visitor Program--A 60th 
                         Anniversary Initiative

GrassRoots Exchange And Training Program (GREAT) for Conununity Leaders

                   Concept Paper--September 14, 2000

                                  GOAL
    The overarching goal of the GrassRoots Exchange And Training 
Program is to provide opportunities for U.S. elected officials and 
other community leaders to build enduring personal and institutional 
relationships--both commercial and cultural--with their counterparts 
abroad. Participants should have some responsibility for economic 
development and providing a governance climate conducive to the growth 
of medium and small businesses.

                              DESCRIPTION
    Each year as part of the State Department's International Visitor 
Program, U.S. Embassy Committees, with advice from Sister Cities 
representatives, will select 400 local officials, representatives of 
Chambers of Commerce, and officers of Sister Cities organizations to 
participate in a 21 day International Visitor Program. Delegations of 
5-8 officials will travel to Washington, DC, two other appropriate 
communities, and their Sister City, to meet, share best practices and 
make plans with their U.S. counterparts.

                              ASSUMPTIONS
    1. Local (municipal and county) and other community leaders are the 
pool from which national leaders will emerge.
    2. Privatization on the scale now occurring around the world will 
only succeed if (a) there are healthy, viable government structures to 
tax, regulate, and provide a sound legal context for the private sector 
actors and (b) creative partnerships between the public and private 
sectors are encouraged.
    3. To avoid duplication and take advantage of the synergy of two 
flagship exchange programs, this initiative would make possible 
unprecedented collaboration between two national networks of citizen 
diplomats--the National Council for International Visitors and Sister 
Cities, International.
    4. There is an avalanche of information about globalization and 
economic development available, but not enough firsthand human 
experience to enable government officials to analyze, evaluate, and 
derive maximum benefit from it for their communities. This short-term 
professional exchange program will provide this needed firsthand 
international experience.
    5. The United States has a vested interest in democracy--building 
and increasing civic participation at home as well as around the globe.
    Selection of Participants: Participants in the GREAT program will 
visit the United States under the auspices of the U.S. Department of 
State's International Visitor Program. They will be selected by U.S. 
Embassy Committees, with advice from appropriate Sister Cities 
representatives. Each program will be built around a specific theme or 
themes such as preserving water resources, promoting economic 
development and trade, or building NGO management.
    Each participant must be willing to make presentations to school 
classes and to other audiences while in the United States. Ability to 
speak English will be considered when selecting candidates for this 
program. However, interpreters will be provided in cases where the 
participants do not speak English.
    Program Management: The U.S. Department of State's Office of 
International Visitors will manage the program. The Office of 
International Visitors will also be in consultation with Sister Cities 
International and the National Council of International Visitors. The 
partnership between NCIV and SCI combines the strengths of two 
internationally recognized networks of citizen diplomats.

                                 ______
                                 

                       Sister Cities International,
                              1424 K Street, NW, Suite 600,
                                Washington, DC, September 12, 2000.

Dr. Sherry Mueller,
Executive Director,
National Council of International Visitors.

    Dear Dr. Mueller:

    Sister Cities International (SCI) would like to express its 
enthusiastic support for the GrassRoots Exchange and Training Program 
(GREAT), which you will be presenting to the Senate International 
Operations Subcommittee on September 14th. We believe that this 
proposal combines the unique strengths of both our organizations, and 
will foster an innovative, focused and sustainable approach to the 
International Visitor Program.
    Sister Cities International is committed to fostering citizen 
diplomacy through its incredible network of 3500 communities linked 
together around the world in 137 different countries. Our local 
chapters bring together municipal officials and community leaders to 
foster international exchange programs. These efforts are volunteer 
based, and bring out the very best in international collaboration. We 
recognize the importance of partnerships in achieving our goals, and we 
welcome this opportunity to work together with your organization to put 
forward this new initiative to the Senate International Operations 
Subcommittee.
    Increasingly, local governments through their sister city programs, 
are seeking new ways in which to foster international engagement at the 
community level. As globalization sweeps our planet, our cities and 
towns are committed to building ``globally competitive communities.'' 
This is being done through partnerships with civic and educational 
institutions, with business and technology centers, and through 
citizens and their nonprofit organizations.
    Building ``globally competitive communities'' requires our 
communities to adapt and change within our rapidly globalizing planet. 
It is about:

  <bullet> Enabling our communities and their citizens to be globally 
        competitive, not just economically but in every aspect of life. 
        While economics are critically important, communities must also 
        be competitive in terms of education, the environment, health 
        and other quality of life issues, which form the very fabric or 
        our communities.

  <bullet> Providing a platform for our citizens to be engaged as 
        ``global citizens'' in an effort to build international bridges 
        of friendship, mutual respect, and support.

  <bullet> Establishing partnerships, linkages and coalitions and 
        unleashing the incredible interests, passions, and talents or 
        citizens have for making a difference by ``thinking globally 
        and acting locally.''

    The GrassRoots Exchange and Training Program (GREAT) is a very 
important new initiative. Sister Cities International stands with the 
National Council of International Visitors on presenting this proposal 
to Senator Grams and the International Operations Subcommittee, which 
he chairs.
            Sincerely yours,
                                   Chuck Stokke, President,
                                       Sister Cities International,
                                Former Mayor, Menomonie, Wisconsin.

                             Tim Honey, Executive Director,
                                       Sister Cities International.

                                 ______
                                 

Piedmont Triad Council for International Visitors, 
                                              Inc.,
                                    815 West Market Street,
                                Greensboro, NC, September 11, 2000.

                  Triad Resources Speak Out For PTCIV

    ``. . . I have had the opportunity of meeting (PTCIV) visitors from 
around the world including Morocco, Korea, and all parts of Europe. 
These meetings have benefited the Center and assisted us in planning 
some of our programs . . . including an upcoming sojourn to Morocco for 
our Bryan School MBA students.''

                                Riad Ajami, Director
                                Center for Global Business Education 
                                and Research
                                University of North Carolina at 
                                Greensboro

    ``At the time, Sara Lee happened in be having difficulty resolving 
a trademark issue in Korea. Leon Porter, who was then Chief Counsel of 
Sara Lee Personal Products, and I were able to have very productive 
meetings with these two gentlemen (distinguished Korean lawyers).''

                                Arthur J. DeBaugh, Chief Counsel
                                International Property Law Department
                                Sara Lee Corporation
                                Winston-Salem, NC

    ``. . . a visit from citizens of Uzbekistan . . . was a mutually 
joyous event--particularly in the eleventh grade Honors English class 
made up of Asian, African-American, Palestinian and Caucasian 
students.''

                                Dr. Ann Pember, Special Populations 
                                Coordinator
                                Ben L. Smith High School
                                Greensboro, NC

    ``At one of the meetings, I met . . . an enterprising young fellow 
from Lithuania. I subsequently engaged him to handle our affairs in the 
Baltic States . . . which resulted in us being able to widen our 
sources of imported plywood . . . I consider my dues and time to PTCIV 
a worthwhile endeavor and feel both myself and my company get an 
excellent return on our investment.''

                                William F. Doran, Vice President
                                Hardwood Plywood Sales
                                Columbia Forest Products
                                Greensboro, NC

    ``I was pleased to receive Mr. Mallia and Mr. Azzopardi and you, 
yourself. I agree that each opportunity we use to share information 
reduces the wall of ignorance which separates and cripples us.''

                                Maya Angelou
                                Reynolds Professor
                                Wake Forest University
                                Winston-Salem, NC

    ``I have found occasions arranged by PTCIV to be far more 
productive than those occurring under other circumstances . . . Local 
government is of particular interest to many visitors since it is the 
critical link between individuals, neighborhoods, and requisite 
services. It is a `missing link' in many nations accustomed to 
totalitarian systems and the absence of authority at the local level.''

                                Carolyn S. AlIen, Former Mayor
                                City of Greensboro, NC

    ``It is impossible to put a monetary value on the goodwill and 
contacts that have been generated by the dozens of visitors I have met 
over the years I now have business contacts all over the world which I 
believe are of great value to me. I thank you and the PTCIV for the 
outstanding job you do in promoting global contacts.''

                                Joe Carroll, Publisher
                                Furniture/Today
                                High Point, NC

    ``(PTCIV) offers a viable, established vehicle for volunteers to 
participate in International goodwill efforts . . . as evidenced by the 
long roster of visitors to our region. The many volunteers and small 
staff of PTCIV operate very effectively as a highly specialized 
mentoring organization with clearly substantiated and documented 
instances of `satisfied customers' ''

                                Thomas L. Stapleton, CED/FM
                                Manager, Business Assistance and 
                                Development
                                City of Greensboro, NC

    ``. . . I have observed . . . international visitors . . . have 
gained a clearer appreciation of the culture and business opportunities 
afforded by our area . . . These Visitors (who already hold responsible 
positions in their communities) often attain positions of leadership 
and . . . will . . . encourage commerce and communication with our area 
and the State of North Carolina.''

                                Jonathan V. Maxwell, County Attorney
                                Guilford County, NC

    ``Not only have you promoted better awareness of this area within 
our own citizenry, but you have also educated many folks from overseas 
about the Triad, its industry, culture, and people . . . At the 
University of North Carolina at Greensboro . . . we have developed 
strong programs of cooperation with Romania and Moldova, largely built 
upon contacts provided though PTCIV auspices.''

                                Charles H. Lyons
                                Associate Provost for International 
                                Programs
                                University of North Carolina at 
                                Greensboro

    Excerpts from letters on file at the office of The Piedmont Triad 
Council for International Visitors, Inc. Document updated: July 27, 
2000.

                                 ______
                                 

                           International Diplomacy Council,
                        San Francisco Bay Area, September 12, 2000.

To: Sherry L. Mueller
Subject: Senate Hearing

    On behalf of the 1,200 member International Diplomacy Council of 
the San Francisco Bay Area, I am writing to respectfully urge you to 
expand support of the International Visitor Program. IDC was founded 48 
years ago and is one of the largest international visitor programs in 
the country. We schedule over 14,000 professional and cultural 
appointments for approximately 1,500 visitors each year.
    Our two and one-half year old Education Enrichment Program brings 
the international visitor into the classroom with in depth discussion 
on human rights, rule of law, economics, HIV/AIDS, international 
relations, the list goes on. In its short life, over 4,400 Bay Area 
students and teachers have been impacted by this highly acclaimed 
program. In fact, we cannot keep up with the student and teacher 
demand! And the 400 plus international visitors who have participated 
in this program find it one of the most rewarding parts of their U.S. 
visit.
    The International Visitor Program advances the U.S. national 
interest by putting a human face on American foreign policy, sharing 
American values and democratic institutions, and by fostering economic 
ties with rapid developing overseas markets. Large and small businesses 
in the nine Bay Area counties, including Silicon Valley, have benefited 
significantly from the professional appointments with the visitors. 
Business development opportunities have occurred through many of these 
meetings--Hewlett-Packard, Cisco Systems, Oracle, AirTouch and some of 
the small and upcoming e-commerce companies to name just a few.
    We count on your committee's support for international education 
and cultural exchange.
                                            Sharon deZordo,
                                                Executive Director.

                                 ______
                                 

                                    North Arkansas College,
                                   Harrison, AR, September 8, 2000.

To: Sherry Mueller
Subject: Exchange Programs and the National Interest

    Since June of 1988, North Arkansas College in Harrison, Arkansas 
has served as the host of the Harrison Council for International 
Visitors (HCIV), an associate council of the Arkansas Council for 
International Visitors (ACIV), one of the members of the National 
Council for International Visitors (NCIV) network. Our location in a 
small, rural community in the Ozark Mountains has enabled Northark and 
HCIV's local volunteers to offer special experiences to our guests from 
other countries. These international visitors have been unanimous in 
their praise for the personal attention they've received and the 
quality of their experiences in Harrison. In return, our local 
``citizen diplomats'' have had an opportunity to meet emerging leaders 
from more than 60 different countries. These international visitors 
have made numerous presentations to area college and high school 
classes, civic clubs, and other groups.
    The benefits of having a CIV in a community of our size are 
innumerable. The program has literally offered our area citizens and 
Northark's students a window on the world, exposing them to people, 
ideas, and cultures that they otherwise would never have had an 
opportunity to experience.
    This program is a shining example of the positive outcomes that can 
result when local volunteers, guided by experienced professionals, are 
given an opportunity to assist their country in its quest to be a 
positive influence in the global community.
    If better understanding of other cultures and people is vital to 
United States security interests, certainly the Visitors Program is 
critically important in that effort.

                                 ______
                                 

          Jordan, Dunlap, Prather & Harris, L.L.P.,
             Bank One Preston, Suite 400, 8111 Preston Rd.,
                                    Dallas, TX, September 12, 2000.

To: Sherry Mueller

    The Dallas Committee for Foreign Visitors, acting under the 
auspices of the Dallas Council for World Affairs, was formed more than 
40 years ago by Mrs. Clyde Emery, deceased. This organization has at 
its purposes:

          ``A. To receive foreign visitors sent to Dallas by the 
        various governmental agencies, and to provide them personalized 
        local itineraries, including professional appointments and 
        hospitality, satisfying the requirements suggested by U.S. 
        embassies, through the national programming agencies.

          ``B. To involve as many local citizens as possible in each 
        visitor's program, without exploiting the visitor.

          ``C. To continue serving as an all-volunteer organization.''

    We strongly believe that these three elements are like a three 
legged stool. All must be present for the best results.
    Others may address the impact of the citizen to citizen approach on 
the lives and careers of the many thousands of foreign visitors who 
have come to Dallas and received the benefit of our collective 
services. For our part, the participation of our volunteers has had 
immense impact upon their own lives. Friendships have been formed 
extending throughout the world. We have learned much of the world and 
have come to a better understanding that we are all part of the human 
race with more similarities than differences. Reciprocal visits have 
been made. Home hospitality has affected the families of our 
volunteers. This perhaps is best illustrated by the following story:
    Jill was a senior in highschool. Her mother and father and her 
grandmother had all been active in the work of our organization since 
shortly after its inception. Jill grew up with meeting guests from all 
over the world. In her grandmother's guest book there were people from 
over 60 countries who had been at her house. Jill was selected as TACT 
finalist. This is the Teen Age Citizenship Tribute sponsored by the 
Dallas Morning News. In the final selection process, Jill was asked the 
question, ``What person do you admire the most that you know and why?'' 
She promptly replied, ``It would be a teacher from Afghanistan I met at 
our home; who if he was lucky would eventually own a bicycle. He had 
such a love of his country and was so committed to serving his students 
and his country that I greatly respected and admired this man.''
    This is but an example of the effect of the International Visitor 
Program upon our several hundred volunteers who over the years have 
labored and enjoyed the work and opportunity to meet with interesting 
people from throughout the world. We believe that they have made a 
contribution to international understanding whereby they become a 
personification of the U.S. for the visitor and similarly the visitor 
has become a personification of his or her country to our volunteers.
    This program should be increased. At our end, we act as an all 
volunteer organization donating our time and money in the interests of 
better international understanding and because we enjoy it.
            Respectfully,
                                           Jerry N. Jordan,
                                   Chair Elect, Steering Committee,
                             Dallas Committee for Foreign Visitors.

                                 ______
                                 

                             Tulsa Global Alliance,
                                     2819 East 10th Street,
                                      Tulsa OK, September 12, 2000.

To: Sherry L. Mueller

Subject: NCIV Testimony

    Dear Sherry:

    Below is some additional information about Tulsa Global Alliance 
and our experience with the International Visitor Progrant.
    Tulsa Global Alliance annually hosts between 100 and 125 visitors 
from over 30 countries through the U.S. Department of State 
International Visitor Program. These visitors interacted with over 700 
Oklahomans during their professional meetings and home hospitality 
experiences and have had a substantial and positive impact on our 
community, economically and culturally. International visitors have 
served as guest speakers in local classrooms, assisted local businesses 
in making contacts abroad, and offered hospitality to Oklahomans who 
visit their countries.
    I hope this helps.
                                                Bob Lieser,
                                                  Program Director.

                      MEXICAN VISITOR--MARCH, 1999
    Tulsa Global Alliance (TGA) hosted Dr. Zidane Zeraoui, and 
International Visitor from Mexico, from March 23-26, 1999. Dr. Zeraoui 
is Director of the International Relations Department at the Instituto 
Tecnologico y de Estudios Superiores de Monterrey (Monterrey Tec) in 
Monterrey, Mexico. In keeping with Dr. Zeraoui's interest in U.S.-
Mexican relations, TGA arranged professional meetings with media, 
government agencies, NGOs and civic groups that represent the Hispanic 
community of Tulsa.
    During his visit to Tulsa, Dr. Zeraoui enjoyed home hospitality 
with Mr. Rodger Randle, Professor of International Relations at the 
University of Oklahoma Tulsa campus. He has also served as President of 
Sister Cities International and is a former Mayor of Tulsa. Since March 
1999, Dr. Zeraoui has returned to Tulsa as a guest of Prof. Randle and 
the University of Oklahoma. The two of them are organizing a joint 
conference between the University of Oklahoma and Monterry Tec that 
will take place both in Tulsa, Oklahoma, and Monterrey, Mexico.
    The conference, scheduled for Spring of 2001, will focus on U.S.-
Mexican relations and on each country's perceptions of the other. ``Dr. 
Zeraoui's visit shows how the International Visitor Program can bring 
about long-term relationships between institutions in the United States 
and other countries. This conference is a direct result of his visit to 
Tulsa and could contribute to improved U.S.-Mexican understanding.''

                      KAZAKH VISITORS--JUNE, 2000
    From June 7-10, 2000, TGA hosted a group of International Visitors 
from Kazakhstan through the U.S. Department of State Office of 
International Visitors. This program was coordinated nationally by 
Meridian International Center. The three Kazakhs, reporters from the 
city of Atyrau, report on the oil and gas industry and its impact on 
the environment. Atyrau is located about fifty miles north of a vast 
petroleum reserve in the northern Caspian Sea that may well be the 
largest oil discovery anywhere in the world in the past 20 years.
    During their visit to Tulsa, they met with representatives of the 
Tulsa World and KJRH Channel 2 to find out how reporters research 
stories in the United States, and with staff of the Oklahoma Energy 
Resources Board (OERB) to learn about OERB's efforts at cleaning up 
abandoned oil sites. The highlights of their stay in Oklahoma were 
visits to Parker Drilling and Phillips Petroleum, two companies 
currently doing business in Kazakhstan. The meetings focused on the two 
companies' operations in Kazakhstan and the steps taken by both 
companies to address environmental concerns. At Parker Drilling, the 
company's chairman, Mr. Robert Parker, Sr., and the Vice President for 
Corporate Business Development, Mr. John Gass, hosted the visitors.
    At Phillips Petroleum, the visitors met Mr. Edd Grigsby Vice 
President for Investor and Public Relations, and Mr. Bill Berry, Vice 
President for the Eurasia Division of Phillips Petroleum Corporation. 
Mr. Grigsby said that the visit was ``a good example of how the 
International Visitor program can introduce American businesses to 
potentially useful contacts abroad.''

                                 ______
                                 

          [From the Sapulpa Daily Herald, September 13, 1999]

        Peruvian Political and Legal Advisor Visits Creek County

    He was here by invitation. Arriving fresh from a whirlwind tour of 
New York City and Washington D.C., the Peruvian visitor who arrived at 
the Creek County Courthouse in Sapulpa Friday afternoon came with the 
express purpose to meet local officials in mid-America to learn how the 
electoral machine here works, by examining specifically how it works in 
Creek County. In all actuality, it would be his first real look at how 
democracy in the United States operates.
    Guillermo Gonzalez, a chief political and legal advisor to three 
members of the Peruvian Congress--and a potential Congressional 
candidate in his own right--entered the office of the Creek County 
Election Board, accompanied by interpreter Dylan G. Westfeldt, and was 
greeted at the door by Creek County Election Board Secretary Joy Naifeh 
and state Sen. Ted Fisher. The visit was arranged by the Tulsa Global 
Alliance under the auspices of the U.S. Information Agency's 
International Visitor Program. The Tulsa Global Alliance is a non-
profit organization dedicated to promoting international awareness and 
understanding throughout Northeastern Oklahoma.
    ``It's wonderful having you here,'' Naifeh said, extending a hand. 
Naifeh manages the electoral process for the 39 voting polls throughout 
Creek County. Gonzalez, speaking through Westfeldt, said he was pleased 
to be here, and after a moment of introduction, began immediately to 
ask about Creek County's political engine. ``Well, over there is one of 
our voting machines,'' Naifeh said, pointing to the computerized 
instrument that reads bar-coded data from the various polling sites. 
The small crowd hovered over the device for a moment, looking at the 
printed materials similar to what is used during an actual election. 
After a moment, Naifeh invited them into her office for a more detailed 
interview and discussion.
    Once inside, Westfeldt, speaking for Gonzalez, gave a little more 
explanation for Gonzalez's visit. He said Gonzalez, who holds a law 
degree and has worked as a journalist in both print and electronic 
media, wanted to see how the administration of elections happen in mid-
America, more because he didn't want to focus on the large metropolitan 
areas. ``He wanted to see how elections in small cities worked,'' 
Naifeh said later. ``Having learned about Oklahoma from the Oklahoma 
City bombing and the recent tornadoes and his knowledge of the Five 
Civilized Tribes, that's why he wanted to come here,'' she said. 
Besides, Westfeldt said, Gonzalez has a wide range of experience in 
political, legal and academic positions and he wanted to learn how 
election integrity is maintained. ``He's also interested in the role of 
legislative staffs at the state level as well as the federal level and 
political campaigning,'' Westfeldt said.
    In Peru, the political engine has less regulation than it does in 
the U.S., said Fisher, who was present not merely to greet the visitors 
and offer his insights on the Oklahoma political machine, but because 
he also chairs the Economic Development Committee and he's a member of 
the Tulsa Global Alliance. ``It's good to know your neighbors,'' Fisher 
said. ``When you know them, understanding creates a bond, and a bond 
trust. And from that trust, peoples of the world can learn to live and 
work in harmony.''

                                 ______
                                 
To: Sherry L. Mueller

From: Patricia Gehri <ICCF.FL@worldnet.att.net>

Subject: re congress

    The International Visitors Program benefits not only the 
International Visitors by learning about our nation first hand, but it 
benefits our own citizens through cultural exchanges. One example, 
would be Belarus, here to follow the primary elections in the Central 
Florida Area. These 10 visitors are the opposition party to a very 
dictatorial government. A panel was initiated which consisted of local 
government elected officials: this consisted of Mayors, Vice Mayors, 
Commissioners and news media. They had many questions to ask on our 
form of government and how our elected official ran a campaign.
    One Commissioner stated to the press that this was a humbling 
experience. Here Belarus was fighting to vote and have a free election 
and we had to answer that perhaps 19% to 22% would come out and vote 
for a local election. The exchanges that occur among our visitors, 
whether in schools, or a waste dump always brings about a positive 
understanding on both sides. The Intern programs and college credit 
program has enable this Council to open up the world to our student 
Interns. The more that our students and the community learn about our 
international visitors brings a strengthening respect for each other. 
There is no way to equate what one and one conversations means to our 
country, but we do feel by these International Visitors having the 
opportunity to ask questions and have our citizens answer them honestly 
brings about a mutual respect on both sides. Planting seeds of 
friendship and understanding is a lot cheaper than a peace keeping 
mission.
    Thanks, Patricia.

                                 ______
                                 

To: Sherry Mueller

From: Karen Turner <KTurner@IVCCinti.Org>

Subject: September 14th Hearing

    Sherry,
    Listed below are some quotes from a tri-fold publication we use 
that may be helpful:
    Dr. George Vredeveld, University of Cincinnati Center for Economic 
Education: ``IVC plays an important role in enhancing global 
understanding. Visitors learn from local hosts and these hosts learn 
from visitors. Importantly, our community learns more about itself 
through the opportunity that the IVC makes available to us.''
    David B. Lee, Marketing Director, F&W Publications, Inc.: ``What a 
wonderful program for Cincinnati. In todays increasingly global world 
and economy, we need to understand and relate to other cultures. . . 
.''
    10th Grade Student, Lakota High School: ``Dear International 
Visitors Council, Thank you for sending our class newspapers. Since we 
are learning about diversity, it was fun to read about it in a 
newspaper for a change. I normally don't get a chance to read the 
paper. From getting to read these papers, I feel more in touch with the 
world.''
    Joe Mass, president of JTM Food Group: ``I am grateful the 
International Visitors Council gives me the opportunity to exchange 
viewpoints with other cultures. I am glad to have the opportunity to 
help, in some small way, to get Russia on its feet. The stability of 
our global economy impacts my business directly. IVC does a great job 
helping our foreign visitors gain useful knowledge in growing their 
businesses.''
    From an International Visitor: ``This IVC Program taught me that 
Americans are anxious to share their knowledge and experience. . . and 
that they're willing to learn from us to.''

                                 ______
                                 

To: Sherry L. Mueller

From: Diane Elton <delton@ucrac1 .ucr.edu>

Subject: Comments for Hearing

    My Personal Gratitude for a Lifetime Civic Gift.
    Having studied abroad for the academic year 1969-70, I was thrilled 
to realize a dream of finally visiting Washington, D.C. after having 
seen the capitals of so many other nations. The IYP and Riverside's 
local affiliate, The International Relations Council, permitted this 
onetime 26-year old to visit her nation's capital as a citizen 
diplomat. With that 1975 COSERV/NCIV conference, I felt the palpable 
difference of freedom and access available to me as a U.S. citizen from 
what I had felt as a young visitor, for example to the former Soviet 
Union. Indeed over these decades, I relish my exchanges with colleagues 
who also express their gratitude to the IVP for permitting them to 
``feel'' the connectedness between what we offer in service to 
international understanding and foreign policy in our home towns and 
the national perspective in Washington, D.C. I truly do not know of a 
more effective means of linking the legislative and executive profiles 
of this country in the minds and hearts of individual citizens than the 
International Visitor Program.

                              IMPACT SPOTS
    (1) Volunteers worry how a former delegate of a GrassRoots 
Democracy (Phelps Stokes) group is doing with his NGO promoting 
community justice . . . in Colombia. Volunteers reassured a couple of 
years later during a local visit by the U.S. Ambassador to Colombia 
that all is well.
    The Department of State needs to be able to continue to provide 
this full domestic array of expression of our foreign policy. The 
nature of world affairs requires multiple and reinforcing experiences 
for an informed citizenry who will better engage the International 
Visitor.
    (2) A stunning model of healthful living, the Executive Director of 
New Zealand Nutrition Foundation extols a class of attenuates at one of 
the most ethnically diverse high schools to pay attention to their 
nutrition. According to the coach, the athletes really did exhibit, at 
least for a month, different eating patterns. Beyond the improved 
performance in sport the visitor promised, the students commented that 
was the first personal interaction they had had with someone from New 
Zealand and inquired how she got all the way to Riverside, California.
    So developed the opportunity to educate some emerging voters of 
America on the impact and value of volunteering and how the government 
develops foreign policy. Besides, we all like to think that the team 
won that day's tough Homecoming game with the extra IVP boost.
    (3) Quick! A What do you know about Djibouti? message raced through 
the volunteer ranks as Riversiders prepared to receive the first 
visitor from this new country. Nothing in print from ordinary sources, 
save the masterful briefing prepared by the Post.
    This IVP provided the extremely important message about the fast-
changing, contemporary political world. Our volunteers felt compelled 
to campaign for more foreign news in local press and an expansion of 
resources in the local library.
    (4) Unexpected Memorable Spirituality. Completing a visit on 
governance with the Tribal Council of the San Manual Band of Mission 
Indians, the Mayor of Santiago del Estero, Argentina, asked for the 
closing moment. With eloquence equal to the native tongue of the Band, 
the Mayor (not a native speaker) recited in the language of the 
indigenous tribe of his city a beautiful ``poem'' which turned out to 
be the Lord's prayer. Silence and emotion crossed cultures.
    Many aspects of the IVP can not be measured. Testimonials must be 
given equal or higher value than mere quantitative reports.

                                 ______
                                 

To: Sherry L. Mueller

From: Albuquerque C. International-Visitors

Subject: ACIV Inputs for Sept. 14 Hearing

    Dear Sherry, thank you for requesting our input for your hearing. 
Here are our ideas:
    ACIV is an all volunteer organization which hosts approximately 300 
visitors annually. We believe that peace in the world happens when 
people know and trust one another.
    Our volunteers meet and escort visitors throughout Albuquerque and 
New Mexico, and home hospitality often provides international visitors 
their first exposure to an American home.
    Our ``citizen diplomats'' are very motivated by the very positive 
interactions and feedback we receive from our visitors.
    For example: A recent visitor from Hong Kong stated: ``The 
opportunity to got to ordinary people's home gave me a better 
understanding of the American Society.''
    A visitor from Vietnam said: ``A visit to Isleta Pueblo completely 
changed my understanding of the Native American.''
    Sherry, best of luck. Could you please send us a copy of your final 
testimony?
                                              Bill Yarnall.

                                 ______
                                 

To: Sherry L. Mueller

From: Maria Wrigley, Director, UCLA International Visitors Bureau

Subject: Importance of the International Visitors Program

    Dear Sherry: In response to your request in support of the 
International Visitor Program, I would like to submit following 
statement.
    The UCLA International Visitors Bureau has actively supported the 
International Visitor Program since 1967 and has served as a liaison 
between UCLA administrators/faculty and international academic and 
professional leaders. The staff and volunteer ``citizen diplomats'' 
have provided appropriate contacts between hundreds of international 
visitors and the UCLA community which have developed into, mutually 
beneficially, intellectual exchanges and strategic alliances.
    The UCLA curriculum, research, and cultural programs encompass a 
broad spectrum of instruction and inquiry with respect to the nations, 
peoples and languages of the world. The University is a magnet to 
visiting scholars who wish to engage in the exchange of knowledge 
around the globe.
    It is of vital importance to foster these international exchange 
programs which play a major role in enhancing international 
understanding among citizens of the world.
    We urge the support of this people-to-people International Visitor 
Program.
    We wish you a very successful presentation to a cause, which we, at 
the UCLA International Visitors Bureau, strongly support--to foster 
international understanding.

                                 ______
                                 

             University of California, Los Angeles,
                             International Visitors Center,
                               Los Angeles, CA, Semptember 9, 2000.

Sherry Mueller, Ph.D.,
National Council for International Visitors,
1420 K Street, NW, Suite 800,
Washington, DC.

    Dear Sherry:

    I have been a volunteer in the UCLA International Visitors Bureau 
for several years. Meeting many international visitors sponsored by the 
State Department has been a most rewarding and enriching experience. As 
a volunteer ``citizen diplomat'' I provide support to the staff members 
of the UCLA International Visitors Bureau and have established personal 
friendships with visitors from around the globe.
    I strongly recommend the support of the international exchange 
programs in our national interest.
            Sincerely,
                                           Annette Lehmann.

                                 ______
                                 

  Springfield Commission on International Visitors,
                                         109 North Seventh,
                               Springfield, IL, September 13, 2000.

Re: Statement of support for the International Visitors Program

    The City of Springfield created the Springfield Commission on 
International Visitors in 1962. For 38 years volunteers have 
enthusiastically contributed their time, local and state leaders have 
been actively involved in the programming, and thousands of 
internationals have benefited from their visits to Springfield. The 
fact that this city has sustained this program with financial support 
and staffing for almost 40 years says more than anything else does 
about its importance and value to our community.
                                       Karen Hasara, Mayor.

              Prepared Statements Submitted for the Record

                              ----------                              


  Prepared Statement of the American Association of Intensive English 
                            Programs (AAIEP)

    Mr. Chairman:
    We deeply appreciate this opportunity to encourage our government 
to support the President's April 19, 2000 Memorandum on International 
Education Policy, in which he stated ``We are committed to . . . 
encouraging students from other countries to study in the United 
States.'' The biggest single discouragement to such student mobility is 
the existence of outdated regulations which lead to inappropriate and 
expensive visa-processing at U.S. consular posts, and an unnecessary 
enforcement burden on the already overburdened U.S. immigration system.
    Our organization represents the intensive English program sector of 
higher education. Over 300,000 international visitors come to the 
United States every year to learn English and to experience American 
life. These visitors represent a significant part of the U.S. export 
economy, spending over $2 billion annually. Their visits to the U.S. 
and enrollments in intensive English programs (hereafter IEP) are fully 
financed from their own or other funds from abroad. These nonimmigrant 
visitors should not be confused with non English-speaking residents of 
the U.S. or immigrants whose English instruction is publicly funded. 
These visitors bring far more financial benefit to the communities in 
which they stay than merely paying tuition to intensive English 
programs. They stay with families or in extended-stay lodging, they 
rent or buy cars, they visit local tourist attractions.
    Other English-speaking countries (principally Australia, Canada and 
the United Kingdom) compete aggressively for this IEP market. They 
already enjoy a significant advantage in this competition over the U.S. 
in having very active government support for their industry along with 
less stringent entry requirements for this low-risk group.
    In addition to the enormous financial benefits these 300,000 
international visitors bring to the communities in which they stay, 
they represent a very significant foreign policy asset when they return 
home. They are exceptionally well placed by educational and family 
background (as well as by their English training) to achieve positions 
in the leadership elite of their countries. They remember their time in 
our country with affection and respect. This translates into a web of 
invaluable connections for the U.S. around the world.
    This is a young industry: most U.S. intensive English programs were 
established in the 1970's and 1980's. It has grown as mass tourism, 
globalization, open markets, and the pervasive influence of the United 
States have grown. Knowledge of the English language is now recognized 
as prerequisite to success in the global economy.
    The United States is alone among English-speaking countries in 
treating short-term English-language program participants as equivalent 
to long-term students, requiring student visas, rather than as 
tourists. This requirement unnecessarily and very significantly 
increases costs at overseas U.S. consular posts, and leads to large 
numbers of potential visitors choosing Australia, Canada, or the United 
Kingdom for their short study-visit, rather than the United States. 
This increase in government-costs, and decrease in export-income, comes 
with no improvement in the integrity of the U.S. immigration system.
    We urge your attention to the removal of outdated and unnecessary 
obstacles to international student mobility.

                                 ______
                                 

            Prepared Statement of the Fulbright Association

    The Fulbright Association is a private, nonprofit membership 
association of more than 6,000 Fulbright alumni. The Fulbright 
Association supports and promotes the Fulbright Program and works to 
strengthen the national and global networks of Fulbright alumni. The 
Association facilitates relationships among, and the public service of, 
former Fulbright grantees. The Association's 37 chapters across the 
country provide hospitality and enrichment activities for foreign 
Fulbright students, scholars, and teachers during their stay in the 
Unied States
    International educational and cultural exchange initiatives like 
the Fulbright Program bring considerable and tangible benefits to the 
U.S. national interest. These people-to-people exchanges benefit the 
economy, strengthen the educational system, and enrich not only the 
lives of the exchange participants, but the communities and 
institutions in which they reside and work.
    Since its establishment by Congress in 1946, the Fulbright Program 
has provided grants to over 200,000 individuals. These Fulbright 
exchanges between U.S. students, teachers, and scholars and their 
counterparts in approximately 140 other countries result in significant 
benefits to U.S. communities. The Fulbright Program helps to strengthen 
relationships among individuals and institutions across borders, 
promoting a more stable and peaceful world. Fulbright exchanges develop 
critical foreign language, cross-cultural and area studies skills 
needed among U.S. citizens to meet the challenges of a new century. 
Through its merit-based, open, selection processes and its bilateral 
decision-making, the Fulbright Program provides extraordinary 
opportunities for sharing knowledge and for promoting democratic 
values.
    Core funding from the U.S. government supports the global Fulbright 
Program and helps to leverage cost-sharing from a significant number of 
foreign governments and from private sources. In order to secure the 
foundation of Fulbright exchanges worldwide and to maximize 
opportunities to leverage other resources, restoration of adequate U.S. 
funding is essential. Cuts in funding since 1996 have diminished U.S. 
capacity to identify and develop U.S. leaders with critical 
international perspectives and foreign leaders with informed 
perceptions of U.S. goals. The Fulbnght Program--whose acceptance here 
and abroad is a national asset--furthers long-term U.S. interests in an 
increasingly complex international geopolitical world and must be 
funded accordingly.
    The Fulbright Association advocates increased support for the 
Fulbright Program and other international educational and cultural 
exchanges. A renewed commitment to international exchanges would 
indicate recognition of the broad and vital role exchanges play in 
strengthening the U.S. national interest both at home and abroad.

                                 ______
                                 

    Prepared Statement of Dr. Allan E. Goodman, President and Chief 
        Executive Officer, Institute of International Education

    Mr. Chairman and Members of the Subcommittee.
    Thank you for affording me this opportunity to submit this 
statement for the record on a topic that is so important to America's 
future. Increasing international educational exchange is the best 
investment we can make to assure a more peaceful world and one in which 
America has friends. By focusing attention on this issue, the 
Subcommittee is helping to promote a national, bipartisan consensus on 
an issue of critical import for the 21st Century.
    For the past two years, I have been the President and Chief 
Executive Officer of the Institute of International Education (IIE). 
Prior to that I spent nearly 20 years as a dean at the Georgetown 
University School of Foreign Service and director of graduate programs 
there. I have also served in government. In both worlds, my focus has 
been on preparing people to live and work in the ever more 
interconnected global economy in which we now live.
    The Institute of International Education is the world leader in the 
exchange of people and ideas. The Institute was founded at the end of 
World War I by two winners of the Nobel Peace Prize, Elihu Root and 
Nicholas Murray Butler, and a renowned professor of diplomatic history, 
Stephen P. Duggan. They founded the Institute on the premise that 
educational exchange would foster an understanding of other peoples and 
cultures and, in the long run, make the world a less dangerous place.
    We at IIE design and administer a range of programs which foster 
international educational exchange. We do this for governmental 
agencies, corporations and foundations. IIE has administered the 
Fulbright Educational Exchange Program on behalf of the U.S. Department 
of State since its inception. IIE proposed and then lobbied for the 
creation of the non-immigrant student visa in 1921, and is today the 
leading source of information on student mobility and study abroad 
opportunities for students, scholars and college foreign student 
advisors. In November, during International Education Week, we will be 
issuing the results of the 51st annual census of international 
educational exchange trends, known in the trade as Open Doors.
    For half a century, the United States has been the destination of 
choice for those studying abroad. We are still the world leader, but 
the percentage of those studying here has declined from over 40% to 30% 
in the past ten years. The implications of a continued erosion of this 
market share are ominous. It will adversely affect our economic 
security, our colleges and our future.
    Nearly 500,000 foreign students study in the United States each 
year. The Department of Commerce considers this an export of services 
valued at $13 billion dollars annually. Other countries have for years 
been seeking to encroach on the Unites States' market share for foreign 
study. For purely economic reasons, the U.S. should protect this. For 
policy reasons, we should seek to have the largest possible number of 
students from abroad experience life in our country and come to 
understand our democratic institutions and our economic system.
    Foreign students coming to the United States are important to 
America's future. Studying here gives them an opportunity to observe 
and to live in an open democratic system of government, experiencing 
all the freedoms we take for granted. They perfect their English 
language skills and learn about the economic potential of our country 
as a trading partner. Upon their return to their country of origin, 
they take with them an appreciation of democracy that is sure to 
influence their relationship with their own government. Their 
perspectives are informed by their personal experience of American 
values and the American way of life. As they mature professionally, 
they will be more inclined to turn to the States as a supplier of 
products with which they have some familiarity. Those who enter the 
diplomatic corps or other government service will view the U.S. with an 
understanding and appreciation that can only come from having lived 
here.
    On June 18 of last year, British Prime Minister Tony Blair launched 
a campaign to increase the number of international students in the U.K. 
by 75,000. His stated goal is ``to have 25 percent of the global market 
share of higher education students'' studying in the U.K. In pursuing 
that, his government has funded a $7.78 million marketing campaign to 
develop the U.K. educational brand. In launching the campaign, Blair 
noted the long term mutual benefits:

          People who are educated here have a lasting tie to our 
        country. They promote Britain around the world, helping our 
        trade and our diplomacy. It is easier for our executives and 
        our diplomats to do business with people familiar with Britain.

    Similar initiatives have been announced in recent months by the 
governments of France, Germany and Australia. These countries recognize 
the dividends that accrue from opening educational doors. Their 
academic leaders truly believe in the importance of intercultural 
learning.
    Our colleges and universities need the intellectual stimulation 
that foreign students provide, especially at the undergraduate level. 
About four percent of students enrolled in American higher education 
are non-U.S. citizens. As a former professor, I know that having 
foreign students in class changes not only how one teaches, but also 
what students learn. With so few Americans studying abroad, increasing 
the number of foreign students here offers an opportunity for U.S. 
students to learn from, and work together with, someone from another 
culture.
    For students from the U.S., an opportunity to study abroad, to 
learn other languages and other cultures, is essential preparation for 
senior management positions in global corporations. Today only about 
115,000, less than one percent of American college students study 
abroad, however, and very few speak a second language fluently. We can 
and should do better. Indeed we must, if our corporations are to retain 
their competitive strength in this world economy.
    With the advent of a new century and an unprecedented period of 
globalization, the United States needs a policy to actively promote 
international educational exchange.
    We have very few tools and not enough resources to assure America's 
prominence in the international educational field. President Clinton 
took an initial step in this direction with the issuance of a 
memorandum to the Secretaries of State and of Education, directing them 
to work toward that end. Secretary of Education Richard Riley has 
addressed the elements of such a policy. Recently, the President 
declared the week of November 13 to 17 to be International Education 
Week. Congressman Ben Gilman, Chairman of the Committee on 
International Relations of the House of Representatives introduced 
legislation (The International Academic Opportunity Act of 2000, H.R. 
4528) which, if enacted, would provide scholarship assistance to 
students with demonstrable financial need to assure them the 
opportunity to benefit from an international educational exchange 
opportunity. The Gilman Scholarships would be limited to U.S. citizen 
students receiving Pell Grant assistance. These are all welcome steps.
    The Administration's proposed budget for the next fiscal year, 
includes $225 million for international educational exchanges such as 
the Fulbright Program. Public opinion polling in many developing 
countries tells us that the United States is perceived by many as the 
greatest threat to world peace today. The amount requested for 
educational exchange is woefully inadequate to support the single best 
means we have to rebut that sentiment.
    The budget also provides $3.1 million for overseas advising centers 
serving as the gateways for foreign students seeking to study in the 
United States. This compares to the investment of more than twice that 
by the U.K. to entice international students to study there, and more 
by the other countries seeking a share of that market.
    We need champions in Congress to support educational exchange and 
to defend the government's strategic role in encouraging it.
    Thank you, Mr. Chairman, for taking the leadership to highlight a 
topic of significance for our country as we enter the 21st Century, a 
century where not only what people learn, but where they learn it could 
make the difference between war and peace.

                                 ______
                                 

 Prepared Statement of Robert B. Kaplan, Emeritus Professor of Applied 
    Linguistics (formerly, Department of Linguistics, University of 
                          Southern California)

    Please accept the following contribution to the hearing record on 
the benefits of International Education Programs.
    Knowledge depends critically on the free flow of information, and 
the free flow of information, in turn, depends on the ability of 
persons to move internationally for educational purposes.
    Over the past forty years, I have engaged actively in international 
education and therefore I take the liberty of speaking from the 
perspective of a private citizen and an expert. International 
educational activity has taken me to more than 30 countries, has 
enabled me to ``profess'' at academic institutions in all those 
countries, and has further provided the opportunity to meet 
professional colleagues not only from the more than 30 countries 
indicated but from a much broader base. On the other hand, I have had 
the opportunity to teach literally thousands of international students 
studying in the United States.
    It is shocking that the United States has carelessly wasted the 
resources of the huge multilingualism of its own population and has 
failed to recognize the enormous foreign policy assets represented by 
International Education Programs. At the almost trivial level, 
international students represent a significant ``export'' income. Quite 
aside from that, International Education not only brings talented 
individuals to the United States to study, but it permits U.S. citizens 
to travel to, and study in, other countries, in other cultures, among 
other ethnicities, and thus to learn other languages. The 
monolingualism of a significant part of the U.S. population is equally 
shocking. But the NAFSA statement on International Education is no 
doubt already a part of the hearing record, and there should be no need 
to rehearse its contents here.
    It is critical that the federal government take cognizance of the 
assets it has frittered away. The Congress, on the contrary, has 
enacted legislation the effect of which is to impose greater and 
greater barriers to the free movement of scholars and the free flow of 
information. The enactment of such legislation is based, at least in 
part, on a fear of the infiltration of ``terrorists'' into the U.S. 
society, but the number of terrorists among international students (a 
trivial figure) is far exceeded by the number of terrorists who are 
U.S. citizens. The Congress and the federal agencies have imposed fees 
that guarantee the arrival in the United States of only some minor 
segment of the elite rather than the rank and file of the best and 
brightest.
    This letter is a heartfelt plea for rationality on the part of the 
Congress. There is, now more than ever before, a need for a national 
policy on International Education--a policy that will allocate 
resources to the uninhibited movement of intellectual talent into and 
out of this country, a policy that will facilitate the movement of 
intellectual talent rather than inhibit it, a policy that will not only 
remove political obstacles but that will take a rational approach to 
the financial support of reasonable costs to support such movement 
rather than putting the full burden on the backs of those least able to 
pay (it is a readily observable fact that the denser the bureaucracy 
the greater the cost of supporting it), a policy that will recognize 
the huge asset represented by multilingualism in the U.S. population 
and will simultaneously support an increase in multilingualism by 
encouraging the learning of languages other than English, a policy that 
will, once and for all, put an end to the illogicality of declaring 
English the official language of the United States, which, if enacted, 
will cost far more than the support of language learning and 
international exchange and which will constitute an absurdity akin to 
designating crab grass an endangered species.
    It is surely not too much to expect farsightedness and intelligence 
on the part of the country's leadership. It is not too much to expect 
the Congress to act in the best interests of the nation rather than in 
the best interests of any political party, any special pleading, any 
vestiges of isolationism drawing the nation into the past instead of 
moving it into the future.
    In 1990, the Native American Languages Act was enacted. The Senate 
is now considering an amendment to that Act (S. 2688) to establish 
Native American language ``survival'' schools. This is a major step in 
the right direction. To preserve and augment the linguistic diversity 
of the United States, why can't the Congress consider similar 
legislation for all ethnic minority languages? And then it is only a 
small further step to act to insure language learning among English 
monolinguals. Such linguistic foresight will strengthen the nation, 
minimize intercultural misunderstanding, and assure that international 
educational exchanges will profit those who participate.
    There is nothing to lose, and everything to gain. I respectfully 
urge the Congress to enact, in the present session, a National 
International Education Policy designed to remove obstacles and enhance 
opportunity for all citizens.

                                 ______
                                 

   Prepared Statement of Dana Bresee Keeth, Director, International 
         Scholars Office, Massachusetts Institute of Technology

    We would like to contribute the following statement for the hearing 
record on the benefits of international education programs. This is in 
connection with the senate hearings on international education that 
were held on September 14.
    Speaking for the International Scholars Office at the Massachusetts 
Institute of Technology, we strongly support an international education 
policy for the United States. MIT is committed to the exchange of 
foreign students and scholars, and to sending U.S. students and faculty 
members abroad for educational experiences. Out of a total body of 
9,845 students, 2,255 are from overseas studying toward undergraduate 
and graduate degrees. In the course of a given year, nearly 1,400 
scholars from overseas are teaching in their fields of specialization 
and/or undertaking ground breaking research in many technological 
fields here on campus.
    We are very encouraged by President Clinton's April 19 memorandum 
calling for an international education policy, and are most eager to 
see such a policy put into practice. An international education policy 
highlights the importance to the U.S. of foreign student and scholar 
exchanges. It acknowledges the interdependence of the world and the 
growing importance of international educational exchanges, cross-
cultural understanding and collaborative research. Such a policy sends 
a positive message of welcome to overseas students and scholars 
contemplating study in the U.S., and to those providing funds for their 
support. It can simultaneously promote foreign language study in the 
United States and encourage U.S. students and scholars to seek more 
cultural and educational opportunities overseas. It can also provide 
incentive to U.S. colleges and universities to initiate, promote and 
expand international programs and activities.
    Implementing an international education policy would go a long way 
toward resolving a national ambivalence about the value of foreign 
nationals. A united sense of purpose and an agreed upon set of goals 
would inform everything from educational programs and opportunities to 
immigration regulations. It would help to dispel the erroneous image 
created in recent years that foreign students are synonymous with 
terrorist acts. It would correct the longstanding misconception that 
the number of highly skilled and talented foreign scholars coming to 
share their knowledge and expertise in colleges and universities needs 
to be restricted each year due to labor market concerns. Immigration 
regulations, initiatives and procedures could be made to coincide with 
the national vision and fit into a more integrated whole.
    We are grateful for the opportunity to contribute to this very 
important dialog.

                                 ______
                                 

                  Prepared Statement of World Learning

    When 23 young students embarked from New York harbor for France in 
June 1932, the ``Experiment in International Living'' was born. Founder 
Donald Watt believed that fostering deep connections between 
individuals by living and learning together would transcend borders and 
create understanding between cultures, and ultimately, peace. Nearly 
seven decades later in this age of globalization, his vision is more 
relevant than ever as individuals are increasingly important players in 
international relations.
    World Learning, one of the nation's oldest and largest non-profit 
exchange organizations, based in Brattleboro, Vermont, continues to run 
Experiment programs. This summer over 900 high school students from 40 
U.S. states were immersed in the cultures of 24 countries around the 
world. In addition to the broader goals of mutual understanding and 
intercultural learning, such programs very personally change lives. 
Several current U.S. ambassadors and two members of the 106th Congress, 
for example, first gained an interest in foreign affairs as youth on 
Experiment programs.
    World Learning and its accredited School for International Training 
(SIT) now administer a wide range of international exchange programs, 
including college study abroad and professional skills training. While 
the majority of World Learning's programs--and exchange opportunities 
in general--are privately funded, World Learning believes that federal 
public policy plays a critical role in the promotion of international 
exchange. The government articulates the national interest rationale 
for international exchange and federally-sponsored programs leverage 
significant private resources. Therefore, World Learning is pleased to 
endorse President's Clinton April 2000 International Education Policy 
and calls on the Committee to support bi-partisan legislation that 
would help to realize the goals set out in the policy.
    SIT Study Abroad offers 56 semester-length programs in 42 countries 
with a special emphasis on non-traditional locations; it is the largest 
sender of students to Africa and Asia. Programs have substantive themes 
such as community development and peace and conflict studies. SiT also 
has pioneered efforts to diversify the study abroad population, 
including providing scholarships to science students from Historically 
Black Colleges and Universities. World Learning urges the Committee to 
offer a companion bill to Chairman Ben Gilman's legislation, H.R. 4528, 
to establish a grant program so that students of limited financial 
means gain the opportunity to study abroad.
    In this short statement, we would like to highlight two English 
Language Programs, small but important activities administered by World 
Learning's School for International Training for the State Department's 
Bureau of Educational and Cultural Affairs. The English Teaching Fellow 
Program sends some 40 teachers with Master's degrees in English as a 
Second Language around the world to increase the American presence, 
enhance American cultural training, and improve academic standards in 
the teaching of English. A participant in Cambodia recently wrote that 
``The presence of an English Teaching Fellow has significantly improved 
English language teaching at my host institution, the Royal University 
of Phnom Penh.''
    The EFL Fellow Program sends seasoned American language 
professionals to serve in the Independent States of the former Soviet 
Union and Eastern Europe. The primary objective of the program is to 
promote the teaching and learning of English as a vehicle to foster and 
develop democracy. A recent fellow increased understanding of legal 
English in Romania by working with judges in four regions of the 
country. World Learning has found that these programs have high impact 
with limited investment and have demonstrated measurable success in 
meeting their objectives. World Learning appreciates the continued 
support of the Committee for the English Language Programs.
    Finally, World Learning would like to thank the Foreign Relations 
Committee for its continued oversight as the Bureau of Educational and 
Cultural Affairs moves to open to fair and transparent competition the 
large exchange program grants--some for the first time in 50 years. 
Expanding the pool of partners will help ensure that federally-
sponsored exchange programs are of the highest quality and conducted in 
the most costeffective manner possible.

                               <greek-d>

      

</pre></body></html>
